<html>
<title> - IMPEDIMENTS TO PUBLIC RECREATION ON PUBLIC LANDS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
           IMPEDIMENTS TO PUBLIC RECREATION ON PUBLIC LANDS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                          Tuesday, May 7, 2013

                               __________

                           Serial No. 113-14

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      



                  U.S. GOVERNMENT PRINTING OFFICE
80-815                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f592859ab5968086819d909985db969a98db">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Vacancy

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Niki Tsongas, MA
Doug Lamborn, CO                     Rush Holt, NJ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Scott R. Tipton, CO                  Pedro R. Pierluisi, PR
Raul Labrador, ID                    Colleen W. Hanabusa, HI
Mark E. Amodei, NV                   Steven A. Horsford, NV
Chris Stewart, UT                    Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Edward J. Markey, MA, ex officio
Doc Hastings, WA, ex officio



                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, May 7, 2013.............................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     3

Statement of Witnesses:
    Bacon, Sutton, Chief Executive Officer, Nantahala Outdoor 
      Center, Board of Directors, Outdoor Industry Association, 
      Bryson City, North Carolina................................    17
        Prepared statement of....................................    19
    Bannon, Aaron, Environmental Stewardship and Sustainability 
      Director, National Outdoor Leadership School...............    45
        Prepared statement of....................................    47
    Brown, David L., Executive Director, America Outdoors 
      Association................................................    30
        Prepared statement of....................................    32
    Duncan, John F., Managing Partner, Telluride Fly Fishing Co., 
      Inc., dba Telluride Outside Outfitter and Guide............    49
        Prepared statement of....................................    51
    Friedman, Michael, Managing Partner, Adventure Partners, LLC.    13
        Prepared statement of....................................    15
    Heck, Hon. Joseph J., a Representative in Congress from the 
      State of Nevada............................................     4
    Kauffman, Teresa ``Terry,'' Rancho Red Rock..................     9
        Prepared statement of....................................    10
    Lindsey, Rick J., President, Chairman and CEO, Prime 
      Insurance Company..........................................     6
        Prepared statement of....................................     8
        Statement dated August 2, 2012, submitted for the record.    67
    McFarland, Scott, Owner, High Point Adventures...............    11
        Prepared statement of....................................    12
    Merrill, Brian I., CEO, Western River Expeditions, Salt Lake 
      City, 
      Utah.......................................................    42
        Prepared statement of....................................    43
    Simonds, Grant, Executive Director, Idaho Outfitters and 
      Guides Association.........................................    39
        Prepared statement of....................................    40

Additional materials supplied:
    List of documents retained in the Committee's official files.    69
                                     



   OVERSIGHT HEARING ON ``IMPEDIMENTS TO PUBLIC RECREATION ON PUBLIC 
                                LANDS''

                              ----------                              


                          Tuesday, May 7, 2013

                     U.S. House of Representatives

       Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:07 a.m., in 
Room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, McClintock, Lummis, 
Labrador, Daines; Grijalva, DeFazio, Shea-Porter, and Garcia.
    Also Present: Representative Heck.
    Mr. Bishop. All right, this hearing will come to order. 
Even though it sounds like a mausoleum out there anyway, you 
will be orderly now. The Chair notes the presence of a quorum 
on the Subcommittee on Public Lands and Environmental 
Regulation. We are meeting here today to have oversight 
testimony on ``Impediments to Public Recreation on Public 
Lands.''
    So, under the rules, opening statements are limited to the 
Chairman and the Ranking Member. However, I ask unanimous 
consent to include any other Members' opening statement in the 
record, if they submit it to the clerk by close of business 
today. And, hearing no objections, it is so ordered.
    If I can start with my opening statement and see if we can 
move this along as best we can.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Americans are clearly blessed with vast 
expanses of land suitable for almost every type of outdoor 
recreation: hunting, fishing, off-road vehicles, hiking, 
camping, boating. They are among the recreational activities 
that, for generations, American families have enjoyed on public 
lands.
    In my home State of Utah, outdoor recreation opportunities 
are aplenty, from world-class skiing in the north, to the Red 
Rock Country in the south, Utah is a truly remarkable place to 
enjoy the great outdoors. Utah is leading the way when it comes 
to accommodating outdoor recreation enthusiasts and business. 
Governor Herbert recently released the ``State of Utah's 
Outdoor Recreation Visit,'' which we could probably kill a 
whole lot of trees if I put that in the record, but it is 
there.
    The State legislature adopted this vision, its first 
recommendations, when they created the Office of Outdoor 
Recreation. And I have initiated a multi-stakeholder process to 
harness Eastern Utah's conservation, outdoor recreation, and 
mineral assets into a balanced, locally driven concept.
    Although our opportunities on Federal lands are 
unsurpassed, they are not being realized as fully as they 
should, simply because Federal land management has become often 
bureaucratic, always autocratic, and traditionally 
dysfunctional. I believe this dysfunction has catapulted 
Federal land management to the forefront of the public lands 
issues. And I believe we are in the midst of a paradigm shift 
when it comes to the management of our Federal lands. Put 
simply, a major reassessment of our Federal land management 
apparatus is clearly needed.
    Public use is one of the fundamental purposes of public 
lands, and it requires an open and a fair process. Properly 
managed, our lands could provide far more toward our economic 
well-being, our recreational use, and our conservation 
interest. To be good stewards of the Federal land, we need to 
encourage all three objectives, and they are compatible. It is 
not a zero-sum game. The land and all the nature of this big 
continent is resilient, it is dynamic, it responds well to good 
management.
    In many instances, public access and enjoyment depends upon 
the service of outfitters and guides. These outfitters and 
guides are typically small, locally owned businesses who 
operate on a very small profit margin. They provide jobs, they 
are integral to the communities that surround our public lands, 
and they provide essential expertise, training, and equipment 
to visitors. Increased fees, bureaucratic resistance, 
regulations, processing times, and especially litigation, are 
driving up the costs of running private businesses on public 
lands and making a profitable operation difficult, putting many 
out of business and threatening the continuation of the 
services that make visitor access possible and affordable for 
families.
    Unless there is a change in direction, a generation of 
Americans could lose this opportunity to participate in the 
outdoor adventure, and thousands of local jobs could be lost, 
as well. In our hearing today, we will see testimony from 
outfitters and guides, along with representatives from 
insurance companies and trade associations that support their 
work. These are skilled professionals dedicated to public 
enjoyment of our public lands which provide services that 
government simply cannot.
    To truly appreciate the abundance of natural resources the 
Lord has blessed our land with, we should encourage, not 
hinder, a full range of public uses that our land can provide. 
Today we are going to hear from individuals who experienced 
firsthand how Federal land managers are performing their task 
of providing open and fair access, and we are going to hear 
recommendations on how to overcome impediments to public 
recreation on public lands.
    So, I would like to specifically welcome Brian Merrill and 
Aaron Bannon. These gentlemen have been active participants in 
our Eastern Utah planning process, and have been very helpful 
in outlining the challenges and opportunities that we face with 
the outdoor recreation community.
    With that, I will recognize the Ranking Member, Mr. 
Grijalva, for any opening statement he wishes to make.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Chairman Bishop. Thank you for 
holding this hearing today. I think this is a critical issue, 
and one that deserves attention. And we appreciate the 
attention you have brought to it by holding this hearing. Thank 
you.
    And I also want to thank everyone that is testifying today. 
Your testifying today means you aren't home running your 
businesses, so we appreciate the sacrifice you made to come to 
D.C.
    Recreation and the money recreation generates from our 
public lands is important. Too often we fight over oil and gas 
development, logging, mining, when the real economic engine 
fueling many communities is the recreation economy. The Outdoor 
Industry Association estimates that outdoor recreation creates 
$646 billion in direct consumer spending, and $80 billion in 
Federal, State, and local taxes. This is bigger than the 
pharmaceutical or automobile industry. In my home State of 
Arizona, outdoor recreation is a $10 billion industry that 
supports $3.5 billion in wages and salaries.
    The importance of the industry is why I have introduced 
legislation to create a 21st Century Great Outdoors Commission. 
This legislation is modeled after the bipartisan Outdoor 
Recreation Resource Review Commission that was enacted in the 
Eisenhower Administration. When enacted, the 21st Century Great 
Outdoors Commission will be charged with making policy 
recommendations to Congress on how to promote and protect this 
valuable activity.
    As everyone testifying today says, in one way or another we 
need to relook at how people in America are using these 
resources, and what can be done to make sure the Federal 
Government is meeting the needs of its taxpayers. And, by the 
way, no Federal money would be spent on this Commission.
    My legislation has the support of the Outdoor Industry 
Association, the Trust for Public Land, and the Nature 
Conservancy, the Outdoor Alliance, and the National Parks 
Conservation Association.
    Again, I want to thank the Chairman for holding this 
important hearing, and I look forward to the hearing and to the 
comments by our witnesses. I yield back.
    [The prepared statement of Mr. Grijalva follows:]

     Statement of The Honorable Raul M. Grijalva, Ranking Member, 
       Subcommittee on Public Lands and Environmental Regulation

    Thank you, Chairman Bishop, for holding this hearing today. I think 
this is a critical issue--and one that deserves more attention. Thank 
you also to those of you who are testifying. For many of you, 
testifying today means you aren't home running your businesses so we 
appreciate the sacrifice you made to come to D.C.
    Recreation and the money recreation generates from our public lands 
is important. Too often, we fight over oil and gas development, 
logging, and mining when the real economic engine fueling many 
communities is the recreation economy.
    The Outdoor Industry Association estimates that outdoor recreation 
creates $646 billion in direct consumer spending and $80 billion in 
federal, state, and local taxes. This is bigger than the pharmaceutical 
or automobile industry. In my home state of Arizona, outdoor recreation 
is a $10 billion industry that supports $3.5 billion in wages and 
salaries.
    The importance of the industry is why I introduced legislation to 
create a 21st Century Great Outdoors Commission. This legislation is 
modeled after the bipartisan Outdoor Recreation Resource Review 
Commission that was enacted in the Eisenhower Administration.
    When enacted, the 21st Century Great Outdoors Commission will be 
charged with making policy recommendation to Congress on how to promote 
and protect this valuable activity. As everyone testifying today says 
in one way or another, we need to re-look at how people in America are 
using these resources and what can be done to make sure the federal 
government is meeting the needs of taxpayers. And by the way--no 
federal money would be spent on this Commission.
    My legislation has the support of the Outdoor Industry Association, 
the National Wildlife Federal, the Trust for Public Land, the Nature 
Conservancy, the Outdoor Alliance, and the National Parks Conservation 
Association.
    Again, I want to thank the Chairman for holding this important 
hearing and I look forward to hearing from our witnesses.
                                 ______
                                 
    Mr. Bishop. Thank you. I appreciate it. With today's 
hearing we are going to have three distinct panels. The first 
panel will consist of our colleague, Congressman Joe Heck, a 
representative from the third district in Nevada.
    The subsequent panels we are going to hear from 
representatives from the outdoor recreation and insurance 
industries. These are the small business operators and 
outfitters we talked about.
    Mr. Heck, at the end of your presentation, if you would 
like to join us, we will be happy to accommodate that. So far I 
have yet to have anybody take me up on that offer in my entire 
career here, but I am always looking for somebody to do that. 
Mr. Heck, you have 5 minutes for your testimony.

   STATEMENT OF THE HON. JOSEPH J. HECK, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Mr. Heck. Thank you, Mr. Chairman. I also want to thank the 
Ranking Member, Mr. Grijalva.
    More than 85 percent of my State is owned by the Federal 
Government. So Nevadans know how critical public lands are for 
environmental and recreational purposes. And the topic of 
today's hearing, ``Impediments to Public Recreation on Public 
Lands,'' is an important one. Nevada's lands have been used for 
generations by folks who enjoy the many activities that the 
Chairman listed in his opening statement. And our land should 
be open for these activities. I thank the Committee for their 
continued vigilance in this matter.
    But I want to turn briefly to another topic that is very 
timely related to public lands usage. It is a topic that I am 
hopeful this Committee will look into more thoroughly in the 
coming weeks, and that is the issue of bureaucratic impediments 
to volunteer search and rescue efforts on public lands.
    On January 31, 2012, Las Vegas taxi driver Keith Goldberg 
went missing. Investigators believed that he was killed and the 
body disposed of in the desert in the vicinity of the Lake Mead 
National Recreation Area. Local law enforcement suspended their 
search when Keith was not found, and arrests were made in April 
of 2012. But the Goldberg family and Keith's sister, Jody, who 
is with us today in the audience, still wanted answers. They 
wanted to find Keith and bring closure to what had been a 
heart-wrenching experience.
    The Goldberg family turned to Red Rock Search and Rescue, a 
nonprofit search and rescue team that helps families like the 
Goldbergs when loved ones go missing. The team at Red Rock is a 
trained group of volunteers with extensive experience. And the 
Goldbergs were hopeful that, with Red Rock's help, they would 
be able to close this tragic chapter of their lives.
    As Red Rock prepared to start their search, they ran into a 
number of bureaucratic road blocks at the National Park 
Service. Valuable time was consumed with the processes needed 
to obtain a special use permit and to obtain a liability 
insurance policy. Now recall this is a trained, nonprofit, 
volunteer, Good Samaritan organization trying to bring closure 
to a family by searching for their lost family member for free, 
and at no expense to the taxpayer. They provide a valuable 
community service. And they need to be able to get in to the 
public park and make their search.
    Some 15 months after Keith Goldberg disappeared, Red Rock 
was finally able to find an insurance policy and obtain the 
requisite permits that would allow them to start their search. 
And on April 14th, after less than 2 hours of searching, Red 
Rock Search and Rescue discovered the remains that had been 
matched to Keith Goldberg. The Goldberg family had their 
closure.
    But the Goldberg's story is not unique. Air Force Staff 
Sergeant Antonio Tucker was presumed drowned in Lake Mead on 
June 23, 2012. As the National Park Service searched, they were 
contacted by an owner of a company specializing in underwater 
recovery and survey work. He offered to help. He was told the 
Park Service had all the help it needed.
    Ten months later, after hiring an attorney, filing a 
request for public documents, and applying for a special use 
permit, he was finally cleared to search the lake. Staff 
Sergeant Antonio Tucker's body was recovered on April 17th of 
this year, in less than 2 days of searching. Antonio Tucker's 
family waited 10 months for closure. A spokesman for the Lake 
Mead National Recreation Area now acknowledged that the company 
had more advanced equipment than the service and stated, ``We 
should be able to utilize their services much more rapidly.''
    Now, neither of these examples is intended to be an 
indictment of the men and women who work at the Lake Mead 
National Recreation Area or any of our public lands. They are 
truly dedicated professionals working to the best of their 
ability within a bureaucratic framework that hinders the 
acceptance of Good Samaritans offering to help.
    Having thought about these issues, and as a former member 
of the Las Vegas Metropolitan Police Department Search and 
Rescue Team, developing legislation that would require the 
National Park Service and other Federal land management 
agencies to streamline and expedite the permitting process, as 
well as waive any liability insurance requirements for 
nonprofit, accredited search and rescue organizations for the 
purpose of carrying out privately requested missions on Federal 
lands.
    Again, I am hopeful that the Committee will give this 
matter its due consideration so that families like the 
Goldbergs and the Tuckers can have the closure they deserve 
when unfortunately faced with a missing loved one.
    I again thank the Committee for allowing me the chance to 
testify here today. I look forward to working with you on the 
public land access issues in the future, and as much as I would 
love to join the Committee at this time, I do have another 
committee meeting to get to, and I yield back the balance of my 
time.
    Mr. Bishop. Mr. Heck, we appreciate your testimony here, 
and I appreciate you alerting us to what is really an 
astonishing failure on the part of land managers. I also 
appreciate having some of the members of the family of those 
who were involved in this here with us today, as well. So thank 
you for doing that.
    My assumption is, Mr. Heck, that you are working on 
legislation to address this problem.
    Mr. Heck. That is correct. We have the discussion draft 
back; we should have it ready by next week.
    Mr. Bishop. All right. We hope to be able to have a quick 
hearing and be able to move that forward and do whatever we can 
to help you on that.
    I don't have any other questions. Mr. Grijalva, do you have 
questions of the Representative?
    Mr. Grijalva. No, just to thank our colleague for bringing 
this to all of our attention, and to extend condolences to the 
family that is here. This is a policy, not based on regulation, 
based on, I think, the lead land manager's discretion and their 
ability to assess and understand. It is unfortunate that 
discretion was not what it should have been in this case. But I 
look forward to discussing that legislation as you prepare it 
and finalize it. And again, thank you for bringing it to our 
attention. And to the family, condolences. Thank you.
    Mr. Bishop. Thank you for joining us today, Congressman.
    We would like to call our second panel up. We are going to 
have two more panels. Panel two will be Rick Lindsey, who is 
from Prime Insurance Company; Terry Kauffman, the Rancho Red 
Rock; Scott McFarland, High Point Hummer; Mike Friedman, the 
Adventure Partners; and Sutton Bacon from the Nantahala Outdoor 
Center--if I even came close to saying that properly.
    We can invite you up to the table. We will just start with 
Rick and go from left to right, as I look at you. For many of 
you who have been here before, for those who have not, your 
written testimony is part of the record. We will ask for some 
oral testimony at this time. We are granting you 5 minutes each 
for that oral testimony. So, if you would, watch the clock 
ahead of you. When you have 5 minutes the time will start, it 
will be green. When you see it hit yellow, that means you have 
1 minute left to sum up. And when you see it hit red again, 
that is like any traffic light. We would like you to stop.
    So, thank you for being here. Rick, I will turn to you 
first for 5 minutes.

                 STATEMENT OF RICK J. LINDSEY, 
                    PRIME INSURANCE COMPANY

    Mr. Lindsey. Thanks, Chairman Bishop, members of the 
Subcommittee. As you may recall, I testified before the 
Subcommittee on August 2, 2012, and respectfully request that 
you enter my written and oral testimony of that date by herein 
incorporating by reference such that it will be continued to 
form my ongoing position on this matter.
    [Statement for the record can be found on page 67:]

    Mr. Lindsey. Further, to my August 2nd testimony, I would 
like to bring your attention to some of the additional 
information that has come to my attention in the time period 
since that time.
    The National Park Service has failed to adequately address 
the issues brought to the Subcommittee's attention on August 
2nd. When the National Park Service representative testified 
before the Subcommittee last year, there was an inadequate 
response to the request for the National Park Service to 
provide actual case-specific examples of the current insurance 
requirements being inadequate to cover a claim for any injury. 
In fact, no such examples have been provided by the National 
Park Service to this day.
    I have personally been contacted by distressed 
concessioners from around the country, telling me of their 
horror stories. These individual examples range from insurance 
requirements of $7 million in the U.S. Virgin Islands to $11 
million in Virginia. Non-insurance issues that have either put 
small concessioners out of business or soon will. Many of these 
concessioners have expressed their emotional and heartfelt fear 
that they will be even further victimized by the Federal 
Government if they fully disclose their identity.
    Small businesses are particularly harmed by the government 
agency's actions. As you will hear from the other witnesses 
today, I have personally been informed by many concessioners 
and Federal permit holders around the country that their small 
businesses have been directly targeted and significantly harmed 
by the Federal agencies.
    It is clear to me that these agencies are trying to put 
small operators out of business, which runs contrary to Ms. 
Peggy O'Dell's testimony on August 2, 2012, that the National 
Park Service adheres to its guidelines not to unduly burden 
small businesses. This means, sadly, that smaller operators who 
are usually safer, more experienced, and provide a better 
experience for the public, will be a thing of the past to be 
replaced by a few large conglomerates. This reminds me of the 
2008 mortgage crisis, where the largest banks had been 
considered too big to fail.
    Public access on the public lands will be curtailed with 
the obviously putting out of business of these small permit 
holders, outfitters, and guides, and concessioners. This could 
only affect the chilling public access, which, for some unknown 
political reason, appears to be what the Federal agencies are 
hoping to achieve. The further increase of insurance 
requirements is unnecessary, and only serve to add to the 
issues that will continue to put small business operators out 
of business.
    Release forms being disallowed. Outfitters, outdoor 
operators, and their insurance companies indemnify and hold 
harmless the Federal agencies that have immunity. But some 
Federal agencies attempt to sever these protections by taking 
away the assumption of risk and release of liability forms. 
Some Federal agencies will not allow assumption of risk forms 
or release of liability forms. This means that no matter the 
facts of the injury to the outdoor participant, they never 
assume the risk. This places an undue burden of possible 
liability on the permit holders, the Federal agencies, and 
their insurance carriers.
    However, companies that do not hold permits with the 
Federal agencies are protected by these release claims without 
interference from the Federal agencies from patrons renting 
equipment outside of the park and for use on public lands, but 
used to enjoy outdoor recreational activities on public lands.
    Thank you for your ongoing interest in these important 
matters of not allowing small operators to be put out of 
business, and ensuring that the public access is not restricted 
as a result. Thank you.
    [The prepared statement of Mr. Lindsey follows:]

       Statement of Rick J. Lindsey, President, Chairman & CEO, 
                        Prime Insurance Company

    Dear Chairman Bishop, Ranking Member Grijalva and Members of the 
Subcommittee:
    As you will recall, I testified before this Subcommittee on August 
2nd 2012, and I respectfully request that my written and oral testimony 
of that date be herein incorporated by reference such that it will 
continue to form my ongoing position in this matter.
    Further to my August 2nd 2012 testimony, I would like to bring to 
your attention some additional information that has come to my 
attention in the time period since that time, as follows:
        <bullet>  The NPS has failed to adequately address the issues 
        brought to this Subcommittee's attention at the August 2, 2012 
        Hearing. When the NPS representative testified before this 
        Subcommittee last year, there was an inadequate response to the 
        request for the NPS to provide actual case specific examples of 
        the current insurance requirements being inadequate to cover a 
        claim for injury. In fact, no such examples have been provided 
        by the NPS to this day.
        <bullet>  I have personally been contacted by distressed 
        Concessioners from around the country telling me of their 
        ``NPS/NFS/BLM Horror Stories''. These individual examples range 
        from examples of insurance requirements for $7.0MM of liability 
        limits in the U.S. Virgin Islands and $11.0MM in Virginia, to 
        broader, non-insurance issues that have either put small 
        concessions out of business, or soon will. Many of these 
        Concessioners have expressed their emotional and heart-felt 
        fear that they will be even further victimized by the Federal 
        Government if they disclose their identity.
        <bullet>  Small businesses are particularly harmed by the NPS, 
        BLM and NFS actions: As you will hear from the other witnesses 
        today, I have been personally informed by many Concessioners 
        and Federal Permit Holders around the country that their small 
        businesses have been directly targeted and significantly harmed 
        by these federal agencies. It is clear to me that these 
        agencies are trying to put small operators out of business 
        which runs contrary to Ms. Peggy O'Dell's testimony on August 
        2nd, 2012 that the NPS adheres to its guidelines NOT to unduly 
        burden small businesses. This means, sadly, that the smaller 
        operators who are usually safer, more experienced, and provide 
        a better experience for the public will be a thing of the past, 
        to be replaced by a few large conglomerates. This reminds me of 
        the 2008 mortgage crisis where the largest banks had been 
        considered ``Too big to Fail!''
        <bullet>  Public Access to Public Lands will be Curtailed: With 
        the obvious putting out of business of all the smaller permit 
        holders, outfitters, guides, and concessioners, this can only 
        have the effect of chilling public access, which for some 
        unknown political reason, appears to be what these Federal 
        Agencies are hoping to achieve. The proposed further increases 
        in insurance requirements are unnecessary and only serve to add 
        to the issues that will continue to put small businesses and 
        operators out of business.
        <bullet>  Release Forms Disallowed: Outdoor operators and their 
        insurance companies indemnify or hold harmless the federal 
        agencies that have immunity but some federal agencies attempt 
        to sever these protections by taking away the assumption of 
        risk and release of liability. Some Federal Agencies will not 
        allow assumption of risk and release of liability forms this 
        means that no matter the facts of the injury to the outdoor 
        participant, they never assume the risk. This places an undue 
        burden of possible liability on the permit holders, the Federal 
        Agencies and the insurance carriers. However, companies that do 
        not hold permits with these Federal Agencies are protected by 
        the release of claims, without interference of the Federal 
        Agencies, from patrons renting equipment rented outside of 
        public lands but used to enjoy outdoor recreation activities on 
        public lands.
    Thank you for your ongoing interest in these important matters of 
Not allowing Small Operators to be put out of business and Ensuring 
that Public Access is Not Restricted as a result.
                                 ______
                                 
    Mr. Bishop. Thank you, Mr. Lindsey.
    Terry, if we can turn to you now, same 5 minutes, please.

            STATEMENT OF TERESA ``TERRY'' KAUFFMAN, 
                        RANCHO RED ROCK

    Ms. Kauffman. Mr. Chairman and members of the Committee, 
thank you for the opportunity to be here.
    Mr. Bishop. Can you make sure that is as close to your 
mouth as you can get it?
    Ms. Kauffman. OK, sorry.
    Mr. Bishop. Thank you.
    Ms. Kauffman. OK. My name is Teresa Kauffman, and I run a 
small horse farm riding stable near Reno, Nevada. Since 1975, I 
have managed riding stables with my sons in the Reno-Tahoe 
area, most notably North Star Stables, from 1975 to 2011.
    In 2010, Vale Resorts purchased North Star Resort. And at 
the end of the 2011 season, I was handed a new contract. My 
insurance requirement went from $1 million to $5 million. 
Employee compensation was to double, and we were required to 
have a $2 million policy on all our private vehicles. This was 
impossible. We could in no way finance this or continue to run 
the business. Corporate headquarters would not even discuss a 
possible solution with us or our insurance company. Sadly, we 
gave up North Star Stables, a good 80 percent of our family 
income.
    Since then, I have dug my heels in, so to speak. I am 
trying to make a living from my little farm. We sold half our 
horses, my sons have work elsewhere. Here at Rancho Red Rock, I 
own 20 acres in a valley with home owners associations. The 
parcels are large enough and I can do a fair amount of rides on 
private land. Best of all, I have BLM land all around me. 
Tourists and locals alike enjoy being taken out in the hills 
where they can see antelope and deer and wild horses and super 
views.
    I had a permit from 2001 to 2011. Last year I spent several 
months doing necessary paperwork to renew my permit. The BLM 
contact, Mr. Arthur Callan, was very helpful, even loaning us a 
GPS and helping us to map the routes. It has been a long 
process. We miss being able to go up in the hills. Last month 
the big brown envelope came. But insurance requirements have 
now gone from $300,000 to $1 million. Here we go again, I 
thought. I emailed Rick Lindsey, President at the insurance 
company, Worldwide Outfitters and Guides. He confirmed this was 
the trend. Then he asked me if I could come to Washington and 
tell my story.
    So, here I am. This is my story. I don't see anything good 
coming from the higher insurance rates. Small, local outfitters 
will not be able to finance the increases, and go out of 
business. Big corporations will come in with less qualified, 
non-local employees to fill the gap. Or, certain activities 
will just be dropped. The public will lose, similar to my time 
at Lake Tahoe. When we started in 1975 there were 13 riding 
stables. Now there are only three.
    Yes, some were on private land, but the issues are related. 
As private land is lost, public land becomes more important to 
our industry. And who benefits? The government will lose the 
fees.
    Just in my valley we have a good example. There is a local 
hunt club. They have been taking guests on horseback in BLM for 
30 years. Last year they were required to have an EIS 
statement, and no way could they do that. So, what did they do? 
They founded a private hunt club, elected officials, members 
pay dues, all nonprofit. They still hunt, but there is no 
regulation, and they pay no fees. And people will still 
continue to go out in the private lands, and more accidents 
will happen.
    In conclusion, I feel I have provided the public with a 
valuable and enjoyable resource for 38 years. I have lost my 
main location due to high insurance requirements. I see the 
writing on the wall. It is happening again.
    Human beings need high-risk activities to be truly human, 
to shake out the cobwebs, to use our brains and nerves and 
feelings, to help us deal with our computerized, technical 
world.
    Thank you for your time.
    [The prepared statement of Ms. Kauffman follows:]

             Statement of Teresa Kauffman, Rancho Red Rock

    Mr Chairman:
    My name is Teresa Kauffman and I run a small horse farm/riding 
stable near Reno, NV. Since 1975 I have managed riding stables with my 
sons in the Reno/Tahoe area, most notably Northstar Stables from 1975 
to 2011. In 2010 Vailresorts purchased Northstar Resort, and at the end 
of the 2011 season I was handed a new contract. My insurance 
requirement went from $1 million to $5 million, my employee 
compensation was to more than double and we were required to have a $2 
million policy on all our private vehicles. This was impossible. We 
could in no way continue to run the business. Corporate headquarters 
would not even discuss a possible solution with us or our insurance 
company. Sadly, we gave up Northstar Stables, a good 80% or our family 
income.
    So I have ``dug my heels in'' so to speak, and am trying to make a 
living from my little farm. We sold half our horses, and my sons have 
work elsewhere. Here at Rancho Red Rock I own 20 acres in a valley with 
a homeowners assn. The parcels are large and I can do a fair amount of 
rides on private land. Best of all, I have BLM land all around me. 
Tourists and locals alike enjoy being taken out in the hills where they 
can see antelope, deer and wild horses. And super views. I had a permit 
2001 to 2011. Last year I spent several months doing the necessary 
paperwork to renew my permit. My BLM contact Arthur Callan was very 
helpful, even loaning my son Leo and me a GPS to help us map routes. It 
has been a long process, and we miss being able to go out in the hills 
. . . last month the big brown envelope with my 10 year permit came. 
BUT . . . insurance requirements have gone from $300,000 to $1 million. 
HERE WE GO AGAIN I thought!! I emailed Rick Lindsey, president of my 
insurance company, Worldwide Outfitters and Guides. He confirmed that 
was the trend, then he asked me if I could come tell my story in 
Washinton DC.
    So here I am, this is my story. I do not see anything good coming 
from the higher insurance rates. Small local outfitters will not be 
able to finance the increases and go out of business. Big corporations 
will come in with less qualified, non local employees to fill the gap. 
Or certain activities will just be dropped. The public will lose. 
Similar to my time at Lake Tahoe . . . when we started in 1975 there 
were 13 riding stables in the area. Now there are 3. Yes some were on 
private land, but the issues are all related. Again, who benefits? The 
government will lose the fees these small outfitters pay. Just in my 
valley we have a prime example. There is a local hunt club that has 
been taking guests hunting on horseback on BLM land for 30 years. Last 
year when it was time for them to renew their permit. They were told 
they had to get an EIS statement. That was totally impossible 
financially. So what did they do? Founded a private hunt club, elected 
officers, members pay dues . . . all non profit. They still hunt . . . 
each week in the winter with 5 to 20 riders and 30 hounds. But it is 
all non regulated and they pay no fees.
    In conclusion I feel I have provided the public with a valuable and 
enjoyable resource 38 years. I have lost my main location due to higher 
insurance requirements. I see the writing on the wall. It is happening 
again. Human beings need ``high risk'' activities to be truly human . . 
. to shake the cobwebs out...use our brains and nerves and feelings . . 
. to help us deal with our computerized, technical world.
    Thank you for your time.
                                 ______
                                 
    Mr. Bishop. Thank you, Ms. Kauffman, for your personal 
story. Scott from High Point Hummer, if you can, once again, 
pull that as close to you as you possibly can.
    Mr. McFarland. Thank you.
    Mr. Bishop. And you have 5 minutes, please.

                 STATEMENT OF SCOTT McFARLAND, 
                       HIGH POINT HUMMER

    Mr. McFarland. Mr. Chairman and members of the Committee, 
thank you for the opportunity to express my views on issues 
regarding guides and outfitters on public lands. Over the past 
19 years I have worked in the outdoor recreation industry and 
have had the experience and opportunity to work with each of 
the different land management agencies.
    Public land supervisors have a duty to preserve the natural 
resources within their jurisdiction, while facilitating public 
enjoyment and access to these lands. The constant evolution of 
the recreational opportunities that take place on public lands 
challenges stewardship efforts. Confronted with this task, I 
believe that land management agencies should be more proactive 
in cooperating with local governments, partnering with 
outfitters and guides, and avoid broad measures that will have 
unintended consequences.
    A very successful partnership between the Moab, Utah BLM 
office and the local county government is the Sand Flats 
Recreation Area. This partnership was formed in 1995, in which 
county employees manage and maintain a very popular camping and 
recreational area of BLM lands known as Sand Flats. The Sand 
Flats area is over 8,000 acres with 120 campsites and home to 2 
world-renowned trails: the Slick Rock Mountain Bike Trail and 
Hell's Revenge OHV Trail, that host over 100,000 visitors each 
year.
    The Recreation Area is well-planned, well-maintained, and 
also financially self-sustaining. I would like to reiterate: 
financially self-sustaining. The relatively inexpensive fees 
collected for entrance and campsite use exceed $300,000 
annually, with an average budget surplus of $40,000 that then 
is reinvested into the recreation area.
    Through mutual hard work and respect the Moab BLM office 
and county managers have developed a very important high level 
of trust among all involved. Through partnerships and private 
outfitters and guides, private land supervisors can increase 
opportunities for environmental education and natural resource 
interpretation.
    Outfitters and guides have multiple roles. While providing 
outdoor education and recreational opportunities to our 
clients, we often come in contact with non-commercial visitors 
in the back country. Through these informal encounters, guides 
act as the eyes and ears of land management agencies. As 
stewards of our precious lands, guides strive to preserve the 
quality of the natural resources of the area that we guide in. 
Guides and outfitters also frequently provide non-commercial 
visitors with area information, direction, additional 
equipment, supplies, and even emergency assistance.
    Another way public lands will suffer an unintended resource 
loss is by choosing to increase the liability insurance 
policies that are required for all commercial outfitters and 
guides. In addition to higher premium costs, having a large 
amount of insurance monies available for payout to anyone that 
can plan a possibly winning lawsuit against a guide or 
outfitting company will only incentivize more claims. Defending 
against even the most frivolous claim is still very time 
consuming and expensive. At some point, operating with too many 
obstacles in the way and battles to fight, it becomes 
unfeasible for responsible outfitters and guides to continue 
on. The loss of outfitting and guide services on public lands 
will result in a much larger negative impact on these areas 
than most would predict.
    In conclusion, a typical scenario on recreational public 
lands is that a certain location becomes popular, then becomes 
over-used and under-managed. Then, in an effort to stop the 
negative impacts to the area, the area is closed to all access 
and public use. What must become the scenario in the future is 
to have Federal public land agencies partner with local 
governments and outfitters and guides to plan, implement, and 
manage these areas before undesired environmental impacts 
occur.
    Thank you for the opportunity to express my views on these 
important issues.
    [The prepared statement of Mr. McFarland follows:]

       Statement of Scott McFarland, Owner High Point Adventures

    Mr. Chairman and members of the committee, Thank you for the 
opportunity to express my views on issues regarding guides and 
outfitters on Public Lands, National Forests and National Parks. Over 
the past 19 years, I have worked in the outdoor recreation industry and 
have had the experience and opportunity to work with each of the 
different land management agencies.
    Public lands supervisors have a duty to preserve the natural 
resources within their jurisdiction while facilitating public enjoyment 
and access to these lands. We are only beginning to understand the 
complexity of these resources. Furthermore, the constant evolution of 
the recreational opportunities that take place on public lands 
challenges our stewardship efforts. Confronted with this task I believe 
that land management agencies should be more proactive in cooperating 
with local governments, partnering with outfitters and guides and avoid 
broad measures that will have unintended consequences.
One existing successful partnership model is the Sand Flats BLM 
        recreational area.
    A very successful partnership between the Moab Utah BLM office and 
the local county government is the Sand Flats Recreation Area in Moab, 
Utah. This partnership was formed in 1995 in which county employees 
manage and maintain a very popular camping and recreational area of BLM 
lands known as Sand Flats. The Sand Flats area is over 8,000 acres with 
120 campsites and home to two world renowned trails, the Slick Rock 
Mountain Bike Trail and the Hell's Revenge OHV Trail that host over 
100,000 visitors each year.
    The recreation area is well planned, well maintained and also 
financially self-sustaining. The relatively inexpensive fees collected 
for entrance and campsite use exceed $300,000 annually with an average 
budget surplus of $40,000 that is then reinvested into the recreation 
area.
    Through mutual hard work and respect the Moab BLM office and county 
managers have developed a very important high level of trust among all 
involved.
Guides and Outfitters are often an overlooked land resource.
    Through partnerships with private outfitters and guides, public 
land supervisors can increase opportunities for environmental education 
and natural resource interpretation. Outfitters and guides have 
multiple roles. While providing outdoor educational and recreational 
opportunities to our clients we often come in contact with non-
commercial visitors in the backcountry. Through these informal 
encounters guides act as the eyes and ears of land management agencies. 
As stewards of our precious lands, guides strive to preserve the 
quality of the natural resources of the areas we guide in and at times 
even report vandals to the appropriate authorities. Guides and 
outfitters also frequently provide non-commercial visitors with area 
information, direction, additional equipment, supplies and even 
emergency assistance.
Overreaching bureaucratic processes make forming successful 
        partnerships challenging and in some instances increase 
        negative environmental impacts.
    Two years ago at a National Park a moratorium was placed on guided 
commercial canyoneering trips. Up to this time the park had only issued 
one Commercial Use Authorization for this activity. The park did not 
have a management plan in place when they issued this permit. After a 
couple of years the park management determined that they needed to 
suspend the commercial activity altogether until they had a chance to 
develop a use plan. The park management chose to issue a broad 
moratorium as opposed to utilizing the operating permit holder's 
familiarity and presence to increase the effectiveness and timeliness 
of any management action. On several occasions, prior to this 
moratorium, the guides leading the commercial trips came upon private 
groups that were ``in over their heads'' and in need of assistance with 
everything from directions to drinking water. In these cases the guides 
were able to prevent the need for a Search and Rescue response to aid 
these park visitors. This moratorium had the unintended consequence of 
suspending all the benefits to the park of having the existing guide 
service in the back country.
    Another way public lands will suffer an unintended resource loss is 
by choosing to increase the liability insurance policies that are 
required for all commercial outfitters and guides. In addition to 
higher premium costs, having a large amount of insurance monies 
available for pay out to anyone that can plan a possible winning law 
suit against a guide or outfitting company will only incentivize more 
claims. Defending against even the most frivolous claim is still very 
time consuming and expensive. At some point, operating with too many 
obstacles in the way and battles to fight it becomes unfeasible for 
responsible outfitters and guides to continue on. The loss of 
outfitting and guide services on public lands will result in a much 
larger negative impact on these areas than most would predict.
Conclusion
    A typical scenario in recreational public areas is that a certain 
location becomes popular then becomes over used and under managed then 
in an effort to stop negative impacts to the area, the area is closed 
to all access and public use. What must become the scenario in the 
future is to have Federal Public Land Agencies partner with local 
governments and outfitters and guides to plan, implement and manage 
these areas before undesired environmental impacts occur. Thank you for 
this opportunity to express my views on these important issues.
                                 ______
                                 
    Mr. Bishop. Thank you, Mr. McFarland. I appreciate that.
    Mike, we will turn to you, from Adventure Partners.

                  STATEMENT OF MIKE FRIEDMAN, 
                    ADVENTURE PARTNERS, LLC

    Mr. Friedman. Mr. Chairman and members of the Committee, 
thank you for providing me with the opportunity to share my 
views as an outfitter guide. For 30 years I have earned a 
living on National Forest, BLM, and National Park Service 
lands. My company, Adventure Partners, has a dozen full-time 
employees and many more seasonal staff. We hold commercial use 
authorizations, CUAs, in Grand Canyon National Park, Zion, Glen 
Canyon National Recreation Area, as well as special recreation 
permits in Grand Staircase-Escalante National Monument, 
Vermillion Cliffs National Monument, Utah and Arizona strip BLM 
lands, Kaibab National Forest, and Santa Fe National Forest.
    I am also privileged to serve as the guide outfitter 
representative on Grand Staircase-Escalante National Monument's 
advisory committee, where BLM staff and an outstanding group of 
local stakeholders work together to gather information and 
develop recommendations concerning the use and management of 
the monument. This is no easy task, as the monument's very 
existence remains highly polarized.
    Mr. Chairman, I would like to take a moment to encourage 
Congress and the BLM to provide the necessary base funding for 
full-time operation of BLM visitor centers located in 
Cannonville, Escalante, Kanab, and Big Water, Utah. These 
facilities and their knowledgeable, friendly staffs are vital 
to the area. They provide much-needed interpretive services, 
access to tourism information, and local seasonal employment.
    Economic opportunity is always central to any conversation 
about recreation on Federal lands. The public's appetite for 
guided activities continues to grow, along with the frequency 
of requests by entrepreneurs for CUAs and SRPs to serve this 
demand. The trajectory of use requires land managers to display 
extraordinary vision, leadership, and a can-do attitude to 
achieve responsiveness and efficiency, while balancing 
conservation and tourism.
    From my perspective as an outfitter and guide, I would like 
to share several challenges which Congress and land management 
agencies need to address if small businesses are going to 
effectively meet the public's expectations for commercial 
recreation.
    The BLM, Forest Service, and Park Service are required by 
the National Environmental Policy Act to analyze any land use 
authorization occurring on public lands, including management 
of commercial use requests. Every commercial permit application 
is required to undergo a determination of NEPA adequacy, which 
may be as simple as reviewing the proponent's operating plan 
and proposed areas of use. These applications pile up on the 
desks of recreation specialists. Regulations dictate processing 
them within 180 days.
    If the field office cannot fulfill or complete all the 
necessary steps of use authorization within this time frame due 
to workload priorities, then no commercial use will be granted. 
This scenario effectively creates a permit moratorium. 
Increasingly, land managers are required to initiate a 
programmatic environmental assessment for allocation of 
commercial use. This is a tiered, over-arching study with the 
ultimate goal of streamlining and simplifying the issuance of 
permits.
    I have recently participated in this process at two 
national monuments with very different outcomes. In the case of 
Vermillion Cliffs National Monument, 3 contentious years of 
scoping and analysis produced a 130-page document filled with 
largely arbitrary and capricious commercial use allocations, 
and a very blunt management tool. It was based on de facto, 
cookie-cutter-style of decision-making, rather than reflecting 
on-the-ground reality.
    On the other hand, Grand Staircase-Escalante National 
Monument's recreation staff produced a programmatic EA in less 
than 2 years. This document utilized a site and problem-
specific approach to managing commercial operations.
    The key to success was embracing the concept of adaptive 
management, a flexible decision-making process which treats 
plans and activities as working hypotheses, rather than final 
solutions to complex problems. Adaptive management emphasizes 
stakeholder participation, helps resource managers maintain 
flexibility in their decisions, and leaves open future 
allocations of commercial and public use to ongoing analysis. 
It also reduces the necessity of burdening small business with 
cost recovery by streamlining permit evaluation processes.
    I would encourage Congress to press all Federal land 
agencies to place a much greater emphasis on adaptive 
management whenever possible, and tackling increasingly time-
consuming and contentious recreation planning.
    In conclusion, recreation is rapidly superseding 
traditional uses on public land. In many parts of the country, 
recreation has become the primary economic engine. As such, it 
needs to be administered in a practical and sustainable way. 
Recreation can no longer be an after-thought. Land managers are 
simply overwhelmed by workloads associated with mandated 
regulations and lack the efficiency, agency leadership and 
culture of innovation required to succeed.
    My clients are not merely consuming a product, they are 
discovering and becoming a constituency of a place. As 
outfitters and guides, we are inspired by these lands, and want 
to share our knowledge and passion while simultaneously 
protecting our livelihoods and way of life. We understand our 
guests, like non-commercial users of public lands, need to be 
accountable for their impacts and, when necessary, regulated on 
actual changes on the ground. I have always considered it a 
privilege to make my living on public lands.
    And again, want to thank you, Mr. Chairman and the 
Committee, for this opportunity to share my thoughts.
    [The prepared statement of Mr. Friedman follows:]

                    Statement of Michael Friedman, 
               Managing Partner, Adventure Partners, LLC

    Mr. Chairman and members of the Committee, thank you for providing 
me with the opportunity to share my views as an outfitter and guide. 
For thirty years I have earned a living on National Forest, BLM and 
National Park Service lands. My company, Adventure Partners, has a 
dozen full time employees and many more seasonal staff. We hold 
commercial use authorizations (CUAs) in Grand Canyon National Park, 
Zion National Park and Glen Canyon National Recreation Area, as well as 
Special Recreation Permits (SRPs) in Grand Staircase-Escalante National 
Monument, Vermillion Cliffs National Monument, Utah and Arizona Strip 
BLM Lands, Kaibab National Forest, and Santa Fe National Forest.
    I am also privileged to serve as the Guide and Outfitter 
representative on Grand Staircase-Escalante National Monument's 
Advisory Committee, where BLM staff and an outstanding group of local 
stakeholders work together to gather information and develop 
recommendations concerning the use and management of the Monument. This 
is no easy task as the Monument's very existence remains highly 
polarized. In the midst of this ongoing controversy, guide services are 
playing an ever expanding role in the economic fabric of gateway 
communities, who increasingly depend on tourism dollars for their tax 
base and job creation. Mr. Chairman, I would like to take a moment to 
encourage Congress and the BLM to provide the necessary base funding 
for full-time operation of BLM visitor centers located in Cannonville, 
Escalante, Kanab and Big Water, Utah. These facilities and their 
knowledgeable, friendly staffs are vital to the area, as they provide 
much needed interpretive services, access to tourism information and 
local seasonal employment.
    Economic opportunity is always central to any conversation about 
recreation on federal lands. The public's appetite for guided 
activities continues to grow, along with the frequency of requests by 
entrepreneurs for CUAs and SRPs to serve this demand. This trajectory 
of use requires land managers to display extraordinary vision, 
leadership and a ``can-do'' attitude to achieve responsiveness and 
efficiency while balancing conservation and tourism. The demographics 
of our business are compelling. At age sixty-two you can purchase a 
lifetime pass for ten dollars which allows free entry and discounted 
camping in over two thousand federal recreation sites. Every day over 
ten thousand Americans become eligible for this benefit, and a great 
many are planning to live active, outdoor lifestyles.
    From my perspective as an outfitter and guide, I would like to 
share several challenges which Congress and land management agencies 
need to address if small businesses are going to effectively meet the 
public's expectations for commercial recreational opportunities.
NEPA and Adaptive Management
    The BLM, Forest Service and Park Service are required by the 
National Environmental Policy Act (NEPA) to analyze any land use 
authorization occurring on public lands, including management of 
commercial use requests. Every commercial permit application is 
required to undergo a Determination of NEPA Adequacy (DNA) which may be 
as simple as reviewing the proponent's operating plan and proposed 
areas of use. As these applications pile up on the desks of recreation 
specialists, regulations dictate processing them within 180 days. If 
the field office cannot fulfill or complete all the necessary steps of 
a use authorization within this time frame, due to workload priorities, 
then no commercial use will be granted. This scenario effectively 
creates a ``permit moratorium''. Increasingly, land managers are 
required to initiate a Programmatic Environmental Assessment for the 
allocation of commercial use. This is a tiered, overarching study with 
the ultimate goal of streamlining and simplifying the issuance of 
permits. I have recently participated in this process at two National 
Monuments with very different outcomes. In the case of Vermillion 
Cliffs National Monument, three contentious years of scoping and 
analysis produced a hundred and thirty page document, filled with 
largely arbitrary and capricious commercial use allocations and a very 
blunt management tool. It was based on a defacto, cookie cutter style 
of decision-making rather than reflecting on the ground reality.
    On the other hand, Grand Staircase-Escalante National Monument's 
recreation staff produced a Programmatic EA in less than two years. At 
sixty-seven pages in length, this document utilizes a site and problem 
specific approach to managing commercial operators. The key to their 
success was embracing the concept of ``Adaptive Management''--a 
flexible decision making process which treats plans and activities as 
working hypotheses rather than final solutions to complex problems. 
Adaptive management emphasizes stakeholder participation, helps 
resource managers maintain flexibility in their decisions and leaves 
open future allocation of commercial and public use to ongoing 
analysis. It also reduces the necessity of burdening small business 
with cost recovery by streamlining the permit evaluation process. I 
would encourage Congress to press all federal land agencies to place a 
much greater emphasis on Adaptive Management, whenever possible, in 
tackling increasingly time consuming and contentious recreation 
planning.
    This circles back to economic opportunity. In the case of Grand 
Staircase-Escalante National Monument, seventy-eight percent of issued 
guide and outfitter permits are operated by local and regional 
businesses \1\. These companies create jobs. They are advocates for 
land conservation, skilled practitioners of leave-no-trace ethics and 
often report resource abuse to the BLM for enforcement action. 
Prematurely allocating finite commercial use, as was the case in 
Vermillion Cliffs National Monument's Programmatic EA, can have the 
unintended consequence of tying the hands of land managers, creating 
permit exclusivity and ultimately limiting the public's choice based on 
the value and quality of a guided experience.
---------------------------------------------------------------------------
    \1\ GSENM, Environmental Assessment, DOI-BLM-UT-0030-2011-0002-EA
---------------------------------------------------------------------------
National Land Conservation System and Recreation
    When Congress authorized the National Land Conservation Act in 
2009, it legislatively formalized a BLM policy shift which began with 
the proclamation of Grand Staircase Escalante National Monument, the 
first BLM unit to hold NLCS designation. I want to emphasize the 
importance of expressly naming ``recreation'' as a stated value in any 
future authorizing language creating an NLCS area. In addition, 
recreation needs to be recognized within the accompanying EIS analysis 
and Management Plan.
    Failing to acknowledge this essential value comes at a financial 
and opportunity cost to guides, outfitters and the general public; as 
the subsequent implementation of NEPA makes it progressively more 
controversial, costly and time consuming to manage recreation and 
stimulate tourism. The ambiguous language put forward in many of these 
designations and associated management plans, particularly in the 
absence of a flexible management tool like adaptive management, is 
causing gridlock within our field offices. We all hold passionate views 
on the highest and best use of public lands, but it seems increasingly 
that outfitters and guides are trapped in the middle of these 
legislative and regulatory debates.
    NLCS units are created to conserve, restore or enhance their unique 
and special resources, while serving as playgrounds for the recreating 
public and a critical source of economic activity for businesses and 
communities. To achieve this seemingly contradictory goal, we must 
continue to embrace a multiple use approach to management, and seek out 
real world solutions to this dual objective of conservation and 
economic development.
Conclusion
    In conclusion, recreation is rapidly superseding traditional uses 
on public land, and in many parts of the country has become the primary 
economic engine. As such, it needs to be administered in a practical 
and sustainable way. Recreation can no longer be an after-thought. Land 
managers are simply overwhelmed by the work load associated with 
mandated regulations, and lack the efficiency, agency leadership and 
culture of innovation required to succeed.
    My clients are not merely consuming a product, they are discovering 
and becoming the constituency of a place. As outfitters and guides, we 
are inspired by these lands and want to share our knowledge and 
passion, while simultaneously protecting our livelihoods and way of 
life. We understand our guests, like non-commercial users of public 
lands, need to be accountable for their impacts and when necessary 
regulated based on actual changes on the ground.
    As you have heard, running a guide service in the twenty-first 
century requires a broad understanding of public policy and complex 
regulatory directives; it's no longer a few backpacks and a first aid 
card. I have always considered it a privilege to make my living on 
public lands, and again want to thank you Mr. Chairman and the 
Committee for this opportunity to share my thoughts.
                                 ______
                                 
    Mr. McClintock [presiding]. Great. Thank you very much, Mr. 
Friedman.
    Our next witness is Mr. Sutton Bacon of the Nantahala 
Outdoor Center. Mr. Bacon, you have 5 minutes.

                  STATEMENT OF SUTTON BACON, 
                    NANTAHALA OUTDOOR CENTER

    Mr. Bacon. Thank you very much. My name is Sutton Bacon. I 
am from Asheville, North Carolina. And I am the CEO of the 
Nantahala Outdoor Center. I am also on the Board of Directors 
of the Outdoor Industry Association.
    NOC was founded in 1972, and we are one of the Nation's 
largest outdoor recreation businesses, operating under special 
use permits in 12 National forests and parks. Through our 
activities and resorts, we introduce over a million Americans 
to the outdoors every year. We also employ over 1,000 
employees.
    NOC is located high in the rugged mountains of Western 
North Carolina, at the intersection of the Nantahala River and 
the Appalachian Trail in the Nantahala National Forest. And, 
like so many other small, rural communities, our economy has 
suffered immensely through the recession. However, our small 
community has fully embraced the notion that our public lands 
are the pathway to a growing and sustainable prosperity, a type 
of prosperity that cannot be outsourced overseas, and is rooted 
in the value of experiencing these places directly.
    Swain County's new economy is an experience-based economy, 
and it is because of the vibrant public-private partnership we 
have between the outfitter guides, the Forest Service, Duke 
Energy, which supplies water on the river, and Swain County. 
According to the OIA, as we heard earlier, Americans spend $646 
billion per year on outdoor recreation. And in North Carolina 
alone it is $19 billion. Those numbers are so staggering and, 
in some ways, hard to grasp.
    So, what does that mean at a local level in a small, rural 
community like ours? The economic impact of outdoor recreation 
on the Nantahala River is an $85 million-per-year industry 
supporting over 1,000 jobs. Over 20 percent of employees, all 
workers in our community, are employed because of the outdoor 
recreation economy. None of this economic revitalization would 
happen without our public lands.
    And we, as a business, believe in the outdoor recreation 
economy, and have directed significant investments toward it. 
In fact, we have invested over $10 million in capital in 
support of our outfitting operations on public lands. We have 
grown at a 15 percent compounded annual growth rate since the 
recession, and added over 200 jobs.
    Unfortunately, the Federal Government doesn't approach 
lands management and investment through the same business lens. 
The outdoor industry, as a whole, grew at a 5 percent growth 
rate during the recession, while most industries contracted. If 
the government took a business-style profit-and-loss approach 
to land management, it would take notice of the powerful 
financial dividends from the $646 billion recreation economy in 
concert with the healthy, positive growth rates of our 
industry. It would then invest capital in our Nation's 
recreation infrastructure to help fuel future growth and 
enhance these financial returns even further.
    In order to sustain this thriving and successful and 
sustainable recreation economy, there are three primary 
requests I have. One, Congress must endorse a national outdoor 
recreation system with increased investments in all agency 
recreation budgets. Two, we must fully fund the land and water 
conservation fund, especially the stateside program that allows 
for investments in fundamental recreational infrastructure. 
And, three, we must definitively partition off the exorbitant 
and unpredictable cost of fire suppression from impacting our 
agency recreation land and habitat protection budgets.
    Now, all of that being said, our Nation is facing, as we 
all know, a very serious budget and debt crisis. And simply 
requesting from Congress that it increase the funding of 
Federal recreation programs is not the only solution, nor is it 
practical. The government cannot and should not do it alone.
    First, we must seek a holistic, comprehensive approach that 
reaches out to the private sector and the outfitter guide 
community. Private partners can further the interpretive and 
recreational mission of the Agency, enhance guest services and 
social experience, invest in the infrastructure, market to new 
and diverse audiences, and generate jobs.
    For example, there is nationwide demand for front country 
developed multiple-experience recreation, similar to what the 
ski areas are doing through the Ski Area Recreation Opportunity 
Enhancement Act, which this Committee brought forward. However, 
Congress and the Forest Service must develop a 21st century 
concession model that can invite private investment and other 
non-ski area lands to redevelop and rejuvenate developed front-
country recreation areas and close-to-home settings.
    And in fact, we at NOC are exploring partnership concepts 
with the Cherokee National Forest to revitalize the Ocoee 
Whitewater Center, site of the 1996 Olympic kayaking events, 
but largely dormant since, to restore waterflows, international 
events, and economic impact to that facility. We are making 
great progress with our local forests, but it is clear the 
Forest Service lacks a defined and streamlined pathway to 
effectuate private investment on public land.
    Second, I will echo the comments previously that the Agency 
also struggles with a shortfall of skilled special-use permit 
administrators and professionals. One potential solution is to 
incentivize our local forests to partner with the private 
sector through fee retention. For example, allow a local forest 
to retain as many locally generated fees as possible, as long 
as they are then reinvesting a meaningful portion of those 
receipts back into permit administration. This would greatly 
enhance the availability of high-quality outfitted services on 
public lands.
    And finally--I know I am running late on time--this 
Committee should lead the conversation on establishing a 
recreation culture within our agencies. We need to foster a 
culture shift, whereby outdoor recreation, healthy Americans, 
and prosperous rural economies are considered agency mandates, 
missions, and mantras. Thank you very much.
    [The prepared statement of Mr. Bacon follows:]

 Statement of Sutton Bacon, Chief Executive Officer, Nantahala Outdoor 
Center; Board of Directors, Outdoor Industry Association, Bryson City, 
                             North Carolina

Introduction
    Mr. Chairman, Ranking Member Grijalva, and members of the 
Committee, thank you for the opportunity to testify before you today. 
My name is Sutton Bacon, and I am the Chief Executive Officer of the 
Nantahala Outdoor Center. Established in 1972, NOC is an outdoor 
recreation company located at the intersection of the Appalachian Trail 
and the Nantahala River in the Nantahala National Forest in Swain 
County, North Carolina. Originally a roadside inn, the company has 
evolved into one of the largest outdoor recreation companies in the 
nation. We are also one of Western North Carolina's largest employers 
with approximately 250 full-time employees and over 1,000 employees 
during peak season.
    Over one million guests visit NOC annually to embark on a diverse 
collection of over 120 different river and land-based itineraries 
predominantly on public lands, learn to kayak at NOC's world-renowned 
Paddling School, travel abroad to foreign countries with NOC's 
Adventure Travel program, shop at one of our LEED-certified flagship 
retail stores, or enjoy NOC's resort amenities including our three 
restaurants and multi-tiered lodging. Each year, NOC guests paddle over 
one million river miles on federal lands, enough for two voyages to the 
moon and back. NOC has recently been recognized as ``The Nation's 
Premier Paddling School'' by The New York Times, ``Best Place to 
Learn'' by Outside Magazine, and as ``One of the Best Outfitters on 
Earth'' by National Geographic ADVENTURE. In addition, 22 Olympians, 
including two Olympic Gold Medalists, have called NOC home.
    Through our programming, we strive to educate and engage adventure-
seekers through dynamic, world-class instruction and tours on some of 
the world's most beautiful whitewater rivers and landscapes. We are 
committed to sharing our passion for the outdoors and our penchant for 
exploration with our guests. Our employees share a common vision of 
keeping NOC a dynamic, enjoyable, and successful place to work and of 
participating actively, considerately, and sustainably in the 
communities in which we operate. We firmly believe in the triple bottom 
line of people, planet, and profits.
    My testimony today will discuss how our nation's public lands and 
waterways offer a pathway for economic prosperity, especially in rural 
communities. I will articulate how NOC and our partners have 
established a vibrant public-private partnership in the Nantahala 
National Forest. I will discuss the present challenges at a federal 
level in actualizing additional opportunities for recreational access 
and economic impact through the outdoors. Finally, I will provide some 
solutions I feel can assist the federal government in fostering 
enhanced partnership opportunities in this difficult economic and 
budget environment.
Public-Private Partnerships and Rural Economic Development
    NOC is located high in the rugged mountains of Western North 
Carolina in a small county with a population of 14,000 and a county 
seat of only 1,400 residents. Like so many other small, rural 
communities, our economy has suffered immensely through the recession. 
We continue to suffer from the loss of traditional manufacturing jobs 
to international outsourcing, as textile, garment, and furniture plants 
continue to close. Our housing and construction industries have 
collapsed. And Swain County suffers from one of the highest 
unemployment rates in North Carolina (19.0%) and an equally-disturbing 
rate of poverty (22.5%). A recent study indicated that 19.9% of Swain 
residents faced ``food insecurity,'' in other words, not knowing from 
where their next meal would come.
    Approximately 88% of Swain County is federally-owned, such as the 
Nantahala National Forest and Great Smoky Mountains National Park. Some 
might say that our current economic situation is exacerbated by these 
large federal land holdings diminishing our tax base. However, nothing 
could be further from the truth. In fact, our small community has fully 
embraced that our public lands and waters are the pathway to a growing 
and sustainable prosperity--a type of prosperity that cannot be 
outsourced overseas and is rooted in the value of experiencing these 
places directly.
    Swain County's new economy is an experience-based economy. Whereas 
extraction and manufacturing industries have come and gone, our public 
lands boast a wealth of waterways, trails, and recreation areas, making 
Swain County a popular destination for outdoor enthusiasts. In fact, 
while our local manufacturing base continues to contract, the region's 
outdoor-based tourism economy has seen exponential growth, as has 
interest in tourism re-development, the enhancement of existing public-
private tourism product, and the utilization of tourism-related natural 
resources in an environmentally-sensitive manner. Human-powered outdoor 
tourism is the backbone of our future.
    Our community recognizes the importance of activating public-
private partnerships with our natural resources to affect rural 
economic development. The collaboration we have amongst the outfitting 
community, the U.S. Forest Service, Duke Energy, and Swain County is 
worthy of examination and even imitation. These diverse organizations 
all manage and utilize the Nantahala Gorge and work together every day 
to share the resource with hundreds of thousands of paddlers, hikers, 
and bikers, to meet the energy needs of our region, and to maintain the 
forest's healthy local ecosystem. Our collaboration is based on trust, 
mutual respect and admiration, open communication, and alignment.
    I can cite numerous examples of how this stakeholder group 
collaborated and compromised for the benefit of our community and our 
forest user groups, from a decade's-long FERC relicensing project that 
ensured consistent water flows on the Nantahala to a successful bid to 
host the 2013 World Freestyle Kayaking Championships to collectively 
mitigating drought conditions to participating actively in the new 
forest planning process. The impact of our continual collaboration 
enhances our river and forest's reputation, informs the investments we 
make in our communities, and contributes to the branding and 
positioning of our entire region as an international destination for 
active outdoor enthusiasts.
    At a national level, we all recognize the economic impacts of 
outdoor recreation. According to a recent study by the Outdoor Industry 
Association, Americans spend $646 billion on outdoor recreation every 
year. This is twice as much as they spend on pharmaceuticals or cars. 
Outdoor recreation creates $40 billion in federal tax revenue and $40 
billion in state and local tax revenue. And, over six million Americans 
are directly employed by outdoor recreation providers, retailers, 
manufacturers, outfitters, and guides. In North Carolina, outdoor 
recreation generates $19 billion in consumer spending and supports 
192,000 jobs.
    The national and state numbers are staggering and in some ways hard 
to grasp. But, what does that mean at a local level, in a rural 
community such as Swain County? Several years ago we commissioned a 
study from Western Carolina University to quantify the economic impact 
of the Nantahala Outdoor Center and public outdoor recreation on the 
Nantahala River. The researchers calculated that the direct annual 
economic impact from the Nantahala was $62 million with another $23 
million of indirect economic impact, for a total annual contribution of 
over $85 million to our local economy--while employing directly and 
indirectly supporting over 1,000 full-time jobs in our community. If 
you then compare that number to the total workforce in Swain County, it 
can be said that 20% of Swain County workers are now employed due to 
the outdoor recreation economy.
    None of this economic and civic revitalization would happen without 
our cherished public lands and waters. Our guests travel from all over 
the world to experience our mountains, rivers, and forests in a direct 
and meaningful way. The jobs created by using our natural resources to 
provide experience rather than extraction cannot be outsourced. As long 
as the health and integrity of our lands and waters are maintained, 
these jobs will never go away.
Challenges Inherent to Fully Activating the Outdoor Recreation Economy
    In a time filled with economic uncertainty nationwide, instead of 
hunkering down, NOC has been boldly embarking on a number of new 
initiatives we firmly believe will transform our company. We have 
invested nearly $10 million of capital in the last three years in 
support of our outfitting operations on federal lands. We believe in 
the power of the outdoor recreation economy, and we have seen 
significant financial dividends from it. Since the recession, NOC has 
grown at a compounded annual growth rate of nearly 15% and added over 
150 jobs, with plans to increase employment again in 2013. For a 
mature, 40-year old business in such a remote rural area, we are proud 
of our business growth.
    Unfortunately, the federal government does not approach public 
lands management and investment through the same business lens. The 
outdoor industry on a national basis grew at a 5% growth rate during 
the recession while many if not most other industries contracted. 
Americans value recreation and having quality spaces to get outside and 
recreate, especially in these trying economic times. If government took 
a business-style profit and loss approach to land management, it would 
take notice of the significant financial dividends from the $646 
billion outdoor recreation economy along with the healthy, positive 
growth rates of the industry. It would then invest significant capital 
into our nation's outdoor recreation infrastructure to fuel future 
growth and enhance financial returns, just as NOC and many other 
outdoor businesses have invested their own capital into this growing 
segment.
    However, the future of recreation lands and waters is neither 
protected nor vested. The nation's outdoor recreation economy depends 
primarily on the integrity, protection and stewardship of our natural 
resources, but it also depends on fundamental recreational 
infrastructure, including parks, trails, and open spaces necessary to 
enjoy places both remote and close to home. America's public lands and 
waters are to the outdoor recreation industry what highways are to the 
transportation industry, or power lines to the energy industry--
absolutely critical infrastructure that requires recognition and 
funding. For example, the USFS recreation budgets--both nationally and 
locally--are declining at an alarming rate. Trails, campgrounds, and 
recreation sites close every day, and the funding to manage others is 
evaporating. Our rangers are doing more with less and are having to cut 
important services from interpretative programming for children to 
basic trash collection along our river corridors. When the outdoors is 
such a critical economic driver for our country, these cuts are 
impacting visitor experiences and will, over time, turn visitors away.
    Where I live, we are known for the Great Smoky Mountains National 
Park. However, millions more people visit the three National Forests 
that surround the Great Smoky Mountains National Park--the Nantahala, 
Pisgah, and Cherokee National Forests--than the GSMNP itself. These 
National Forests have remarkable public recreation venues, wilderness 
areas, and treasured landscapes that rival if not soundly exceed what 
the GSMNP offers. Yet, when our Forests had to close trails and limit 
recreation areas due to budget cuts and the sequester, they did not 
receive nearly the national media attention and public outcry as the 
closures in the Smokies and other iconic National Parks around the 
country. Nonetheless, cuts in those National Forests will impact far 
more visitors and local economies. It is crucial that we elevate the 
discourse around funding shortfalls in our National Forests to the same 
level as our National Parks, as they are of equal importance.
    Today, this Congress and the Forest Service allocate roughly $300 
million dollars to manage recreation on 193 million acres. That equates 
to about $1.50 an acre. Amazingly, there is good news here. With that 
investment, Forest Service lands and waters host an amazing array of 
world-class recreation on which NOC is able to provide a spectrum of 
recreational opportunities, from world-class extreme whitewater rivers 
to relaxed, family-oriented float trips to wilderness-oriented Wild and 
Scenic excursions. However, in order to sustain this thriving, unique, 
and sustainable outdoor recreation economy, Congress must fully fund a 
national outdoor recreation system with investments in all agency 
recreation programs, it must fully fund the Land and Water Conservation 
Fund--especially the stateside program--that allows for fundamental 
recreation infrastructure investment, and we must partition the 
exorbitant and unpredictable costs of fire suppression from impacting 
our agency recreation, habitat protection, and public lands health 
budgets.
Comprehensive Solutions to Foster the Outdoor Recreation Economy
    All of this said, we all know that our nation is facing a serious 
budget and debt crisis. Simply requesting from Congress that it 
increase funding of federal recreation programs is not the only 
solution nor is it practical. Instead, we must seek a holistic, 
comprehensive approach--inclusive of the private sector--in order to 
fully actualize the potential economic benefits of outdoor recreation. 
By replicating in other places the public-private partnership model on 
the Nantahala, we can put more Americans to work, especially in rural 
areas, we can provide Americans more close-to-home access to their 
public lands, and we can create a guest-centric approach to our public 
lands whereby we are managing them to meet the changing desires, 
demographics, and geographies of our nation.
    America is changing. In order for our natural resources to remain 
relevant, we must examine the outfitted public and who they are. For 
example, we are witnessing the aging of adventurous baby boomers who 
built the outdoor recreation business decades ago. They still want to 
stay active and outdoors but with softer recreation. We are 
experiencing declining participation rates in outdoor recreation from 
the millennial generation, who are bombarded with technology and 
distractions. 80% of Americans now live in urban settings, often with 
limited access to or knowledge of the outdoors, and we are faced with a 
dilemma of how to reach this audience and introduce a new generation to 
their inheritance.
    Resources like our southern forests--located near major population 
centers with compelling developed recreation opportunities already 
within--are positioned squarely at these changing demographics. 
Americans increasingly seek and demand ready access to recreation 
experiences, professional guides and rental equipment that are off-the-
shelf and close to their homes. Multiple-experience, developed 
recreation areas in front-country settings represent the future reality 
to reach new audiences. There is nationwide demand for this style of 
front-country developed recreation. Facilitated through the Ski Area 
Recreation Opportunity Enhancement Act, a bill sponsored by this 
committee and which passed the House unanimously, ski areas are moving 
assertively toward this approach.
    Likewise Forest Service must develop a 21st century concession 
model that can address and, most importantly, fund evolving guest 
desires and expectations on public lands. Rejuvenating existing 
developed recreation sites can be both costly and ambitious. Without 
even funds to address even the most critical backlogged maintenance, 
the Forest Service must create streamlined pathways to encourage 
willing, local partners to invest private-sector capital, resources, 
and expertise on public lands. These partners can further the 
interpretive and recreational mission of the agency, enhance guest 
services and social experiences, invest in core infrastructure and 
address deferred maintenance, market to new audiences, and create jobs 
and rural economic development.
    In fact, we are collaborating with Cherokee National Forest on 
partnership concepts to revitalize the USFS Ocoee Whitewater Center, 
site of the 1996 Olympic kayaking events but largely dormant since. We 
are working with the agency, local partners, and the TVA to restore 
water flows, host international events, invest in recreation and guest 
facilities, assist the local Forest with funding shortfalls, and 
catalyze significant economic development and job growth just as we 
have done on the Nantahala. We are making great progress, but it is 
clear that the agency lacks a defined pathway to effectuate impactful 
change at a local level without incurring substantial costs to either 
the local forest or potential partner.
    To that end, our local forests must also have the ability to retain 
as many locally-collected fees as possible to provide for maximum local 
economic and forest impact. The agency also struggles with a shortfall 
of skilled special use permit professionals and an intense and growing 
backlog of permit requests. One potential solution is for the local 
forest to retain all permit receipts so long as they are then 
reinvesting those receipts into permit administration to enhance public 
access to our forests as well the availability of high-quality 
outfitted services. While potentially controversial, the agency must 
focus on localized revenue generation activity to address agency 
funding gaps. If forest managers are incentivized through fee retention 
to sensibly partner with the private sector and outfitting community, 
the localized rural economic impacts of each forest will be greatly 
enhanced.
    Another critical issue facing our National Forests is branding and 
communication. As previously mentioned, the three National Forests 
surrounding the Great Smoky Mountains National Park attract 
substantially more visitors annually than does the Park itself. 
However, these beloved forests have little name recognition and no 
friends groups supporting the forests. This is because the Forest 
Service provides protection, management and enhancement of its 
resources, but it does not bestow an identity or a sense of place. This 
is critical. The Smokies gateway communities thrive off the Smokies' 
reputation, and the Park's admirers rally around this identity. In 
fact, the sense of place relative to the Smokies is so significant than 
many visitors to our National Forests think that all of our mountains 
here are ``in the Smokies.'' Cultivation of identity and communication 
of value are specialties of the National Park Service, and they have 
created self-sustaining momentum.
    With better branding, our agencies can do much more to reach out to 
their gateway communities. In the Southeast, the economies of our 
gateway communities to our national parks and forests are booming. The 
reason that guests visit destinations such as Gatlinburg, Tennessee and 
Asheville, North Carolina is because of their connection to nearby 
public treasures. Therefore, the Forest Service should consider a 
program branding its exemplary recreation areas and treasured 
landscapes as premier venues for human-powered recreation, conferring a 
special status to specific locations that gateway communities can rally 
behind. These communities should be relied on to help promote their 
local natural resources and play an active role in introducing forests 
and active outdoor recreation to new audiences. Having location-
specific identities and shareback programs (using, for example, the Ski 
Conservation Fund as a model) whereby visitors to gateway communities 
can directly invest in these forests also make it easier to raise funds 
and support. Most forest users have no idea how they can support the 
Forest Service or if that money will go to benefit locations that they 
care about or simply be directed to the Treasury.
    Finally, as authorizers, this committee needs to lead the 
conversation on establishing a recreation culture, mission, and 
workforce within the agencies. We need to foster a culture shift within 
our agencies to where outdoor recreation, healthy Americans, and 
healthy local economies are considered agency mandates, missions and 
mantras. The agencies must all support recreation through their land 
and water use plans, prioritize recreation to reflect, for example, 
21st century demands for developed, front-country recreation so that 
the American people have a wide spectrum of opportunities and 
experiences on public lands, conducted in a variety of settings, from 
river trips to hiking to biking. The goal of this subcommittee should 
be to foster that spectrum of opportunities, services, and experiences 
on federal lands and waters while providing them in a sustainable 
manner that formally recognizes, nurtures, and overtly supports local 
recreation economies.
Conclusion
    In these trying economic times, it is clear that Americans need 
more than ever the physical, emotional, and psychological benefits that 
human-powered outdoor recreation provides. Another OIA research project 
showed that 80% of Americans feel that they are happier, have better 
family relationships and less stress in their lives when they engage in 
outdoor recreation. Anecdotally, during the recession, we have seen 
more hikers pass through NOC on the Appalachian Trail than we have in 
years.
    Our own internal research over the last 40 years indicates whenever 
there is economic uncertainty or a precipitous rise in gas prices, our 
guest numbers increase. This affirms the importance of human-powered 
outdoor recreation during difficult times. We take this charge 
seriously and appreciate our guests' confidence in our ability to 
deliver these authentic outdoor experiences. We also take seriously our 
ability to create jobs and positively impact local economies in need, 
especially in rural areas such as ours. The jobs we are creating 
through the outdoor recreation economy can never be outsourced so long 
as we have open spaces, healthy forests, free-flowing rivers, and 
recreation infrastructure.
    I truly appreciate this invitation to speak with you today. Thank 
you for your attention, and I would be pleased to answer any questions 
you may have.
                                 ______
                                 
    Mr. McClintock. Great. Thank you for your testimony. That 
completes the testimony of the first panel of witnesses, and we 
will now move to questions from the members of the 
Subcommittee. And I will begin.
    Ms. Kauffman, let me start with you. I represent the Sierra 
Nevadas of California. And I have been absolutely inundated by 
complaints from folks involving both the National Forest 
Service and the National Park Service. I have Yosemite in my 
district. The Park Service is in the process of proceeding with 
the plan to remove long-standing tourist amenities, including 
bicycle and raft rentals, horseback riding.
    They are planning to rip out an ice-skating rink at Curry 
Village that has been there since the 1920s. Snack shops, 
swimming pools, and tennis courts at the Ahwahnee Lodge, just 
literally hanging a ``Tourists Go Home'' sign in the National 
Park.
    In the meantime, the National Forest Service has been 
employing activities that range from imposing inflated fees 
that are forcing the abandonment of family cabins, some of 
which have been held for generations; shutting down long-
established community events upon which many of these small and 
struggling mountain towns depend for tourism; expelling long-
standing grazing operations on specious grounds; causing damage 
both to the local economy and the Federal Government's 
revenues; closing long-used roads, many of which are parts of 
county road systems that are essential to local residents; and 
even obstructing county efforts to provide maintenance from 
local budgets to keep these roads open; obstructing the sound 
management of our forests, creating both severe fire dangers 
and chronic unemployment.
    Are you seeing the same thing in your neck of the woods, 
there?
    Ms. Kauffman. Yes, I think we are. I mean we were just 
talking this morning about the Black Rock Desert. And with the 
new designation up there, well, they didn't really close down 
the ranching operation, but with closing roads and having more 
limitations on where you can take vehicles, yes, it impacted 
the ranchers quite a bit, and a lot of them are just quitting.
    Mr. McClintock. This is the National Forest Service, 
specifically?
    Ms. Kauffman. No, no. This is, I believe, a national 
monument. The Black Rock Desert. It is where Burning Man is 
held, and everything.
    Mr. McClintock. OK, so this would be Bureau of Land 
Management.
    Ms. Kauffman. Yes. It is public land, that is----
    Mr. McClintock. And this is the declaration of, as you say, 
a wilderness area? Or a national monument?
    Ms. Kauffman. A national monument, I believe, yes.
    Mr. McClintock. That would be under the Antiquities Act of 
1906?
    Ms. Kauffman. I don't know, I just know that is something I 
have heard about, because----
    Mr. McClintock. Well, I believe the designation of 
monuments--because we have had a similar situation up in my 
area, where the Administration is proposing literally declaring 
a monument of a million acres in Modoc County in California--
the Antiquities Act was actually originally established to give 
the Administration emergency power to protect newly discovered 
archeological sites from raiding. And how that has grown from 
that very limited power to this expansive power asserted by 
this Administration is beyond me.
    Mr. McFarland, what are you seeing?
    Mr. McFarland. Along that same lines also, there is a 
proposal to possibly make a national monument out of an 
additional 1.4 million acres surrounding Canyonlands National 
Park. We already have two national parks, we are blessed to 
have two national parks in Moab. But an additional 1.4 million 
acres is just too much land to be managed well.
    Mr. McClintock. Are you seeing the same kind of 
exclusionary attitude seeping into the management of our public 
lands as I have just described in my area?
    Mr. McFarland. Very much so. In one instance, in Arches 
National Park, there was one permit for canyoneering guiding 
hiking trips in the national park, existed for 2 years. One day 
they revoked that without warning, claiming that they needed to 
make a management plan to assess the activity. The consequence 
of doing that is that private users, without commercial guides 
assisting them, continued to do that activity in those areas, 
making a huge negative impact.
    They could have, in turn, opted to utilize the experience 
and knowledge of that guiding company to help to make the plan. 
It has now been 2 years in the planning process, still no 
permits, no guiding activities, and still erosion to the 
natural resource that we have in the park.
    Mr. McClintock. Thank you. Mr. Friedman, just in 10 
seconds, in your neck of the woods, are you seeing the same 
attitude?
    Mr. Friedman. I think that this issue of monument 
proclamations and designations is a growing challenge for the 
BLM, and it is something that Congress needs to take a closer 
look at.
    Mr. McClintock. Great. Thank you. And, Mr. Grijalva?
    Mr. Grijalva. Thank you, Mr. Chairman. Mr. Bacon, thanks 
for testifying today.
    Mr. Bacon. Yes.
    Mr. Grijalva. I appreciate your leadership in the industry. 
You make a very poignant observation, that the future of 
recreation lands and water is neither protected nor vested.
    Mr. Bacon. Correct.
    Mr. Grijalva. And having introduced the 21st Century 
Outdoor Commission legislation, which I see as the first step 
in getting a grasp on how recreation use is changing and where 
policy needs to catch up to that change, if you could take a 
few minutes and talk about the changes you have seen, both in 
terms of the clients of your business, but also broadly across 
the industry. Any particular thoughts on how changing 
demographics are impacting the industry.
    Mr. Bacon. Certainly. I think we all realize and recognize 
that America is changing. When you look at the outdoor 
landscape, the Baby Boomers who built the outdoor recreation 
business generations ago are aging, but they still want to be 
active. They still want to be outdoors. But they are aging.
    Then we all know the issues in terms of really attracting 
the millennial generation and all the distractions that go 
along with that. And 80 percent of Americans now live in urban 
settings and not rural settings. So, what I see, from a 
demographic perspective, is that we have to look at close-to-
home, developed, multi-experience recreational sites and venues 
as a remarkable opportunity to attract new audiences that are 
close to home to our public lands.
    Per the previous question, and just to dig in specifically, 
we are working on a great initiative on the Cherokee National 
Forest to revitalize a close-to-home outdoor recreation 
facility on the Ocoee River in the Cherokee National Forest, an 
hour from our main location on the Nantahala.
    And it is remarkable, what the ski industries have done, in 
terms of looking at it from a holistic, developed recreation 
approach, especially through their ski area recreation 
enhancement bill. And I think that the Forest Service 
specifically--they are talking about partnerships, they want to 
be partners, but they don't have a great pathway to encourage 
private investment on public lands because, ultimately, the 
private sector must step up and help the Forest Service and all 
the agencies address the shifting demographics, market 
creatively and inventively, which is not a specialty of the 
Federal Government in the land management agencies, and try to 
address agency funding issues and really invest in the close-
to-home outdoor recreation infrastructure to attract urban 
audiences from the City of Atlanta, for example, up to the 
mountains in a close-to-home setting to experience the 
wonderful inheritance that they have in our public lands.
    Mr. Grijalva. Thank you very much. Mr. Friedman, you 
operate in Utah and Arizona. Both the legislatures in those 
States passed legislation that would turn over Federal lands to 
the State. What would happen to your business if the Federal 
lands your business relies on were turned over to the State of 
Utah or to the State of Arizona to be developed primarily for 
extraction industries?
    Mr. Friedman. Well, I feel that--me, personally--it is 
important that the Federal Government continues to manage these 
public lands in a responsible and fair way. And I think that 
there is always this tension between the State and the Federal 
Government, that is never going to go away. And it has just 
become such a dysfunctional relationship that a lot of the 
problems that we are facing as guide-outfitters relates back to 
that inability of the State and Federal Government to really 
communicate in an effective way.
    So, I think that your----
    Mr. Grijalva. You think this nonpartisan commission that I 
have been talking about could address some of those issues that 
you brought up?
    Mr. Friedman. Well, I mean, working in Grand Staircase-
Escalante, that is a pretty--like I said, highly polarized 
environment. And I do think that commissions and monument 
advisory committees, these collaborative efforts, have a lot of 
potential value to working through some of these problems.
    Mr. Grijalva. Yes. I was also going to ask Ms. Kauffman. Do 
you think such a commission should look at the liability 
insurance requirements that you brought up during your 
testimony?
    Ms. Kauffman. Well, yes. I mean if nobody looks at them and 
tries to make an evaluation, I just see everything going up.
    Mr. Grijalva. Thank you. I just want, for the record, 
before I yield back, the Black Rock Desert-High Rock Canyon 
Emigrant Trail was created by Congress in 2000, not by agency 
designation or a Presidential fiat. I yield back.
    Mr. McClintock. Mr. Daines.
    Mr. Daines. Thank you, Mr. Chairman. I represent the State 
of Montana. This is a subject very near and dear to my heart. 
In my home State our outdoor recreation industry is very, very 
important to our economy, as you well know.
    Just last week, when we were in recess, I was back home. I 
toured different sportsmen groups throughout our State. In 
fact, Friday I was at a roundtable with the Rocky Mountain Elk 
Foundation. In fact, at their world headquarters in Missoula, 
Montana. Boone and Crockett, Ducks Unlimited, Trout Unlimited, 
and then there is a group called Hellgate Hunters & Anglers 
Club of Missoula, as well as the Wildlife Federation. I am one 
who is a fifth-generation Montanan. I have spent a lot of time 
above 10,000 feet, climbed Montana's highest peak, and I love 
taking my kids hunting and fishing. It is part of the heritage 
I inherited from my grandfather and my parents and passed on to 
my kids.
    So, as a fifth-generation Montanan, as a passionate 
sportsman myself, these are industries that are critical to our 
way of life in our State and it is paramount that our Federal 
Government doesn't stand in the way of obstructing our economy.
    One of the challenges we face in Montana are the wilderness 
study areas. And I was wondering if you could comment--maybe 
start with Mr. Friedman--and I saw some other heads nodding, as 
well--around how a WSA becomes almost a de facto wilderness. 
And I enjoy experiencing the wilderness, I enjoy multiple use. 
So this is not a discrediting wilderness. But wilderness study 
areas, can you expand on the restrictions to outdoor recreation 
in WSAs?
    Mr. Friedman. Well, I think that the WSAs present a real 
challenge, again, for land managers, for local BLM and Forest 
Service offices to try to figure out how to manage recreation 
in that context.
    And that also relates to the National Land Conservation 
System designation, as well. Once a piece of land is given the 
special area title, and a designation, then it is really 
important that recreation is included as a value of that 
particular unit so that land managers can actually pursue the 
NEPA process in a straightforward and unobstructed way.
    I mean WSAs and LCS lands, they all require an additional 
level of scrutiny and analysis in order to be managed. And if 
recreation isn't specifically stated as a purpose and value on 
those lands, then it definitely creates major problems for 
folks like us down the road.
    Mr. Daines. Mr. Bacon, do you have a thought on that?
    Mr. Bacon. Yes, I agree. I think certainly from a 
perspective of multiple use, and recognizing the outstanding 
recreational values in many of these wilderness study areas 
certainly needs to be part of the conservation relative to 
them. I think we have some great national treasures that are in 
wilderness study areas. Certainly we are a very pro-multiple-
use company. But certainly outdoor recreation in these areas 
needs to be a part of the mix.
    Mr. Daines. Any other comments from any panelist on WSAs?
    [No response.]
    Mr. Daines. I also want to talk a bit about the length of 
time it takes for Federal agencies to issue recreation permits. 
How much of these delays do you think can be attributed to NEPA 
analysis or the threat of litigation from fringe groups? Who 
would like to take that question?
    Mr. Bacon. I would say, NEPA is a complex piece of 
legislation. It has its merits and its downfalls. Certainly, I 
think from our perspective and working with our land managers, 
they each have a different perspective on NEPA and how it 
applies and a different sensitivity to threats of litigation 
from environmental groups.
    Certainly, it does present a challenge when we are looking 
at, for example, like I have testified earlier to, developed 
recreation areas, existing developed recreation areas. On the 
Ocoee project I have mentioned where we are looking at 
literally just taking over, potentially, a visitor's center 
that is already there, it was the site of the Olympic Games. 
The local forest personnel is saying that the NEPA analysis 
would be $2, $3 million, 2 to 3 years' worth of analysis, when 
we are doing something much less invasive than having 20,000 
people there for the Olympics.
    So, I think it does present a challenge, and I think the 
Agency needs a streamlined process for NEPA to be able to issue 
outfitter guide permits, be incentivized to have private sector 
investment on public lands, and do so in an----
    Mr. Daines. And who is paying that $2 to $3 million for 
that NEPA review?
    Mr. Bacon. That would be the private business looking at 
potentially partnering with the Forest Service on a project 
with no guarantees that the special use permit would be issued.
    Mr. Daines. OK, Mr. Friedman, just maybe answer that and 
then I am out of time.
    Mr. Friedman. Yes. No, I think that it really varies from 
office to office and from staff person to staff person. Some 
land managers overreach in how they approach the NEPA process. 
They try to take in too much information, and they end up with 
a, like I said in my statement, kind of a cookie-cutter product 
versus something that allows them flexibility. So I think 
adaptive management and the application of adaptive management 
is a really key point here to make this all run more 
efficiently, because NEPA isn't going to go anywhere.
    Mr. Daines. Thank you.
    Mr. Bishop [presiding]. Mr. McClintock, did you have a 
chance to ask questions?
    Mr. McClintock. I did, thank you.
    Mr. Bishop. Let me just pose a couple very quickly, if I 
could.
    Mr. Lindsey, you are an insurance guy, and insurance 
companies benefit by bigger policies. You seem to be testifying 
against yourself in requiring these increases. Wouldn't that be 
a benefit to you? And why are you so adamant that this is one 
of the things that are moving us in the wrong direction?
    Mr. Lindsey. Well, if you look back at history, in 1985, 
1986, Congress, or the National Park Service, actually, waived 
the insurance requirement for Grand Canyon Outfitters, because 
nobody would insure them. And so the insurance market is very 
unstable, especially in these small recreational classes. 
Companies come and go. Many of the companies that have offered 
coverage historically have gone broke, leaving outfitters and 
the government exposed.
    Some admitted insurance companies have guarantee funds, but 
the limit on those guarantee funds is $300,000.
    Mr. Bishop. So what you are telling me is there is a 
tipping point in all this stuff.
    Mr. Lindsey. Correct.
    Mr. Bishop. At which you actually create more harm than you 
create good, as you are going up the scale.
    Mr. Lindsey. You create huge instability by having the 
limits go up and down.
    Mr. Bishop. The Canadian Park System has about the same 
range of public activities as we do. Do you or maybe anyone 
else on the panel know what kind of insurance companies 
coverage is required in Canada?
    Mr. Lindsey. Well, we have actually provided coverage for 
the Canadian Mountain Guides Association in the past. And in 
Canada they don't have the legal system that we have here. They 
don't have the same medical system that we have here. So, I 
mean, the coverage up there is much less expensive because of 
the litigation system.
    Mr. Bishop. Bad one, though. Mr. McFarland, you spoke about 
the Salt Flats Recreation Area and the ability of working 
together in that particular--with the people working together 
to create something that was very positive. In your opinion, is 
that a structural situation, or is that the personalities 
working together? Is this a personality issue or a structural 
issue?
    Mr. McFarland. It is a structural issue. The structure that 
was implemented has created positive personalities.
    Mr. Bishop. So the structure of having that cooperation 
actually put forth in that direction. But one of you--maybe it 
was Mr. Friedman--was talking about Vermillion Cliffs before.
    Mr. Friedman. Yes.
    Mr. Bishop. Was that you?
    Mr. Friedman. Yes.
    Mr. Bishop. That came up with an entirely different result 
as Grand Staircase.
    Mr. Friedman. Correct.
    Mr. Bishop. Is that simply because of personality, or was 
there a structural cause that created that difference of 
decision?
    Mr. Friedman. I think it was leadership, absence of 
direction from either the monument manager, or maybe from the 
Washington office, about how to approach this programmatic 
environmental assessment process.
    In Grand Staircase, the recreation planner there took a 
more open approach to managing the monument using adaptive 
management, again, as a tool to not tie their hands, as far as 
how they are going to deal with allocations of use. And, for 
some reason, Vermillion Cliffs chose to try to come up with 
some specific limits without really looking at what was really 
happening on the ground. I can't really explain why they chose 
to go that route.
    Mr. Bishop. I appreciate you going in that particular 
direction. I think one of the things the State of Utah did and 
the Governor did with his outdoor recreation vision is simply 
try to recognize that places like Utah, for example, is a 
public land State, it is always going to be a public land 
State. The issue is not whether it is public lands, but who is 
actually making the decisions on those public lands. Is it made 
by people who are there locally, or is it going to be made by 
people here in Washington? That is the kind of situation I 
think you have identified some ways in which, based on 
personality, but perhaps by the structure of how we create 
those things, you can produce a better product.
    I will just ask Ms. Kauffman, just in the last question I 
have, you talked about kind of the options either being big 
companies taking all those areas or your services being 
dropped. Which do you think is the more likely approach? Will 
big companies step in and do this? Or are we just going to lose 
services and opportunities?
    Ms. Kauffman. I think it depends how profitable the 
particular operation is. I mean, I guess----
    Mr. Bishop. But you are working on a very low profit 
margin, aren't you?
    Ms. Kauffman. Well, yes. And I mean my specific example is 
a corporation, it is not public. It is not a public entity. And 
what happened there, because I was unable to get the insurance, 
because I couldn't finance it, they no longer have riding up 
there. The corporation decided it wasn't worth it to go ahead 
with the activity.
    Mr. Bishop. Thank you. I appreciate those. We have two 
Members who just came in. Do you have questions for these 
panelists, by any chance? Mr. Labrador? OK.
    With that, we thank you all, and I apologize for having to 
leave and come back in the middle of this. But we thank you all 
for your presence here and for the testimony that you have 
given. You are excused at this time. I will bring up the last 
panel, if possible.
    Once again, I do appreciate your time and travel to come 
here. So, in panel three, I have: Mr. David Brown, who is from 
the American Outdoors Association; Grant Simonds--you will tell 
me how I messed up that name--from the Idaho Outfitters and 
Guides Association; Brian Merrill, from Western Rivers Guides; 
Aaron Bannon, from the National Outdoor Leadership School; and 
John Duncan, from Telluride Outside.
    So, I am assuming--once again, we welcome you. We thank you 
for being here. I think you saw the drill in the last panel. 
Your written testimony is already included in the record. We 
are going to simply ask you to add it verbally, and watch the 
timer in front of you. The other panel was very good about 
keeping within the 5-minute limit. Once it goes to yellow it 
means you have 1 minute left. And, like every good semi, when 
it goes to yellow, then you speed up so that you don't get 
caught in the red zone.
    [Laughter.]
    Mr. Bishop. Mr. Brown--if I can just go from my left to 
right here--Mr. Brown, we recognize you for 5 minutes to give 
us your oral testimony.

                 STATEMENT OF DAVID L. BROWN, 
                 AMERICAN OUTDOORS ASSOCIATION

    Mr. Brown. Thank you, Mr. Chairman, Ranking Member 
Grijalva, and members of the Subcommittee. I really do 
appreciate you taking the time to address these issues that I 
think are very important to the future of recreational public 
lands. Because I think, unless we address these issues, we are 
likely to see a contraction in recreation access. And I want to 
touch on some of the major issues that I see, and some other 
witnesses are going to touch on some other issues, so we are 
not repeating ourselves. But we are, I think, at a point where 
we have to address these issues or we are going to see some 
problems down the line. And we are already starting to see 
them.
    First of all, as some of the other witnesses have 
identified, the processes and analysis required to plan and 
authorize outdoor recreation are becoming more complex, 
especially in congressionally designated areas. Those processes 
have to be streamlined or the public will lose access to some 
incomparable experiences. They evolved in a different budget 
environment, and they are simply no longer sustainable.
    In my written testimony, I document how the Forest 
Service's own assessment of their cost of excessive analysis 
has contributed to some of their logjams in authorizing 
activities. The authorization of recreation permits has become 
more complex over time, as a result of court rulings and agency 
rulemakings which extend NEPA compliance to the smallest permit 
decision.
    For example, some rangers feel it necessary to complete a 
2-year need assessment and NEPA analysis to make a decision as 
simple as moving 300 or 400 service days in wilderness from the 
fall to the summer.
    Another example of how extensive documentation can be just 
to issue permits in national forests is the 10-year process to 
issue six permits for pack and stock use in wilderness areas in 
the Okanogan-Wenatchee National Forest. The final EIS was 700 
pages in length to enable these outfitters to provide services 
to approximately 1,200 people per year.
    Before issuing outfitter permits in designated wilderness 
areas, agencies are required to determine if the service is 
necessary to fulfill the recreational purpose of the Wilderness 
Act. The Forest Service is extending this process to non-
wilderness areas, even though it does not have the funding to 
complete these studies. These logjams will become most apparent 
when permits need to be renewed in designated areas. Permitting 
new activities is simply too expensive in national forests, 
except for minor uses.
    I think one of the key points that was made earlier in the 
testimony, and it has come up in court cases now, is when these 
areas are designated it is going to be very important to make 
recreation a purpose, and then to be very specific about what 
the types of recreation activities can be authorized or 
managed. It shouldn't be totally exclusive, but it could be 
including, but not limited to, and name those activities. 
Because we have seen a recent court case where kayaking on the 
Upper Chattooga, for example, was prohibited, and the Agency 
was given discretion to do that.
    One of the issues that I do want to touch on is that cost 
recovery will not solve this problem. As some of you, I think, 
have experienced in your districts, the Agency is trying to 
pass the costs on for these analyses to these small businesses, 
which is just simply not affordable, to do a 700-page EIS for 6 
stock outfitters who carry 1,200 people a year.
    So, that is where, I think, you are going to see the 
erosion or elimination of these services, and certainly no new 
services, as Mr. Bacon indicated, because the cost of the 
analysis are just too expensive. And who is going to risk the 
money, when you don't know what the outcome is going to be?
    One of the key issues that I am really hopeful this 
Committee will address is reauthorization of the Federal Lands 
Recreation Enhancement Act, which is the authority under which 
outfitter and guide permits are issued. It also allows the 
agencies to retain the money generated from permits and amenity 
fees for use at the resource. I do think that authority needs 
to be amended so that we can ensure that those funds are being 
used properly--sport recreation activities--there are some 
other adjustments we think that need to be made, but we think 
that is a critical element, and we would like to see this 
Committee put together a model bill. I know there is some talk 
about extending that authority, but I believe you certainly 
have the understanding that would be required to make that bill 
successful.
    Road and trail infrastructure degradation is another big 
issue. I am not going to go into the details of that, because 
we have other witnesses who are going to testify, but we have 
to have a new strategy to clear trails that are becoming 
impassible, especially in wilderness areas. Thank you so much 
for the opportunity to testify.
    [The prepared statement of Mr. Brown follows:]

           Statement of David L. Brown, Executive Director, 
                      America Outdoors Association

    Mr. Chairman and members of the Committee, thank you for giving me 
the opportunity to testify on some of the critical issues which 
threaten recreation access on public lands throughout the United 
States. America Outdoors Association represents the interests of more 
than 1,000 outfitters, guides and outdoor recreation service providers 
who are members of our association and our affiliate state 
organizations. Most of our members provide services to the public in 
National Parks, National Forests, on BLM lands, including units within 
the National Landscape Conservation System, and in U.S. Fish and 
Wildlife Service Refuges.
    Please accept my sincere appreciation on behalf of outfitters and 
guides for your concern about the future of recreation and outfitted 
services on public lands.
Why Recreation Access May Soon Contract on Public Lands
    I believe we are facing the potential for contraction of recreation 
access for the general public unless the Congress and agencies work 
together with the recreation community to resolve critical, emerging 
impediments to authorizing and facilitating recreation activities on 
public lands. My testimony will cover several broad areas that I 
believe will inevitably lead to this contraction unless action is 
taken.
The Cost of Recreation Management as a Barrier to Recreation.
    Agency processes for planning and authorizing outfitting and other 
recreation activities are becoming more complex and expensive. The 
trend is especially notable in congressionally designated areas within 
National Forests, National Parks and the BLM's National Landscape 
Conservation System (NLCS). On the other hand, some users are not 
managed at all at some resources so the impacts and costs for 
recreational use unfairly falls on those who are permitted and 
regulated.
    If these trends continue, the processes for managing outfitted use 
in some congressionally designated areas will no longer be sustainable 
and will lead to contraction of recreation access. The costs for the 
more complex analyses required to authorize recreation activities 
cannot be transferred to users, especially in outfitting which is a low 
profit-margin business. Those processes have to be streamlined. Because 
agencies are diverting funding from recreation management to other 
programs, the capacity for new recreation activities is very limited.
    With a new swarm of congressional designations under consideration, 
we believe that advocates and the Congress should consider the impact 
that the required management processes will have on use and enjoyment 
of these designated areas.
1. The National Landscape Conservation System Does Not Advance Outdoor 
        Recreation.
    The Bureau of Land Management's (BLM) National Landscape 
Conservation System (NLCS) includes all congressionally designated 
areas and other lands such as Wilderness Study Areas (WSA's). The NLCS 
was authorized in 2009 to conserve landscapes for scientific, cultural 
and ecological values. Overnight, the NLCS went from ``working 
landscapes'' to educational preserves. Recreation and outfitted 
recreation activities are not an emphasis on NLCS lands unless the 
congressional designation makes recreation a purpose and management 
plans specify recreation management areas (RMA's). We suggest some 
legislative adjustments to the BLM's NLCS authorizing language to give 
recreation a higher status.
    We have concerns that the requirement for a science plan for NLCS 
units and aggressive strategies to engage and educate youth, while 
noble in their intent, are not fully funded and could divert funds 
needed for recreation management which will further depress access.
    Remarkably, the BLM Manuals and Handbooks for management of the 
vast NLCS lands were issued without public comment. We believe Congress 
should require those policies to be re-issued and make them subject to 
public comment. The importance of understanding these management 
regimes prior to additional congressional designations of BLM lands 
cannot be understated.
    I respectfully submit that Congress should carefully consider the 
following issues when designating BLM lands, which are automatically 
part of the NLCS:
        <bullet>  Where appropriate future designations should ensure 
        that the recreational values of those resources are 
        specifically recognized as a purpose in the legislation;
        <bullet>  Where wilderness is designated, a provision which 
        recognizes outfitted services as ``necessary'' should be 
        included. Senator Udall's draft for the Brown's Canyon National 
        Monument does that with the following language: ``(2) 
        OUTFITTING AND GUIDE ACTIVITIES.--Consistent with section 
        (d)(5) of the Wilderness Act (16 U.S.C. 1133(d)(5)), commercial 
        services (including authorized outfitting and guide activities) 
        are authorized in the Wilderness to the extent necessary for 
        activities that fulfill the recreational or other wilderness 
        purposes of the Wilderness.'' The agency will still be required 
        to develop a new management plan and complete capacity analysis 
        to determine ``the extent'' to which outfitted services are 
        ``necessary''.
        <bullet>  Senator Udall's draft for the Brown's Canyon National 
        Monument authorizes planning for specific recreation activities 
        within the Monument and excludes the Arkansas River, one of the 
        nation's most popular whitewater rafting rivers, from the 
        Monument boundaries on each side of the river. The State of 
        Colorado retains management authority over commercial rafting 
        on the river. This strategy represents one way to eliminate the 
        potential impacts on access of the monument designations. While 
        state management is appropriate for the Arkansas River, not 
        every state is capable of managing a significant recreation 
        resource on federal lands.
2. Excessive Analysis in the Forest Service as an Impediment to 
        Recreation Activities
    The Forest Service described the torpor that results from 
``excessive analysis'' when they concluded in 2002 that ``These factors 
frequently place line officers in a costly procedural quagmire, where a 
single project can take years to move forward and where planning costs 
alone can exceed $1 million. Even noncontroversial projects often 
proceed at a snail's pace.'' (The Process Predicament, USDA Forest 
Service, June 2002, page 5).
    In National Forests these processes have become more complex over 
time as a result of court rulings and agency rule-makings which extend 
NEPA compliance to even the smallest permit decision. For example, some 
rangers feel it is necessary to complete a two-year ``need'' assessment 
and NEPA compliance to make a decision as simple as moving 300 or 400 
service days in wilderness from the fall to the summer.
    Before a new recreation permit is issued for a significant new 
activity or a level of use changed, the Forest Service may have to:
        <bullet>  determine if the recreation activity and extent of 
        use is authorized in the Forest plan and, if not, amend the 
        plan and comply with the National Environmental Policy Act 
        (NEPA) by completing NEPA documentation;
        <bullet>  assess the ``need'' for the commercial recreation 
        services, a process which is not well defined by the agency and 
        more likely to be directed by the Courts, especially in 
        designated wilderness where the Forest Service must determine 
        the extent of outfitted activity allowable and its impact on 
        wilderness values in addition to the need for the services 
        consistent with The Wilderness Act;
        <bullet>  complete an elaborate capacity analysis;
        <bullet>  complete site specific NEPA analyses upon reviewing 
        the permit application, which for some permits, may require an 
        environmental assessment or a full environmental impact 
        statement;
        <bullet>  engage the Fish and Wildlife Service or National 
        Marine Fisheries Service in Section 7 consultation and complete 
        various biological assessments related to the impact of the 
        permitted activities.
    One recent example of how extensive documentation can be in 
National Forests is the 10-year process to issue six (6) permits for 
pack and stock use in the Okanogan-Wenatchee National Forest. The Final 
EIS (FEIS) was nearly 700 pages in length to enable these outfitters to 
provide services to approximately 1,200 people per year. This extensive 
analysis was driven by fear of lawsuits by those opposed to outfitted 
use, which totals about 10% of overall use of the wilderness. The FEIS 
was preceded by a study to determine if the services were ``necessary'' 
during which users were surveyed. We appreciate the Forest Service's 
efforts to authorize this use, but realize this is not a sustainable 
process if it has to be repeated in most National Forests. Fortunately, 
cost recovery was not applied in this instance because the process 
began long before cost recovery was authorized and it was simply not 
affordable.
3. Re-examining Visitor Use and Capacity in National Parks
    Legal challenges have greatly impacted recreation access in some 
National Parks and National Forests. Equine activities are especially 
vulnerable to these attacks. For example, equine activities have been 
eliminated in Grand Canyon National Park and are under threat in 
Yosemite and Yellowstone. Lawsuits were filed over equine activities in 
National Forests in California and Idaho.
    In 2012 Congress had to pass the Sequoia and Kings Canyon National 
Parks Backcountry Access Act (H.R. 4849) to enable NPS to issue permits 
for historical horse pack trips after a lawsuit successfully blocked 
their issuance in designated wilderness. The Court agreed with the 
plaintiffs that NPS had not adequately assessed ``the need'' for those 
services in the wilderness. The plaintiffs also charged that the trips 
used items that were unnecessary for the enjoyment of wilderness, such 
as tables, chairs and other ``luxury'' items.
    Other commercial services are also under greater scrutiny. The 
court ruling in the lawsuit over the re-development plan to restore 
flood-damaged facilities in Yosemite National Park now requires NPS to 
establish a numerical carrying capacity consistent with the Wild and 
Scenic River designation for the Merced River, which flows through an 
area with historic facilities and recreation activities. Recreation 
activities are being eliminated if they are deemed to be inconsistent 
with the Merced's designation. This 9th Circuit ruling rippled through 
NPS as the agency became sensitive to any uses which were not backed up 
by planning documentation. The ruling also impacted Wild and Scenic 
River management in other areas resulting in restricted access at 
rivers in National Forests in northern California and Idaho where 
carrying capacity had not been an issue.
    An internal 2008 briefing from the NPS planning division addressed 
the issue of ``Visitor Use and Capacity Planning and Management'' by 
describing the broad impacts of the Yosemite Court decision.
        ``The Yosemite litigation emphasizes the complexity and 
        conflict inherent in visitor use and capacity management, and 
        the increasing debate over the ``right way'' to balance visitor 
        opportunities and resource protection goals. Yosemite is not 
        alone. There are many other costly lawsuits and political 
        battles being waged over visitor use and capacity management-
        related issues, such as river use in Grand Canyon, equestrian 
        recreation in Sequoia, off-road vehicle use in Cape Hatteras, 
        and dog walking in Golden Gate National Recreation Area, to 
        name just a few.'' (Briefing Statement, Visitor Use and 
        Capacity Planning and Management, March 2008).
    NPS units have to complete an array of plans to accommodate 
visitors. Among the plans that may be necessary to authorize 
recreational use are: General Management Plans, Special Resource 
Studies, Commercial Services Plans, Resource Management Plans, 
Wilderness Plans, and Transportation Plans.
4. Management Streamlining Strategies
    We understand and appreciate the many conflicting demands placed on 
federal land managing agencies. However, despite all the challenges, 
many areas manage to get things done by defensibly authorizing use 
without spending years preparing documentation. The best practices 
within each agency to facilitate recreation access should be 
identified, encouraged and used as a basis for facilitating recreation 
access rather than eliminating it. The BLM appears to have developed a 
successful strategy in some areas by using Programmatic Environmental 
Assessments combined with needs assessments.
    The National Park Service and Forest Service documents at one point 
recognized the need for legislative changes regarding their planning 
processes. The NPS Briefing Statement suggested the agency, ``evaluate 
the need for amendments to legislation or notice and comment rulemaking 
to reflect a broader and more comprehensive definition and related best 
practices on visitor use and capacity management''. The Forest Service 
report from 2002 stated, ``The need for so much planning is 
questionable. For example, much of the environmental information that 
the Forest Service collects is of dubious scientific or practical 
value. Although it might be needed to meet procedural requirements or 
to withstand appeals and litigation, resources spent on process cannot 
be put to other uses. The opportunity costs alone--which might range 
into the tens of millions of dollars--suggest a fundamental lack of 
efficiency and effectiveness in national forest management. ``
    One concern we have in proposing these necessary changes is that 
Congress not exempt certain groups and establish double standards for 
documentation and regulation. For example, the 1998 Concession Reform 
legislation exempted non-profit entities from the requirement to have a 
commercial use authorization to provide commercial services in National 
Parks unless the activities produce taxable income. This double 
standard is not appropriate and makes it harder for taxpaying 
businesses to compete when providing similar services. America Outdoors 
Association has nonprofit members and we understand and respect their 
role in providing educational services to the public. Some of them do 
not agree with this exemption in National Parks.
5. The Public Cannot Be Expected to Pay More for Less.
    Some agencies are diminishing access, which they claim is necessary 
as a result of budget cuts.
    More reports surface each day detailing access and campground 
closures, which seem to be more prevalent within National Parks. These 
negative reports alone could depress visitation to National Parks this 
year. NPS may be surprised to find fewer visits are used to justify 
even deeper cuts. Here are some examples from press reports:
        <bullet>  Delaware Water Gap National Recreation Area has 
        closed two important public access points at Milford and 
        Kittatinny Point which some canoes liveries estimate will cost 
        them between 25% and 50% of their business. These closures 
        eliminate a float trip on the river that is popular with 
        families. The Superintendent says it is too expensive to 
        collect the garbage in those areas on weekends.
        <bullet>  Cuyahoga Valley National Park is reducing visitor 
        center hours, education programming, restroom cleaning, trail 
        maintenance, and mowing.
        <bullet>  The Great Smoky Mountains National Park closed five 
        campgrounds and picnic areas, and reduced road maintenance.
        <bullet>  Yellowstone National Park delayed road openings, 
        reduced staffing, and delayed access to Grant Village and 
        Yellowstone Lake, although some of these closures may have been 
        rescinded.
        <bullet>  Glacier National Park says they will delay plowing 
        Going-to-the-Sun Road, the only road providing access to the 
        entire park, which impacts visitors and concessioners' 
        services.
    Most businesses in America had to absorb a 5% decline in revenues 
during the latest recession but few cut-off services to the public to 
accommodate the decline. Agencies should look at opportunities to 
improve their efficiency instead of cutting access and services to the 
public. Streamlining documentation requirements and reviewing 
organizational structures for duplicative programs are two strategies 
that might yield some savings.
6. Cost Recovery Will Not Solve the Process Problem.
    Both the Forest Service and the Bureau of Land Management have a 
cost recovery regulation designed to fund the cost of environmental 
analyses and permit administration when the time required to process a 
special recreation permit exceeds 50 hours. The BLM appears to be the 
leader among agencies in streamlining processes, such as the use of 
programmatic Environmental Assessments. The Forest Service, on the 
other hand, seems to be increasing process requirements and initiating 
cost recovery more aggressively. If fully implemented in both agencies, 
cost recovery will eliminate many outfitted services, especially in 
designated wilderness, on NLCS lands, where threatened or endangered 
species are present, or where social conflicts require the agency to 
engage in higher levels of National Environmental Policy Act (NEPA) 
compliance.
    We have proposals to amend the Forest Service and the BLM's cost 
recovery authority which expires in September of this year, which we 
ask the committee to consider.
        <bullet>  If a permitted use has been ongoing for a number of 
        years and there are no significant changes to the use or the 
        resource, categorical exclusions for NEPA compliance should be 
        authorized.
        <bullet>  Compliance with the Endangered Species Act should not 
        be subject to cost recovery for existing permits.
        <bullet>  Programmatic EA's are another strategy BLM is 
        adopting with success in some areas to eliminate the cost 
        recovery requirement.
        <bullet>  Eliminate the needs assessment requirement in non-
        wilderness areas.
    These changes could be included in the reauthorization of the 
Federal Lands Recreation Enhancement Act.
7. Unrealistic Restrictions Imposed by Wilderness Management.
    Restrictions on group sizes in wilderness areas are increasingly 
limiting access for groups and commercial parties. We understand the 
need to have some limitation on group size in wilderness. However, 
limits on groups to as few as five (5) or six (6) persons in some 
wilderness areas eliminate families, social and outfitted groups from 
using the wilderness. Group size restrictions may expand to wilderness 
study areas (WSA's) in the NLCS and in the backcountry eligible for 
wilderness in National Parks, according to agency policies, which 
suggests that those areas must be managed as wilderness. Activities 
which might not be suitable under a wilderness designation are 
discouraged by the BLM's NLCS Manual for WSA's. These restrictions 
should be considered before extending a wilderness designation to a 
recreation area that is popular with groups.
    The primary motivation of group size limitations is to manage 
wilderness to provide for ``outstanding opportunities for solitude or a 
primitive and unconfined type of recreation'', one of the four 
mandatory requirements for managing wilderness, according to the BLM 
Manual on Management of Wilderness (BLM Manual 6340, page 8,9).
        <bullet>  Group size restrictions vary from wilderness to 
        wilderness, but can be as low as five (5) or six (6) people in 
        the most restrictive wilderness areas.
        <bullet>  Within National Forests ten (10) is the most common 
        group size limit, a restriction found in 63 wilderness areas.
        <bullet>  30 wilderness areas in National Forests limit access 
        by the total number of ``heartbeats'', meaning people and 
        stock. 12 heartbeats per group are allowed in 18 wilderness 
        areas.
        <bullet>  The upper limit is 25 heartbeats (or people and 
        stock) per group found in 23 wilderness areas.
    For some outfitted trips, a group size of eight (8) to ten (10) is 
appropriate, such as hunting parties, which require a higher guide to 
guest ratio. But higher group sizes are usually necessary to make 
rafting trips affordable and cost effective.
    The expansion of the need assessment requirement for commercial 
services in designated wilderness has also created unnecessary log jams 
in the authorization of outfitted services. Agencies must determine the 
need for commercial services through an ambiguous process before 
permitting outfitted activities. Now, need assessments, which the 
agency does not have the funding to complete, are being implemented in 
some Forests, suppressing new outfitter permits, another example of 
mushrooming agency processes. Permits for new activities are rare in 
National Forests because the agency field staff can't jump through all 
the hoops to issue permits.
    To overcome the need assessment hurdle any future wilderness 
designations should establish in the authorizing legislation that 
historic outfitted activities are ``necessary'' to fulfill the 
recreational purposes of The Wilderness Act. At some point Congress may 
wish to consider an alternative to wilderness designations to give 
agencies more freedom to authorize recreation activities.
8. Reauthorizing and Amending the Federal Lands Recreation Enhancement 
        Act
    Recreation access will contract even more dramatically unless The 
Federal Lands Recreation Enhancement Act (FLREA), which expires in 
2014, is amended and reauthorized. FLREA is the authority for issuing 
outfitter and guide permits in National Forests, on BLM lands and 
within U.S. Fish and Wildlife Service Refuges. Without reauthorization, 
the agencies will have to find some other authority but the fees 
generated by permitted activities will not be retained. Recreation fees 
are supposed to be retained to support recreation activities where they 
are collected, although that does not always happen. While FLREA should 
be reauthorized, that reauthorization should not occur without changes.
        <bullet>  Lack of accountability for use of the fees is a 
        problem in some areas. We believe, because we have reports from 
        field staff, that the fees are being spent inappropriately at 
        some sites. A portion of the fee money should be used by 
        Congress to conduct random or targeted audits of agency 
        expenditures of fee revenues at fee sites.
        <bullet>  Permit fees should be applied to permit 
        administration. However, a limitation on that authority is 
        needed to prevent the agency from using it to impose crippling 
        fee burdens. We believe the fee structure should be standard 
        across the agency as it is now and any changes subject to 
        comment. Administration of amenity fees should be separated 
        from other recreation fees.
        <bullet>  The current FLREA law authorizes the agencies to go 
        into the concessions business, to run reservations services, 
        rent cabins, rent equipment and to offer specialized tours. 
        This authority should be altered to allow agency-provided 
        services only when they cannot be provided by the private 
        sector or when they are part of the agency's core mission.
        <bullet>  Congress should consider authorizing non-profits to 
        collect donations from users and others to support recreation 
        activities and the goals of FLREA in lieu of agency-collected 
        amenity fees where the non-profit can use fees more 
        efficiently. These entities may accept outside contributions as 
        well as be responsible for cost effectively collecting 
        donations from recreation users. The overhead associated with 
        the operation would have to be limited to ensure appropriate 
        use of the funds and some limitations on advocacy established. 
        While this option will not work everywhere, there are examples 
        of workable strategies which should be considered.
        <bullet>  Rather than permanent authorization, we believe it is 
        better for FLREA to sunset every 10 years so that it can be 
        adjusted when needed. We also strongly urge this committee to 
        write a model bill this year. An extension is necessary if a 
        bill cannot be passed in this session.
9. Road and Trail Infrastructure Degradation.
    There is no question that new strategies are needed to maintain the 
road and trail infrastructure on public lands. Beetle kill and fires 
have resulted in dramatic degradation of the trail infrastructure 
especially in National Forests and on BLM lands. Wilderness lands are 
among the hardest hit because mechanized equipment cannot be used to 
clear trails. Outfitters are often required to open up trails prior to 
the start of each season with crosscut saws, a task which has become 
overwhelming after winter blow downs block public access. Agency trail 
crews often arrive too late in the season or are simply understaffed to 
get the work done. Outfitters are reporting that secondary trails are 
being abandoned forcing more use on to mainline trails, which will 
undoubtedly result in someone complaining about overuse. Other 
witnesses at the hearing will testify to the magnitude of the problem 
in their areas.
    We have suggested some strategies to facilitate maintaining these 
trails.
        <bullet>  A portion of the fees generated by FLREA was intended 
        for agency-wide use although the agencies have the flexibility 
        to retain all the fees locally. A portion of agency-wide fees 
        could be used for trail maintenance and river access to 
        reimburse the Forest for fee credits given to outfitters which 
        would be deducted from their annual fee bill. Revenue from the 
        account could also be used to support volunteer groups and 
        other entities to clear trails. The money would have to be held 
        in a special account for trail maintenance to avoid its 
        diversion.
        <bullet>  Some authorization for limited use of chain saws in 
        wilderness may be necessary to open up impassable trails and 
        rivers to protect the public from dead fall and strainers.
        <bullet>  One concern is that a road use fee will be applied 
        exclusively to permit holders when FLREA is reauthorized, even 
        though outfitters are often the minority users of Forest and 
        BLM roads. If any road use fees are approved, they should be 
        broad-based and include all users of those roads.
    Thank you for this opportunity to submit testimony and for your 
attention to outdoor recreation on public lands.
[GRAPHIC] [TIFF OMITTED] T0815.001

                                 .eps__
                                 
    Mr. Bishop. Thank you. I appreciate that. We will now turn 
to Grant--and it is Simonds? Is that the correct way?
    Mr. Simonds. Yes, sir.
    Mr. Bishop. From the Idaho Outfitters. You are recognized 
for 5 minutes.

                  STATEMENT OF GRANT SIMONDS, 
            IDAHO OUTFITTERS AND GUIDES ASSOCIATION

    Mr. Simonds. Thank you, Mr. Chairman and Committee members, 
for this opportunity to testify on this topic. Idaho is a State 
in which nearly two-thirds of the land base is public lands 
managed primarily by the Forest Service and BLM. So adequate 
and safe access to our public lands is fundamental for outdoor 
recreation, including trails utilized by hikers.
    The Frank Church River of No Return Wilderness is the 
largest forest wilderness at 2.3 million acres in the Lower 48. 
At the time of enactment of the Act in 1980, this wilderness 
area had nearly 2,500 miles of catalog trails, and Section 5(b) 
of that Act says, ``The Secretary shall, to the extent 
practicable, consistent with the management plan required by 
this section, clear obstructions from all of the national 
forest trails and adjacent to the wilderness on at least an 
annual basis.'' For several decades, the Forest Service has not 
met the requirements of the law.
    Recently, the Agency has been able to maintain 
approximately 20 percent of the 2,500 miles. The large fires 
since 1988 have cumulatively increased the damage to the trail 
system. Invariably, after a wind storm, blow-downs of both dead 
and live trees further clog mainline and secondary trails. Each 
year this phenomenon has become more apparent to those who 
visit the wilderness.
    Outfitter and guide trail maintenance provides access to 
portions of this wilderness on secondary trails, thereby 
providing access to little-used areas of the wilderness while 
spreading out use. However, the increasing costs associated 
with maintaining these trails have outstripped the ability of 
these small businesses to do so, especially in this new economy 
for which there has been no recovery for the Idaho industry.
    The trail maintenance backlog and out-year damage from 
fires to the trail system could benefit from policy changes 
that would allow for a window of mechanized use from tools such 
as wheelbarrows and chainsaws. Additionally, outfitters and 
guides would be further incentivized to clear more trails 
through institution of a credit toward the annual fees they pay 
the government for the privilege of providing outfitter 
services on public lands. Dealing with the trail maintenance 
backlog needs to strongly consider ideas outside the proverbial 
box.
    The situation is so dire in the Frank Church that the State 
legislature passed a resolution that contained the following 
language: ``Now, therefore, be it resolved by the members of 
the Idaho Legislature that we urge the Secretary of the 
Department of Agriculture to declare the Frank Church River of 
No Return and adjacent national forest lands to be a natural 
resource disaster area.''
    I would like to talk just a little bit about cost recovery. 
To a certain extent, small businesses in Idaho have become a 
poster child for cost recovery, especially where threatened 
endangered species were present. Recently an Idaho base land 
outfitter with a historic base camp that is now exemplary in 
how the outfitter maintains it for minimum impact has been 
assessed a $5,600 cost recovery fee by the Boise National 
Forest for environmental analysis that may or may not lead to 
permit renewal. While $5,600 may seem minor to a ski area or 
mining operation, it is a significant amount for a company with 
insignificant earnings.
    The base camp is located within 300 feet of the south fork 
of the Salmon River, a stream where endangered Chinook Salmon 
also spawn. This base camp is utilized during the summer as 
headquarters for a week-long outdoor education camp for 
teenagers. The non-outfitter public, however, is not allowed to 
approach the banks of the stream to watch the returning fish 
during the summer, an educational opportunity not afforded to 
the kids who choose this opportunity through the outfitter.
    I would like to echo the need to amend the Forest Service 
and BLM's cost recovery authority. Compliance with the 
Endangered Species Act should not be subject to cost recovery 
for existing permits. This analysis should be programmatic and 
not one that individual small businesses should incur. If use 
has been ongoing for a number of years and there is no 
significant change to the use of the resource, categorical 
exclusions for NEPA compliance should be authorized. Also, if 
cost recovery is to continue for outfitter permit renewal, then 
the Agency should provide credit for the first 50 hours of 
work. This is not currently the case.
    In summary, Mr. Chairman, outfitting is an important 
contributor to the Idaho rural economy. Reduction of the trail 
maintenance backlog and the elimination of cost recovery for 
NEPA compliance would assist our industry and encourage the 
continuation of the small businesses in the Idaho rural 
economy. Thank you.
    [The prepared statement of Mr. Simonds follows:]

            Statement of Grant Simonds, Executive Director, 
                Idaho Outfitters and Guides Association

    Thank you, Mr. Chairman for this opportunity to testify on the 
topic of impediments to public recreation on public lands. My name is 
Grant Simonds, and I have been the executive director of the Idaho 
Outfitters and Guides Association, a statewide non-profit business 
trade organization, since 1985. IOGA represents the interests of more 
than 200 outfitters, guides and outdoor recreation service providers. 
Idaho outfitters provide service to more than 200,000 persons each year 
that would not have the opportunity to enjoy a guided vacation without 
the assistance of an outfitter.
    Idaho is a state of which nearly two-thirds of the land base is 
public lands managed primarily by several federal agencies such as the 
Forest Service and the BLM. Adequate and safe access to our public 
lands is fundamental for outdoor recreationists, including trails 
utilized by hikers and stock users. The Frank Church River of No Return 
Wilderness is the largest forest wilderness at 2.3 million acres in the 
lower 48. At the time of enactment of the Central Idaho Wilderness Act 
(CIWA) in 1980, this wilderness area had nearly 2,500 miles of 
catalogued trails. Section 5b of the CIWA states:
        The Secretary shall, to the maximum extent practicable, 
        consistent with the management plan required by this section, 
        clear obstructions from all of the national forest trails 
        within and adjacent to the wilderness on at least an annual 
        basis.
    For several decades the Forest Service has not met the requirement 
of the law. Recently, the agency is able to maintain approximately 
twenty percent of the 2,500 miles annually. The large fires since 1988 
have cumulatively increased the damage to the trail system. Invariably 
after a wind storm, blow downs of both dead and live trees further clog 
mainline and secondary trails. Each year this phenomenon has become 
more apparent to those who visit the Wilderness whereby outfitters and 
their guests and the self-guided public are no longer able to access 
portions of the Wilderness. Further, fire rehabilitation funds need to 
be extended beyond the initial year of the fire to specifically deal 
with damage to trails that occur long after fire control is achieved. 
The trail maintenance backlog is similar on other nearby public lands.
    Outfitter and guide trail maintenance provides access to portions 
of the Wilderness on secondary trails, thereby providing access to 
little used areas of the Wilderness while spreading out use. However, 
the increasing costs associated with maintaining trails for access have 
outstripped the ability of small rural-based businesses to do so, 
especially in this age of the new economy associated with the Great 
Recession for which there has been no recovery for the Idaho industry.
    The trail maintenance backlog and out-year damage from fires to the 
trail system could benefit from a policy change that would allow for a 
window for mechanized use annually from tools such as wheelbarrows and 
chainsaws. Additionally, outfitters and guides could be further 
incentivized to clear more trail though institution of a credit toward 
the annual fees they pay the government for the privilege of providing 
outfitter servicers on public lands. Dealing with the trail maintenance 
backlog needs to strongly consider ideas outside the proverbial box.
    The situation is so dire in the Frank Church that the state 
legislature passed a resolution that contained the following language:
        ``WHEREAS, the Chief of the United States Forest Service has 
        not placed emphasis on efficient and economical methods of 
        trail restoration and maintenance, and has in fact aggressively 
        limited methods and tools by Forest Service crews, contractors 
        and volunteers that would greatly increase accomplishment and 
        lower costs without adverse effect on wilderness values or 
        visitors; and WHEREAS, use of outfitter and guide permittees, 
        contractors and volunteers from various organizations to 
        accomplish trail work is well below potential due to a lack of 
        emphasis by the United States Forest Service on using 
        innovative ways to offset permittee fees and streamline and 
        simplify contracting procedures.

        NOW, THEREFORE, BE IT RESOLVED by the members of the First 
        Regular Session of the Sixty-second Idaho Legislature, the 
        House of Representatives and the Senate concurring therein, 
        that we urge the Secretary of the United States Department of 
        Agriculture to declare the Frank Church-River of No Return 
        Wilderness and adjacent national forest lands to be a Natural 
        Resources Disaster Area.''
    To a certain extent Idaho has become the poster child for cost 
recovery for environmental analysis and outfitter permit administration 
especially where threatened and endangered species are present. 
Recently, an Idaho land-based outfitter with a historic base camp that 
is now exemplary in how the outfitter maintains it for minimum impact 
has been accessed a $5,600 cost recovery fee by the Boise National 
Forest for environmental analysis that may or may not lead to permit 
renewal. While $5,600 may seem minor to a ski area or mining operation, 
it is a significant amount for a company with insignificant earnings. 
The base camp is located within 300 feet of South Fork of the Salmon 
River, a stream where endangered Chinook salmon also spawn.
    This base camp is utilized during the summer as headquarters for 
week-long outdoor education camps for teenagers. The non-outfitted 
public is allowed to approach the banks of this stream to watch the 
returning fish during the summer, an educational opportunity not 
afforded to the kids who choose an outfitted outdoor education summer 
experience with this outfitter. During the fall, this site serves as a 
base camp for outfitted hunters. Complicating this matter is that there 
is apparently no suitable location for moving the base camp, and even 
if that were to occur, cost recovery analysis would be invoked since 
the outfitters assigned area of operation is within the South Fork 
Salmon drainage.
    Since 1992 this outfitter has requested that activities that were 
once permitted to the previous owner be added in order to extend the 
season while diversifying his operation. Now, in order for these 
activities to be added, the environmental analysis and associated cost 
recovery bill would increase substantially.
    Cost recovery was invoked on float trip operators on the Upper Main 
Salmon during the height of the recession because the Forest Service 
was unable to complete its analysis in less than 50 hours. The Forest 
Service had to complete Section 7 consultation and other biological 
assessment related to endangered Chinook salmon which return to the 
river each year to spawn. The analysis does not begin until the special 
use permittee agrees to pay for the analysis up front. Then there is no 
guarantee that the outfitter will be permitted once the analysis is 
complete. Never mind that the Idaho Department of Fish and Game 
Department was simultaneously applying for a take permit from the 
National Marine Fisheries Service for the same stretch of river that 
allows the general public to walk and wade during spawning season. The 
analysis, while required by law, seems superfluous for float trips with 
the same fish are more likely to be disturbed by fishing and wading.
    I would like to echo the need to amend the Forest Service and BLM's 
cost recovery authority. Compliance with the Endangered Species Act 
should not be subject to cost recovery for existing permits. This 
analysis should be programmatic and not one that an individual small 
business should incur. If a use has been ongoing for a number of years 
and there is no significant change to the use or the resource, 
categorical exclusions for NEPA compliance should be authorized. Also, 
if cost recovery is to continue for outfitter permit renewal, then the 
agency should provide credit for the first 50 hours of work. This is 
not currently the case.
    Our Idaho industry studies indicate the average net after all the 
bills are paid is less than five percent. Cost recovery means that 
small businesses are forced to make decisions such as whether to 
continue operating or not, how much health care to afford, whether to 
reduce staffing and marketing.
    Outfitting is an important contributor to the Idaho rural economy. 
Reduction of the trail maintenance backlog and elimination of cost 
recovery for NEPA compliance would assist in maintaining viable small 
businesses and options for the public that chooses an outfitted 
vacation to enjoy our public lands.
                                 ______
                                 
    Mr. Bishop. Thank you. So I thank you and Mr. Brown both 
for watching that red light like a hawk. I appreciate that.
    I will turn now to Brian Merrill, welcome, you are 
recognized for 5 minutes to address us.

                STATEMENT OF BRIAN I. MERRILL, 
                     WESTERN RIVERS GUIDES

    Mr. Merrill. Thank you, Mr. Chairman, Mr. Grijalva, and the 
rest of the members of the Subcommittee. I am grateful for the 
opportunity to testify on issues that are important to the 
future of recreation on public lands. I am particularly 
concerned about lands that are located in Utah. And, as the 
Chairman knows, 63 percent of Utah's lands are owned by the 
Federal Government. Only Nevada has a higher percentage. And 
what happens on that land is of critical importance to the 
economy of our State.
    I am concerned that we maintain specifically public access 
to these lands for recreation and multiple uses. Recently 
Chairman Bishop sent a letter to a number of groups asking for 
their thoughts on designation of lands that could be included 
in future legislation for public lands in Utah. I very much 
appreciate the Chairman's approach, because there are areas 
that I particularly would like to see protected, and most of 
all I would like to see access to those areas maintained for 
people who want to recreate there. And, more specifically, for 
commercial recreation. I make my living taking people out on 
these lands, and so that is my bias.
    But I am also very appreciative of this approach because I 
believe bringing these disparate groups together, everything 
from the environmental community to extractive industries and 
all of us in between, is important because in meetings I have 
had with a lot of these groups, private meetings, a lot of 
times we are saying the same things. And I think there is a lot 
of common ground that we can find. And the Chairman's 
leadership is very much appreciated.
    The focus of my testimony today is about the national 
landscape conservation system, NLCS. And in a recent 
presentation to the Utah BLM Advisory Council--I sat through a 
presentation about their 3-year plan for implementing the NLCS. 
And it is a real ambitious document. It talks about developing 
friends groups, extensive media campaigns, student and 
volunteer-led monitoring efforts, development of friends 
groups, programs for youth and disabled veterans, massive 
amounts of science, and only occasionally is recreation 
mentioned in that document. Maybe four sentences. And even when 
you get down to discussion of management of specific resources, 
it hardly mentions recreation at all, even though recreation is 
a significant part of just about every BLM-managed resource in 
Utah.
    I worry about that for the NLCS on the grand scale, too. 
And when I think about the implementation of management under 
NLCS, again, I see very little mention of recreation and, 
specifically, guiding and outfitting.
    As you know, the NLCS was established in 2009 to include 
all congressionally designated areas to conserve, protect, and 
restore nationally significant landscapes that have outstanding 
cultural, ecological, and scientific values. And, as I have 
already said, recreation is not a value for which an NLCS unit 
is managed, unless it is included as a purpose in the 
authorizing legislation for the area.
    And if there is one message I would like to send today it 
is that any legislation going forward ought to specifically 
mention recreation as a value for which the area ought to be 
managed. And, even more specifically, I would hope that they 
would mention guiding and outfitting services.
    In these areas, recreation can be allowed, but it is only a 
secondary use in most situations. Clearly, recreation needs to 
be compatible with the other objectives of the NLCS. And, in 
fact, in the case of commercial outfitting, it already is. 
Commercial outfitters, including Mr. Bannon's organization 
here, have invented all of the low-impact camping protocols and 
low-impact use protocols that are the standard in our industry. 
They were invented by our industry. And so we know how to take 
care of these lands. And it is in the best interest of the 
agencies to use us as their partners. We are the eyes and ears 
on the ground, as has already been said here today.
    Oh, I am running out of time. I am out of time, aren't I? I 
will just say that the combination of the Chairman's leadership 
in bringing these groups together and Governor Herbert's 
recreation vision, outdoor recreation vision in Utah, I think 
are the right recipe for fixing the way lands are managed in 
Utah. We do not have a specific designation that accommodates 
recreation, and I would encourage the members of the Committee 
to read my oral or my written testimony, because I have some 
great ideas, I think, in there about how to do that.
    [The prepared statement of Mr. Merrill follows:]

                  Statement of Brian I. Merrill, CEO, 
            Western River Expeditions, Salt Lake City, Utah

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify on issues that are important to the future of 
recreation on public lands. I want to make it clear that I am 
representing my company and myself in this testimony.
    As you know, 63% of the land in Utah is under federal ownership. 
Only Nevada has a higher percentage of federal land ownership. What 
happens on that land is of critical importance to the economy of the 
state. That is why I am grateful to be able to testify today, because I 
am concerned that we maintain public access to these lands for 
recreation and multiple uses.
    Recently, Chairman Bishop sent a letter to a number of groups and 
individuals asking for suggestions on designation of lands that should 
be included in future legislation for public lands in Utah. I very much 
appreciate the Chairman's approach because there are areas I would like 
to see set aside for recreation, as well as scenic and cultural values 
provided they remain available for public access and multiple-use. Of 
course, in highlighting recreation, I want to emphasize outfitting and 
guiding.
    In reflecting on the prospect for designating lands under the 
Bureau of Land Management's authority, I want to focus on concerns 
about the National Landscape Conservation System (NLCS) and what is an 
inherent bias against recreation in the authorizing legislation and in 
the NLCS management manuals. As you know the NLCS was established in 
2009 to include all congressionally designated areas ``to conserve, 
protect, and restore nationally significant landscapes that have 
outstanding cultural, ecological, and scientific values''. Recreation 
is not a value for which an NLCS unit is managed unless it is included 
as a purpose in the authorizing legislation for the area. Recreational 
use may be allowed but it is secondary and tolerated only if it is not 
in conflict with the other purposes for the NLCS, the values prescribed 
by the congressional designation, and the direction given in the NLCS 
manuals and BLM handbooks.
    Of course recreation needs to be compatible with the other 
objectives of the NLCS. In the case of professionally guided 
recreation, it already is. In fact, most if not all of the low-impact 
use and camping practices that are the standard in our industry were 
invented and developed by our industry, not by government employees. 
The idea of ``partnership'' is given lip-service by BLM, NFS and NPS, 
but I believe they largely dismiss the value that their outfitters 
represent in accomplishing their goals. We are truly the only ones who 
are out there educating visitors and creating constituencies for these 
resources in any significant way. This is especially true of BLM and 
NFS.
    The NLCS Manual for National Monuments, National Conservation Areas 
(NCA's), and similar designations were developed without public comment 
and include provisions and direction which go beyond the obvious intent 
in the NLCS authorizing legislation. For example, under A. General 
Principles for the Management of Monuments and NCA's, No. 5 specifies 
that the BLM's public engagement focus specifically on ``youth and 
veterans on Monument and NCA lands for education, interpretation, 
partnerships, volunteers and job opportunities''. While this focus may 
be laudable, the omission of other visitors and groups may exclude 
those segments of the public in the planning and management of these 
areas. If you run an outfitting business which does not specifically 
serve these groups, then it would appear your status is in question. 
What about engagement of the general public?
    With wilderness designations, party size limitations and the 
limitations on commercial services mandated by The Wilderness Act make 
me reluctant to want that designation for large areas in Utah 
especially where outfitting and guiding takes place. The BLM Manual for 
wilderness study areas (WSA's) discourages allowing any uses that could 
detract from future wilderness designations even if those uses are 
temporal, transitory and do not involve the construction of permanent 
structures. For example, jeep tours or river tours could be at risk or 
not allowed if the direction in the Manual for management of WSA's is 
followed.
    A primary focus of management in Monuments and NCA's appear to be 
``science''. A ``science plan'' is required but, at least in the public 
version of the Manual document, there does not appear to be a 
requirement for a visitor services plan.
    Given the direction in these manuals, any future designations in 
Utah must specifically identify the recreational values that are to be 
preserved, maintained or restored in order for them to be protected. I 
am also concerned about the recreational potential for all the 
congressionally designated areas that predated the establishment of the 
NLCS in 2009, which are now, by law, part of it.
    There are areas many of us would like to see set aside primarily 
for their recreational value. Based on the direction of the NLCS policy 
and legislative authority, it does not appear that including them under 
the NLCS authority is a good idea unless recreation activities are 
specifically mentioned as a purpose for the area with clear direction 
that these are primary values and not secondary to the other values for 
which the NLCS was established.
    Understanding the future direction of management and recreation 
with the BLM and the NLCS is difficult in part because the Manuals and 
Handbook which guide recreation planning within the agency have not 
been widely publicized or available for public comment. Without that 
knowledge how these areas are managed for recreation, those advocating 
congressional designations may not get what they bargained for unless 
specific recreation activities are included in the authorizing 
legislation. The public versions of the BLM Recreation and Visitor 
Services Manual published in 2011 states that recreation is ``not 
emphasized'' unless the management plan specifies an area as a 
Recreation Management Area (RMA)''. So, it would appear that in 
addition to making recreation a purpose for the area, any future 
designations should also designate recreation management areas and 
recreation activities that are appropriate in those places. To further 
complicate planning, a RMA has to be designated as a Special Recreation 
Management Area (SRMA) or an Extensive Recreation Management Area 
(ERMA). SRMAs recognize unique and distinctive recreation values and 
are managed to enhance a targeted set of activities, experiences, 
benefits, and recreation setting characteristics, which become the 
priority management focus. ERMA is defined as an administrative unit 
that requires specific management consideration in order to address 
recreation use, demand, or R&VS program investments. It is not very 
clear what the distinction is between these two concepts since there 
has been little opportunity for public discourse on these issues. Yet 
these concepts must be understood before recommending any type of 
congressional designation.
    At a Utah BLM Resource Advisory Council meeting, I sat through a 
presentation of the ``NLCS 3-Year Strategy for Utah 2013-2016''. It is 
a very ambitious document including goals such as development of 
friends groups, extensive media campaigns, student and volunteer led 
monitoring efforts, development of programs for youth and disabled 
veterans, and massive amounts of science. Occasionally, recreation is 
mentioned. Even when you get into the sections discussing management of 
specific resources, there is little and in most areas no mention of how 
recreation fits into the management scheme.
    We really do not seem to have a congressional designation that 
specifically promotes recreation as a primary purpose and allows for 
the accommodation of new and emerging activities. As we consider future 
congressional designations for recreationally significant lands in Utah 
and elsewhere, I urge members of the Committee to consider the 
following actions:
        <bullet>  Either specifically include recreationally 
        significant lands in NLCS management plans or leave 
        recreationally significant lands outside the NLCS. This would 
        require Congress to come up with a specific new designation, 
        exclude recreationally significant areas from the boundaries of 
        the designated area, or alter the existing NLCS authority to 
        give recreation higher standing.
        <bullet>  Create a designation other than wilderness, such as a 
        ``backcountry'' designation, where recreation is the primary 
        purpose for the area without the restrictions imposed by 
        wilderness, the NLCS and Monument status? A backcountry 
        designation would allow new uses to be considered and recognize 
        historic and multiple recreational uses where appropriate.
        <bullet>  In any land use legislation that is created for Utah, 
        specifically define recreation, including outfitting and 
        guiding, as a value for which the appropriate areas should be 
        managed.
        <bullet>  Require that BLM's handbooks manuals or handbooks be 
        subject to public comment prior to becoming agency policy so 
        that we may better participate in designations and management 
        planning decisions.
                                 ______
                                 
    Mr. Bishop. Thank you, Mr. Merrill. We gave you the extra 
20 seconds because of what you said about me. That should give 
a hint to the rest of you who are coming up here.
    Mr. Merrill. Thank you.
    Mr. Bishop. We will now hear from the National Outdoor 
Leadership School, Mr. Aaron Bannon. If you would, please.

                  STATEMENT OF AARON BANNON, 
               NATIONAL OUTDOOR LEADERSHIP SCHOOL

    Mr. Bannon. All right. Thank you, Mr. Chairman, Congressman 
Grijalva, members of the Committee. It is a pleasure to be 
here. My name is Aaron Bannon, I am here representing NOLS, the 
National Outdoor Leadership School. We are a nonprofit outdoor 
educational institution utilizing the wilderness classroom 
through month-long expedition-style courses to educate 15,000 
students every year. Our 230,000 graduates include high school 
and college students, naval academy cadets, corporate CEOs, 
returning veterans, and NASA astronauts. We were founded almost 
50 years ago in Lander, Wyoming, and we have since grown to be 
one of the largest commercial outfitters in the country, 
offering courses in 14 States, 9 countries, across 6 
continents.
    So, today I want to talk about outdoor recreation as 
economic driver in the West, the challenges that NOLS faces in 
maintaining its operations, and ways that Federal land agencies 
can help rural economies better realize their market potential 
of their natural landscapes.
    So, first off, the recreation economy. We have heard today 
some of the national figures for outdoor recreation. It is, 
indeed, a sleeping giant. In Wyoming alone, travel is a $2.9 
billion industry. NOLS has tried to estimate our own economic 
impact just on Fremont County, where we are headquartered. We 
know we are the third-largest employer in the county. We 
generate earnings of over $7 million and provide hundreds of 
jobs. We know, through our stability, that we have helped our 
town weather the recent recession.
    And this paradigm of outdoor recreation as a foundation for 
stable growth in rural communities is not unique to NOLS or to 
Fremont County or even to Wyoming. This is the story with towns 
across the West, where good access to stunning public lands is 
driving a healthy and thriving outdoor recreation economy.
    We do, however, run into some obstacles. One is group size 
limits. In the mid-1990s, Canyonlands National Park reduced 
overall group sizes to seven people, a number we could not 
sustain economically, and we were forced to stop operating 
there. Until recently, the Coronado National Forest was 
considering imposing an overnight group size limit of 6 people, 
where our current permit stands at 20. We found a solution with 
Coronado, but we fear that this is a growing trend. Agency 
personnel are facing a challenging mandate in balancing the 
preservation and solitude of wilderness with visitation.
    Another challenge we face, particularly on National 
forests, is finding opportunities for growth under the current 
permitting policy. Today, new or expanded permits can't be 
issued unless a forest is certain they will not exceed their 
carrying capacity. The way to do this is to conduct a capacity 
analysis, a process that follows NEPA, the National 
Environmental Policy Act. Most forests do not have the 
resources to complete a capacity analysis, and it has given us 
opportunities--oh, I am sorry. Most forests do not have the 
resources to complete a capacity analysis, and permitting, 
therefore, grinds to a halt.
    Now, NEPA is not the problem here. The NEPA process has 
served us well. It has preserved the integrity of our operating 
areas, and it has given us opportunities to anticipate 
potential impacts to our courses. But it was not so long ago 
that outfitters could sustain their operations through 
temporary use permits, enabling businesses to continue until 
the necessary NEPA could be completed.
    So, what solutions can we offer? Well, we need to raise the 
profile of recreation as is considered by our Federal agencies 
to create a business-friendly climate. We need Congress to 
reauthorize the Federal Lands and Recreation Enhancement Act, 
as David mentioned. If 80 percent of these fees are collected 
and retained at the site, that is a good incentive for 
recreation. We ask that you consider, through reauthorization, 
some adjustments, such as setting aside a portion of the fees 
generated specifically for improvements.
    We ask that you support the creation of a 21st Century 
Outdoors Commission. And thank you, Congressman Grijalva, for 
introducing this important bill. And we ask that you support 
the creation of a public lands conservation corps. With a 
congressional focus on promoting and enhancing our outdoor 
landscapes, much can improve.
    I feel we have a special situation here today. Everybody, 
from all the panelists to the members of the Subcommittee to 
the Federal agencies, we want the same thing here: to find more 
opportunities for people to get outside. We all believe in 
America's youth. And at NOLS we have since our inception. We 
are eager to work hard to find ways to ensure that we can 
continue to educate and inspire the next generation of 
Americans and expose them to the wild, rugged wilderness that 
is the heart and soul of our country. Thank you, and I yield my 
time.
    [The prepared statement of Mr. Bannon follows:]

Statement of Aaron Bannon, Environmental Stewardship and Sustainability 
              Director, National Outdoor Leadership School

    Members of the Committee, Mr. Chairman, thank you for your time 
today and for your attention to the challenges facing the outdoor 
recreation industry. I am here representing NOLS, the National Outdoor 
Leadership School. We are a non-profit outdoor educational institution 
offering environmental studies, technical backcountry and leadership 
skills to students of all ages, usually on month-long expedition-style 
courses. NOLS utilizes the wilderness classroom--remote wilderness, 
roadless, and backcountry lands and waters--to educate 15,000 students 
each year. The lessons learned on NOLS courses have been invaluable to 
our grads, who range from high school students, college students and 
Naval Academy Cadets, to Corporate CEOs, returning veterans, and NASA 
astronauts.
The Recreation Economy
    Since it was founded in 1965 in Lander, Wyoming, NOLS has graduated 
230,000 students. Our operations have grown steadily over the past 48 
years, and we now offer courses in fourteen states from New York to 
Alaska, in nine countries from Australia to Chile, and across six 
continents. NOLS is one of the largest commercial outfitters in the 
country.
    NOLS is but one example of the national recreation economy. The 
economic impact on rural economies of our rural operations is 
measurable. And the impact of recreation spending nationally is 
significant.
    In Fremont County alone, the economic impact of NOLS and other 
outdoor businesses in Wyoming's Fremont County is significant. As the 
3rd largest employer in the county, NOLS supports 125 full-time and 300 
seasonal positions generating earnings of $7.2 million. Our Lander base 
spends $350,000 on food, $110,000 on outfitter services, and $100,000 
on fuel and maintenance for our vehicles. We pay over $60,000 annually 
to the Shoshone National Forest in fees. Our impact on Fremont County 
is similar to towns across the west, where good access to stunning 
public lands is driving a healthy outdoor recreation economy.
    Travel spending in Wyoming was $2.9 billion in 2011. In has 
increased 5.4% per year for 13 years running. Travel spending directly 
supports nearly 30,000 jobs generating earnings of $731 million. Local 
and state tax revenues generated by travel spending is approximately 
$120 million. (Wyoming Travel Impacts, 1998-2011p, published in May 
2012)
Accessing Public Lands and Providing Outfitter Services
    Not only is NOLS one of the largest holders of federal recreation 
permits, it is also one of the oldest. Over five decades, we have 
worked extensively with federal, state, and local land managers, 
including the National Park Service, the Forest Service, the Bureau of 
Land Management, the Bureau of Reclamation, and numerous state and 
tribal authorities. Our experience in permit management is extensive. 
In our time we have seen major advancements through cooperative work 
between agencies and the industry. For example, NOLS was instrumental 
in the creation and adoption of the Leave No Trace style of camping, 
which has been adopted by the three major federal land management 
agencies and is the industry standard for responsible travel across 
backcountry lands.
    Being able to access the wilderness classroom to expose Americans 
of all ages to the great outdoors is a great privilege. It is a 
privilege for which we willingly procure and manage permits, and for 
which we willingly pay fees.
Group Size Limits
    We face real challenges to our operating paradigm in working with 
the federal agencies. Our success is entirely dependent upon our 
ability to operate on and access public lands. Therefore, we expend 
significant resources preserving the integrity of our permits and of 
our backcountry operations. We build relationships with land managers, 
and we advocate our position.
    Group size limitations are a persistent threat. Land managers 
struggle to balance the dual mandates of the Wilderness Act: on one 
hand preserving naturalness while on the other retaining opportunities 
for visitors. When the wilderness resource is impacted, the easiest way 
to preserve and restore its naturalness is to reduce visitation. And 
the easiest way to manage visitation is through constraining commercial 
outfitter providers.
    We have seen this approach unfold across the three federal land 
management agencies. In the mid-1990s, Canyonlands National Park 
reduced overall group sizes to seven, a number we could not sustain 
economically. We were forced to cease our operations there. In 2005, we 
saw group size levels in the Dirty Devil drop from 20 to 12. Until 
recently, the Coronado National Forest was considering a group size of 
6, where our permit currently stands at 20. Through a series of 
constructive discussions, over eight months and countless hours, we 
have been able to reach an amicable outcome with the Coronado National 
Forest. We fear, however, that it is becoming common practice to limit 
group size in order to meet wilderness management objectives. This is 
not the best answer, and its effectiveness is questionable.
Permitting Policy
    Expanding permits today is both expensive and procedurally unclear. 
For example, our expected payout to cover the environmental analysis 
required to decide whether we can run four additional courses of 12 
students on a single forest will likely exceed $50,000. If these 
unplanned expenses are difficult for us, they must be daunting for 
smaller, family-size operations.
    We understand and respect the value of following the National 
Environmental Policy Act. The NEPA process has certainly served to 
preserve the integrity of our operating areas, and we work with the 
NEPA process to understand, anticipate, and engage on potential issues 
impacting our courses. Indeed, it is through the NEPA process that we 
successfully engaged with the Coronado on our group size issue.
    Nevertheless, the bureaucratic morass that has become the new 
normal is stifling creativity and growth in the outdoor industry. Under 
the current permitting policy on National Forests, new or expanded 
permits can't be issued unless their issuance clearly will not exceed 
the carrying capacity of the forest. If forests are unsure of the 
carrying capacity, they must conduct a capacity analysis--a NEPA 
process. Most forests have either not undertaken a capacity analysis, 
or have initiated and then halted one, due to lack of resources needed 
to complete it. New permits do not get issued, and long-standing 
permitees must pay tens of thousands of dollars to conduct an analysis 
of modest growth on one permit at a time. There is, additionally, a 
lack of consistency across the national forest system, and forests tend 
to interpret their guidelines differently, creating a confusing 
landscape for permittees.
    This process stagnation is not just bad for NOLS, it is bad for the 
would-be recreating public. Many who would pursue outdoor recreation 
lack the technical skills necessary to engage in a pursuit on their 
own. They therefore seek out a school that can teach them the necessary 
skills, or an outfitter who can guide and equip them. There is a public 
demand for outfitting services. We are service providers, meeting that 
demand and opening the doors to rich experiences.
    In the end, current permitting policy is not a good model for 
supporting a robust outdoor recreation economy. Federal land management 
agencies, while being mindful of preserving our natural resources, 
should be thoughtful and deliberate in creating a business-friendly 
climate. Regulations should be reasonable. Permitting should be 
straightforward. Commercial outfitting should not bear a 
disproportionate burden of management restrictions.
Reauthorizing the Federal Lands and Recreation Enhancement Act
    FLREA, the Federal Lands and Recreation Enhancement Act, has 
provided a good model for how fees collected on public lands are 
allocated. This is the fee authority under which our federal permits 
are administered. According to FLREA, at least 80% of fees collected 
are retained at the site. When it was created, FLREA helped improve the 
dismal budgets for local forests, national parks, and BLM field 
offices. As budgets have continued to shrink, revenues generated by 
FLREA have shifted from funding enhancements to funding programs and 
operations. While first and foremost we would like to see FLREA 
reauthorized, we do think there is room for improvement. Ensure that a 
portion of fees generated by FLREA are set aside for enhancements. 
Adopt some measure of accountability to the public, so those who pay 
fees can have some insight into how the money is spent. Those who pay 
fees rightly have an expectation that some of those funds will be used 
for improvements and for restoration projects, and because of their 
intimate familiarity with the landscape, they often have the best 
information regarding where work should be done.
Pending Legislation
    We would like to express support for a 21st century great outdoors 
commission. By examining use, values, and economic impacts of America's 
outdoor resources, this body can equip congress to deal with the 
challenges that lie ahead. Along with that, I would like to thank the 
members of this body for their efforts to create a public lands 
conservation corps. Service is essential to the maintenance of our 
public lands, and NOLS regularly participates in service projects. The 
volunteer spirit of America will be alive and well through this effort.
In Conclusion
    At NOLS, we believe in the youth of America and desire to serve 
them well. We strive to create ethical leaders, and these leaders 
strive to change the world. The ripple effect of NOLS is substantial. 
We are having a positive impact on rural economies, and we are creating 
rich, life-changing experiences for our students on a daily basis. We 
are proud of our legacy, and we look to you to help us ensure that we 
can continue to provide our unique brand of service.
                                 ______
                                 
    Mr. Bishop. Thank you. You and Mr. Merrill balanced out, so 
that is great.
    Mrs. Lummis, did you want to introduce Mr. Bannon to me, 
even though it is past that time?
    Mrs. Lummis. I would love to, Mr. Chairman. Thanks for the 
opportunity. I want to welcome Aaron Bannon from the National 
Outdoor Leadership School to testify today, and I am delighted 
to have a Lander, Wyoming gentleman at this hearing.
    The National Outdoor Leadership School is headquartered in 
Lander. And, as some of you know, NOLS is a global leader in 
outdoor training and leadership education. And we are extremely 
proud that Lander is the home of NOLS. And I am delighted that 
Mr. Bannon is here today. NOLS is a critical part of Wyoming's 
landscape and our multiple-use land tradition. And I just can't 
say enough how beautiful Lander is and what a great home it is 
for NOLS. And if you don't have a family member that has 
participated in NOLS, you ought to.
    Anyway, welcome. And thank you, Mr. Chairman.
    Mr. Bishop. Thank you. And I agree with you on the idea of 
being outdoors in the wild. I tried to do that Monday here on 
my deck, and it was just too damn cold. So I apologize for 
that.
    Let me turn to John Duncan. And is it Telluride?
    Mr. Duncan. Yes, Telluride.
    Mr. Bishop. That is the right way of saying it?
    Mr. Duncan. It is our little town in Southwest Colorado.
    Mr. Bishop. OK. We will recognize you for 5 minutes, sir.

                 STATEMENT OF JOHN F. DUNCAN, 
                       TELLURIDE OUTSIDE

    Mr. Duncan. Mr. Chairman and members of the Committee, 
thank you for the opportunity to share my views as a long-time 
outfitter in Southwest Colorado. Our company, Telluride 
Outside, was founded in 1984. And today we operate six guide 
services, primarily on Federal lands. We run fly fishing, four-
wheel-drive tours, rafting, mountain bike tours, photography, 
and also snowmobile tours. I have personally worked on and off 
for Telluride Outside for 22 years now, and have been a full-
time managing owner since May 2001. So about 12 years.
    As an overview, I truly believe that small, specialized 
guide services are excellent partners for the Federal 
Government in providing safe and high-quality guided 
experiences for the general public. Telluride Outside maintains 
a very low guest-to-guide ratio for all of our trips, and that 
is key to running high-quality, safe trips. Over the last 12 
years, we have guided more than 65,000 customers without a 
single accident claim. And the public clearly grasps the value 
of this approach.
    In our fishing guide service last year--our fishing guide 
service is our largest guide service, with about 3,000 annual 
customers--approximately 56 percent of all of our customers 
were repeat customers. And I think that speaks volumes to that 
approach to guiding.
    Moreover, I believe that these statistics are pretty 
typical of all specialized outfitters. It is not just us. I 
know that so many other small specialty guide services build 
that repeat clientele by running consistently high-quality 
trips.
    Also, we require safety credentials and guide experience 
that far exceed Federal and State regulations. We purchase and 
deploy all kinds of expensive operating and safety equipment 
that is required nowhere by law, and our company volunteers 
literally hundreds of man hours every year for trash cleanups, 
wood removal from rivers, trail clearing, and resource 
protection fundraising. We are truly dedicated stewards of our 
natural resources. And I have always felt that one of the most 
significant and valuable contributions to conservation that we 
make every year is simply to take 7,000 or 8,000 people out and 
offer them an authentic, unforgettable wilderness experience 
that affects their future decision-making.
    With this backdrop, I would like to address three issues at 
the heart of our working relationship. First, the consideration 
of financial feasibility for outfitters with respect to permit 
management. Keep in mind that guiding is a labor of love. I 
mean it truly is. Almost all guide services are owner-operated 
with low margins and little or no investment return.
    Telluride Outside is a major guide service within our 
community with 29 years experience and over 50 employees. And 
yet, for the last 12 years, our profit margins run about 2.3 
percent. By comparison, our insurance premiums are over 3 
percent of our gross revenues, and we pay the Forest Service 
and the BLM the customary 3 percent for operating on public 
lands.
    The point here is that small cost increases can marginalize 
some of that discretionary professional protocol that I was 
referring to, and make our trips prohibitively expensive for 
the general public. And we feel that pressure every day, every 
week, and every year when we are making our price-setting 
decisions.
    Federal agencies should definitely consider the cost 
impacts of changing policy. For example, the tenfold increase 
in insurance minimums would almost certainly result in 
unrealistic premium increases for outfitters. When issuing or 
reissuing special use permits, weigh quality and experience 
over low bids. Outfitter cost-cutting does not benefit the 
general public.
    Previous permit holders with a satisfactory operating 
record should definitely be favored for permit renewal. 
Because, with experience, quality and consistency increase. And 
also, our processes, working together with our Federal 
agencies, become much more streamlined and more efficient for 
all of us.
    On special use permits, on 10-year priority permits, we 
need to build some modest growth assumptions into the 10-year 
priority permits. Many of the 10-year permits, including the 
ones on which we currently operate, have no room for growth 
built in to the program. And that is just not realistic for a 
partnership between a Federal agency and a small business.
    Issue number two: methods for establishing and managing 
resource carrying capacity. Establish realistic time frames for 
environmental assessments and other carrying capacity studies 
and clearly communicate those to the whole constituency. When 
assessing carrying capacity, input should be gathered from 
three sources: the general public, your active outfitters, and 
also field biologists. Come up with a target for desirable 
range of user days and manage your outfitters and permits 
accordingly. The objective here is not so much to restrict 
competition, but to keep a handle on the amount of commercial 
use on a resource.
    And the final issue is that user fees should be discreetly 
earmarked for use on the resources in which they were 
generated. Priorities include the maintenance of roads, trails, 
boat ramps, and bathrooms, as well as providing basic access to 
public lands.
    Finally, and of great importance, we need to employ local 
district officers endowed with flexible management practices 
and sufficient resources to achieve these goals. In Southwest 
Colorado, we are really fortunate to work with high-quality, 
experienced managers with both the Forest Service and also the 
BLM. Our working relationship seems to improve every year, as 
does the quality of our guided trips that we provide for the 
general public.
    Thank you, Mr. Chairman. I would like to sincerely thank 
the Committee for this opportunity, and I feel that I speak not 
only for our company, but for small outfitters across the West.
    [The prepared statement of Mr. Duncan follows:]

            Statement of John F. Duncan, Managing Partner, 
 Telluride Fly Fishing Co., Inc., dba Telluride Outside Outfitter and 
                                 Guide

    Mr. Chairman and members of the committee, thank you for the 
opportunity to share my views as a longtime outfitter in SW Colorado. 
Our company, Telluride Outside, was founded in 1984 and today operates 
six guide services on lands managed by the USFS, BLM and NPS. Our 
guided activities include fly fishing, 4-WD tours, whitewater rafting, 
mountain bike tours, photography and snowmobile tours. Approximately 
90% of our guided trips are conducted on federal lands, so this is our 
primary playing field. I have worked on and off for Telluride Outside 
for 22 years and have been the fulltime managing owner since May, 2001.
    It is from this perspective that I would like to offer the 
following observations and recommendations with regard to the financial 
impacts of federal policy on small outfitters that operate on NFS, BLM 
and NPS lands.
Observations
        1)  Small, specialized guide services are excellent partners 
        for the federal government in providing safe, high quality 
        guided experiences on public lands.
                a.  Small guide services provide a high quality, safe, 
                authentic experience. For example, our company has 
                guided more than 65,000 customers over the last 12 
                years without a single accident that led to a customer 
                insurance claim. In our fishing guide service last 
                year, an estimated 56% of trips were repeat customers, 
                which clearly illustrates the quality of our service. I 
                believe these statistics to be typical of specialized 
                outfitters.
                b.  Specialized guide services generally operate on a 
                low guest-to-guide ratio. Our company is typical. We 
                average a 2:1 ratio for fishing, 4:1 for mountain 
                biking, 5.5:1 for 4-WD tours. 5:1 for rafting and 4:1 
                for snowmobiling (these are statistical averages). A 
                low ratio improves every aspect of the trip: safety, 
                education, personal care of our guests, consistency, 
                response to changing weather and the overall quality of 
                the experience
                c.  One of the most valuable contributions to 
                conservation is to take 7,000 or 8,000 people each year 
                and give them a breathtaking, unforgettable outdoor 
                experience that creates a real bond to Mother Nature 
                and invariably instills conservation values that affect 
                their future decision making.
                d.  In spite of low margins and long hours, dedicated 
                guide services do what it takes to deliver a first-rate 
                experience. This is who we are and what we do.
                e.  Specialty guide services are stewards of the 
                resources. We pick up trash, police trespassing, 
                illegal fishing, crowding and other frequent 
                occurrences. We keep the peace and take care of the 
                rivers, mountains and canyons in which we operate.
                f.  Many guide services, like Telluride Outside, go way 
                beyond regulations in terms of safety preparation and 
                guide qualifications. Our company (like most) requires 
                safety credentials and personal experience that far 
                exceeds federal and state regulations. We also purchase 
                and deploy all kinds of expensive operating and safety 
                equipment that is required nowhere by law. Our company 
                volunteers tens or hundreds of man hours every year for 
                trash cleanups, wood removal from rivers, mountain bike 
                trail clearing and resource protection fundraising. 
                Much of this discretionary professional protocol will 
                be pushed to the curb if we are required to pay tens of 
                thousands of dollars in additional insurance premiums, 
                or if the cost of doing business on public lands 
                otherwise increases.
        2)  High quality guide services are generally owner-operated at 
        very low margins out of a true passion for place and sport. Our 
        company does approximately $1.75 million in annual revenues, 
        including about $600K in retail. We are among the larger guide 
        services in Southern Colorado, but our annual profit margin has 
        averaged only 2.3% over the last 12 years. By comparison, our 
        liability and vehicle insurance average 3% of gross sales and 
        we pay the NFS and BLM fees of 3%.
        3)  Outfitters can easily be pushed out of business by federal 
        policies and other factors that affect trip margins and the 
        operating playing field. Examples:
                a.  In the last two years, 2 of the 5 active rafting 
                outfitters in our area have literally walked away from 
                their guide services for lack of profitability (San 
                Miguel Anglers and Telluride Fly Fishers, who held 
                permits for 5 and 23 years, respectively). In the same 
                period, the BLM issued two new permits (without 
                retracting the abandoned ones) and changed all permits 
                to unlimited user days. This is absolutely crushing us. 
                Longstanding local outfitters are hanging up their 
                oars. The BLM appears to have succumbed to outfitters 
                begging for permits rather than sound economic and 
                resource carrying capacity analysis.
                b.  In 2005, NFS suddenly claimed jurisdiction over 
                local County road systems for 4-WD tours in San Miguel 
                and Ouray counties on the basis that tours surely 
                impact nearby off-road NFS lands. In return, NFS funded 
                a part-time high country ranger position to keep the 
                general public on the road and off sensitive 
                ecosystems. Our company has paid over $45,515 in user 
                fees since 2005, even though our tours rarely or never 
                touch actual NFS lands. How is this fair?
                c.  According to our underwriters represented by Rick 
                Lindsey and WOGA, the proposed 10-fold increase for 
                insurance minimums may increase our premiums by 300% or 
                more, affecting both liability and auto policies. In 
                our case, that would result in cost increases of at 
                least $60,000 per year. We have operated for 29 years 
                without a claim, but that would certainly put us out of 
                business.
        4)  There seems to be disagreement between managing agencies as 
        to whether financial feasibility should be taken into 
        consideration when considering outfitter management methods, 
        Special Use Permits and NPS CUAs. While testifying before the 
        Subcommittee on National Parks, Forest and Public Lands of the 
        House Committee on Natural Resources, on August 2, 2012, Deputy 
        NPS Director Peggy O'Dell clearly alluded to an NPS policy 
        requiring financial feasibility consideration. In 2012, the 
        Bureau of Land Management rejected our company's appeal for 
        such consideration in the course of local permit management 
        (please see our ``outfitter input'' letter from 2009, exhibit 
        A), stating that financial feasibility for the outfitter is 
        never taken into consideration in the permitting process. Is 
        there a written policy? Does it apply to NPS, BLM and NFS?
        5)  In SW Colorado there is little consistency between NFS and 
        BLM in their determinations of carrying capacity on similar 
        resources. The San Miguel and Dolores are similar rivers. The 
        San Miguel is managed primarily by the BLM and the Dolores by 
        the Forest Service. Both are free-flowing, wade fishing trout 
        streams that our company has guided for more than 25 years. 
        When tributary streams are taken into consideration, both 
        watersheds offer more than 20 miles of public access on which 
        we guide under our Special Use Permits. Our BLM permit grants 
        850 user days, all of which we use, while the NFS permit allows 
        only 250 user days with zero room for growth in our 10-year 
        priority permit.
            Local administrators are best suited to manage the permits. 
        In fact, we have very good people on the ground for both NFS 
        and BLM locally. We have built strong relationships with these 
        agencies based on transparency; trust and performance over 29 
        years, but there need to be some guiding principles and 
        standardized methods for assessing carrying capacity and 
        managing permits.
        6)  NFS and BLM need to create a set of standard criteria for 
        determining how many Special Use Permits are issued for each 
        resource and the number of user days for each permit. Market 
        size absolutely must be taken into consideration in order to 
        assure financial feasibility for the outfitters and a high 
        quality customer experience. Healthy competition is desirable, 
        but outfitter free-for-all is not. 10-year permits must contain 
        clauses for growth (presently, ours do not) Study periods need 
        to be specific and limited. Unused permits should be cancelled.
        7)  Industry rate-of-return benchmarks are inappropriate. In 
        Deputy Director O'Dell's testimony from August 2, 2012, she 
        states that ``The projected cost of the insurance is considered 
        as an operating expense of the concession contract as part of 
        an overall financial analysis. A prospectus is released only if 
        a reasonable opportunity for profit exists considering industry 
        internal rate-of-return benchmarks.''
            This is really dangerous territory with clear un-American 
        implications. The federal government should consider the impact 
        of its policies on partner outfitters, but an industry standard 
        for rate-of-return would be undeterminable, unmanageable and 
        probably illegal. If such a standard exists for our industry, I 
        would be very surprised. Unlike restaurants or banks, 
        outfitters operate on business models that are often completely 
        unique from one another.
    Recommendation: create a written set of policy-making criteria and 
objectives for future Department of the Interior rule-making. Include 
the following:
        1)  Prioritize the guest experience by protecting specialty 
        guide services.
        2)  Incentivize outfitters to operate safely and contribute to 
        the preservation of the natural resources on which they 
        operate. Rather than raising insurance limits 10-fold, federal 
        agencies should focus on a number of things to actually improve 
        safety and the overall customer experience, including:
                a.  Consistent, detailed reviews of each guide 
                service's operating plan and performance.
                b.  Spot checking in the field for compliance.
                c.  Policing of pirate guides, very common in SW 
                Colorado. Pirate guides are unaccountable for trip 
                quality and customer safety.
                d.  Committing more of their budgets to safety-oriented 
                field work, including improvement of 4-WD access roads, 
                wood clearing and trail maintenance on the resources 
                where the revenues are generated.
        3)  Carrying capacity should be determined and managed by local 
        agency officers within the parameters of reasonable governing 
        criteria, including:
                a)  Market size and healthy competition must be taken 
                into consideration in determining the total number of 
                permits issued. If financial health is not considered, 
                the federal agencies will create a situation in which 
                high quality outfitters cannot make a living by guiding 
                the public. This is a losing situation for all 
                concerned.
                b)  10-year permits should contain growth clauses of 5-
                10%/year.
                c)  Previous permit holders should be favored for 
                renewal unless their operating record is deemed 
                unacceptable. Experienced outfitters offer a more 
                consistent, high-quality service for the general public 
                and have the opportunity to form a meaningful working 
                relationship with local managing agencies. Unused 
                permits, on the other hand, should be revoked or put 
                into a forced sale.
                d)  Every permit should have user day limits. Without 
                them, the managing agency forfeits a critical tool for 
                regulating carrying capacity. New permits should never 
                be issued when unused permits are potentially available 
                for purchase.
        4)  Insurance limits should be based upon compelling demand 
        rather than unfounded hypothetical concepts and irrelevant 
        references to other industries. There is currently no hard 
        evidence that limits should be increased from $500K per 
        incident. Increasing our minimums 10-fold might literally wipe 
        out the guiding industry.
        5)  Special Use Permit and CUA fees should be earmarked for 
        recovery of the direct costs of managing outfitter use of 
        public lands and enhancing safety on public land resources. 
        Bureaucratic costs that do not directly benefit the general 
        public, nor the outfitters, should be reduced or eliminated. 
        Outfitter use fees should be earmarked for local resource 
        management
        6)  Public lands jurisdiction issues should be clear cut. Does 
        NFS have jurisdiction over county roads? Does BLM have 
        jurisdiction over waterways that pass through BLM lands if 
        outfitters launch and take out on private property? These 
        questions need to be answered clearly and managed consistently.
            With respect to outfitting, these rules should be applied 
        consistently by both the NFS and BLM. To the end user there is 
        no important distinction between the two from the standpoint of 
        hiring a guide for a specific activity on public land. The land 
        is either public, or it's not
    Mr. Chairman, I would like to sincerely thank the committee for 
this opportunity to express my views on behalf of our company, 
Telluride Outside, and hundreds of other specialized guide services 
that work hard to deliver a superior experience for our customers on 
public lands.
                                 ______
                                 
    Mr. Bishop. Thank you. You forgot that if you are going to 
go over that long you have to compliment me some way.
    [Laughter.]
    Mr. Duncan. This has been a lot of fun this morning, sir. 
Thank you.
    Mr. Bishop. OK.
    [Laughter.]
    Mr. Bishop. Yes. And for a fact I don't sweat too much, 
either. Yes, OK, fine.
    [Laughter.]
    Mr. Bishop. I appreciate you all being here and giving your 
testimony. Now I will open it up for questions. Mr. McClintock, 
do you have questions for this panel?
    Mr. McClintock. Thank you, Mr. Chairman. Gifford Pinchot, 
the legendary founder of the National Forest Service, gave a 
series of lectures at the Yale School of Forestry from 1910 to 
1915, and he propounded maxims for ``the behavior of foresters 
in public office.'' Let me read you a few of these.
    ``A public official is there to serve the public and not 
run them.'' ``Public support of acts affecting public rights is 
absolutely required. It is more trouble to consult the public 
than to ignore them, but that is what you are hired for.'' 
``Find out in advance what the public will stand for. If it is 
right and they won't stand for it, postpone action and educate 
them.'' ``Get rid of an attitude of personal arrogance or pride 
of attainment or superior knowledge.''
    Let me ask you each briefly, how closely would you say our 
lands management agencies are adhering to these principles 
today? Mr. Brown?
    Mr. Brown. Well, I think they have been distracted by some 
of the processes I described in my testimony, and that actually 
are probably more removed from the public now than they ever 
have been, because they are preoccupied by planning 
environmental analyses and other processes----
    Mr. McClintock. Thank you.
    Mr. Brown [continuing]. That separate them from the public.
    Mr. McClintock. Mr. Simonds?
    Mr. Simonds. It used to be that we could shake hands with 
the permit manager and know that a deal is a deal. Those were 
the old days. And invariably the processes have just become so 
cumbersome that developing a personal relationship is key. And 
sometimes we get those opportunities, sometimes we don't.
    Mr. McClintock. Mr. Merrill, briefly.
    Mr. Merrill. There seems to be a disconnect between 
managers on the ground and folks at the regional level and 
national level. Often we have really great relationships with 
on-the-ground people, and they are some of the best people I 
know. And they can get things done. But then sometimes their 
hands are tied by their regional managers. And often, people 
who know nothing about the resource.
    Mr. McClintock. Let me go on very quickly here. Mr. 
Simonds, you mentioned that two-thirds of the land in Idaho is 
set aside by the Federal Government. Is that two-thirds owned 
by the Federal Government?
    Mr. Simonds. Yes, sir.
    Mr. McClintock. And, Mr. Merrill, I didn't catch your--you 
had a similar statistic for Utah?
    Mr. Simonds. I think it is 63 percent of Utah lands are 
owned by the Federal Government.
    Mr. McClintock. So two-thirds in both cases. Would it 
surprise you that, in Norman and Plantagenet England, the kings 
set aside one-third of the land as the king's forest in which 
commoners were actively discouraged from visiting or 
participating in? No fewer than five clauses of the Magna Carta 
were devoted to redress these grievances, they were so annoying 
to the English people.
    If we were to draft a new Magna Carta guaranteeing the 
public the right to the public's lands, which one single change 
would each of you--and we have five panelists, five clauses--
what is the single most important clause you would write in a 
new Magna Carta for the public to restore to them the enjoyment 
of the public's lands? And in 15 or 20 seconds each.
    Mr. Brown?
    Mr. Brown. Well, I think recognizing that the general 
public, the people who don't possess the skills and equipment 
necessary to enjoy public land should have opportunities to do 
so. And that is really what outfitters and guides do. They 
provide that opportunity.
    Mr. McClintock. OK. Mr. Simonds? One most important clause 
you would put in.
    Mr. Simonds. Access is the name of the game. If we can't 
get there, then outfitters and guides have a hard time 
providing service to those folks who desire a guided 
opportunity on our public lands.
    Mr. McClintock. Great. Mr. Merrill? Fifteen seconds or 
less.
    Mr. Merrill. Yes. No fair being last, because they both 
said what I was going to say. But our guests, even though they 
pay us to do this, are the general public. And sometimes they 
are viewed as something different from the general public. I am 
not sure why.
    But access to public lands through outfitters and guides is 
critical.
    Mr. McClintock. Thank you. Actually, I am going to skip to 
Mr. Duncan and then back to Mr. Bannon, if we have time. Mr. 
Duncan?
    Mr. Duncan. Sure. As our population grows, we need space, 
access, and freedom of use on public lands.
    Mr. McClintock. Thank you. And, finally, Mr. Bannon, in 
three seconds?
    Mr. Bannon. I would say opportunities for our youth. Thank 
you.
    Mr. Bishop. Thank you. Thank you all. Mr. Grijalva, do you 
have questions?
    Mr. Grijalva. Thank you, Mr. Chairman. Mr. Bannon, thank 
you, Mr. Chairman, thanks for coming today. I appreciate the 
endorsement of the 21st Century Great Outdoors Commission. 
Thank you for that.
    I was going to ask you a similar question that I asked Mr. 
Bacon in the previous panel. Based on what you have seen 
directly with NOLS, and indirectly by being part of this 
industry, how is the population that uses the public lands 
different from what it was a decade ago or 15 years ago?
    Mr. Bannon. Thank you, Congressman Grijalva, for the 
question. We have a keen awareness that continue to be relevant 
in the outdoor industry. We need to be very conscious of the 
changing demographics of America. And we are going out of our 
way to try and make the courses that we offer exciting, 
interesting, and affordable to youth from diverse backgrounds.
    An excellent example of that would be Expedition Denali, 
which is a course that is heading to Denali this next month, 
made up entirely of African Americans who are going to 
celebrate the 100-year anniversary of the first American son of 
Denali, but this time it will all be African Americans.
    So, we are excited about that, and we are looking at other 
ways to be able to continue to market our courses to the 
changing demographics of America.
    Mr. Grijalva. Yes. And let me extend my personal 
appreciation for the time and effort you spent for coming up 
with an agreeable group size for Coronado National Forest.
    Do you think that the group size issue is something that 
this commission that you endorse is--on a uniform level should 
address, as well?
    Mr. Bannon. I think it is exactly the right place where 
something like this could work. We find that in conversations 
with the Coronado and elsewhere, we can eventually reach 
reasonable people who are willing to find reasonable solutions. 
But to get to that point is not necessarily obvious or apparent 
when you are in the midst of a NEPA process.
    So, the way that we find opportunities is to find people 
who are willing to cut through it and find solutions. And we 
have had great success with the BLM, the Forest Service, and 
the National Park Service, in having good intent to find better 
ways to do things. And the group size is a great example of 
that.
    Mr. Grijalva. And one more question, if I may, sir. It is 
my understanding, the Wyoming Legislature--as in other States--
is considering adopting legislation that would require the 
Federal Government to turn over Federal lands to the State. How 
would this impact your business, your school?
    Mr. Bannon. Well, Congressman, thanks for the question, 
again. That is a complex issue----
    Mr. Grijalva. Probably not, but----
    Mr. Bannon. What is that?
    Mr. Grijalva. Probably not, but I hope it is.
    Mr. Bannon. As challenging as things can sometimes be with 
the Federal agencies, I have some skepticism that State 
agencies would really be able to handle that level of capacity.
    For example, in Wyoming, you can't camp on State lands. So 
if they just all became State lands, we wouldn't be able to 
operate there any more. There are challenges as well with State 
parks, but I would say that our State parks are a very good 
place to camp, and the permits are well-managed there.
    So, it is problematic. I don't know how they would be able 
to deal with some of the things that the Forest Service does.
    Mr. Grijalva. OK. Mr. Merrill, kind of the same follow-up 
question, if I may, sir. I asked the previous panel, Mr. 
Friedman, this same question. You do business in Utah and 
Arizona. If those two legislatures have passed the legislation 
I was talking about in Wyoming with the primary focus on 
extraction, how does that affect your business?
    Mr. Merrill. Well, if the primary focus was extraction, it 
could negatively impact certain areas where we go. I believe 
that there are areas that are appropriate for extraction, and I 
believe there are areas that are appropriate to protect maybe 
even more than they are now.
    And then, in between there are all those areas where we can 
have these multiple uses. And that is the exact process that 
Chairman Bishop is going through in Utah right now. And I 
think--I am optimistic that we can find the common ground and 
define which areas are appropriate for what.
    Mr. Grijalva. Thank you, sir. Thank you, Mr. Chairman.
    Mr. Bishop. Mrs. Lummis, do you have questions?
    Mrs. Lummis. I do, Mr. Chairman. Thank you. Mr. Bannon, 
NOLS has been a pioneer of Leave No Trace camping and hiking 
techniques. Can you tell us a little more about that?
    Mr. Bannon. Absolutely. And thank you, Congressman, for 
your thoughtful comments a little bit ago. I appreciate it.
    Leave No Trace has been a concept in development, 
certainly, for 60 years. In the last 20 or 30 years we 
formalized it significantly. As Brian mentioned, NOLS reached 
out to other leaders in the industry to try to find a way to 
lessen our impact on lands when we travel. And that is as far 
as not just how you impact the land, but how you impact other 
travelers, how you camp.
    So, I will wrap up quickly here, but one of the concepts 
behind Leave No Trace is not actually to lessen the visitors to 
the land, but actually to be able to have more visitors have 
less of an impact so that it is exposed to a greater number of 
people.
    Mrs. Lummis. So NOLS teaches courses on how to minimize 
human impacts to the wilderness. Yet the Federal agencies are 
forcing you to cut your group sizes, just to keep your already 
long-standing use permits?
    Mr. Bannon. It is interesting.
    Mrs. Lummis. So when an agency demands that you cut your 
group size, do they cite any measurable benefits to the 
wilderness?
    Mr. Bannon. What we hear when group size limits are being 
considered is that there are impacts to the wilderness 
resource. That might be through user-created trails, that might 
be through impacted but dispersed campsites, and that would be 
something they are trying to control.
    Mrs. Lummis. Do you believe cutting your group sizes 
produces measurable benefits to preserving the naturalness of 
the wilderness areas on which your school resides, operates, 
works?
    Mr. Bannon. Congressman, I would argue that I think that is 
probably one of the least effective ways that an agency could 
manage their wilderness resource. And much better opportunities 
exist in education of the public and of outfitter guides in 
promoting Leave No Trace more aggressively, trail heads, and 
other opportunities where there are interactions with the 
public. To go after outfitters and guides, who tend to have 
larger group sizes, but tend to also be your most conscientious 
campers, is not really getting the job done, nor is it creating 
responsible wilderness users everywhere.
    Mrs. Lummis. To each of our witnesses, who I deeply thank 
for being here, is a desire for certainty with regard to the 
future planning of your businesses an important part of your 
business opportunities?
    Mr. Brown. Well, we represent over 500 members and 1,000, 
including affiliates. And one of the biggest concerns they have 
in our surveys is the uncertainty about public policy with 
regard to management of public lands and fee structures. There 
was a problem at one point about getting the permits reissued 
or renewed.
    And so, whenever someone goes on a temporary permit or has 
an annual authorization, you can't plan, you can't invest. So 
that is a big issue.
    Mrs. Lummis. Do any of our other witnesses differ with the 
views just expressed?
    [No response.]
    Mrs. Lummis. OK. Thank you. Mr. Bannon, I know you 
generally support the NEPA process. But do you think it is 
being applied efficiently to the recreational permit process?
    Mr. Bannon. Congressman, thanks for the question. I think 
that NEPA is, as you said, very valuable and appropriate when 
it is well-used. And I see situations with Forest Service 
planning, for example, where, for 10 or 11 years, they have 
tried to streamline the NEPA process, make it shorter to 
achieve planning. And I think that would be a good way to go, 
generally, even when you are doing an environmental analysis on 
a single user.
    And we, of course, right now are on the cusp of initiating 
an environmental analysis for our permit on the Shoshone 
National Forest. We are asking for four more courses there, and 
we are looking at an environmental analysis that is going to 
cost tens of thousands of dollars. So it is daunting to think 
that we would want to do that for a relatively modest increase 
on a permit that we have held since 1965. But it is, at the 
same time, a necessary evil we are preparing to live with.
    And I think it would make more sense to take an 
environmental analysis like that and spread it out across 
outfitters.
    Mrs. Lummis. Is streamlining NEPA for permitting, or giving 
agencies the flexibility to do so when it makes sense, 
something Congress should be looking at?
    Mr. Bannon. I think so, certainly, yes. I think Congress 
has an opportunity to help define when NEPA processes are 
appropriate.
    Mrs. Lummis. You mentioned that the Forest Service's 
current permit process constitutes a bureaucratic morass. Would 
you care to elaborate in 10 seconds or less?
    Mr. Bishop. Or negative 11.
    Mrs. Lummis. Oh, I am already over. Excuse me, Mr. 
Chairman, I yield back.
    Mr. Bishop. If you can do that in 10 seconds or less, go 
ahead and answer.
    Mr. Bannon. What I see it happening on forests a lot is an 
effort to do capacity analyses, even to be able to begin to 
address whether permits can be offered. And they don't have the 
resources to do it, more often than not. So it is a real 
challenge, yes.
    Mr. Bishop. Thank you.
    Mrs. Lummis. Thank you.
    Mr. Bishop. I appreciate it. Mr. DeFazio, do you have 
questions?
    Mr. DeFazio. Yes, Mr. Chairman. Thank you, Mr. Chairman.
    Mr. Brown, in part of your testimony you talked about a fee 
structure being standard across the Agency. I would like to 
examine that a bit and also ask about--among agencies, I had a 
problem last year where a nonprofit, Cycle Oregon, was 
charged--or BLM wanted to charge them--$25,000 to use 80 miles 
of old paved logging road. And their combined fees for the use 
of over 400 miles of Forest Service county and State roads was 
$1,000. So I find an extraordinary disparity between agencies.
    I would like to know if any of you have experienced that, 
and whether you think we should standardize this process across 
agencies. And second, within agencies, what sort of problems 
you have seen, where you put that in your testimony, that they 
needed to be more uniform.
    Mr. Brown. Well, I think the first issue is the cost 
recovery requirement, which may have been part of the problem 
with authorizing that event. Very often for special events the 
cost recovery, the environmental analysis required, exceeds the 
entry fees. So it is very difficult for those events to----
    Mr. DeFazio. Well, if I could, this was riding over an old 
BLM logging road that was paved.
    Mr. Brown. Right.
    Mr. DeFazio. Chip-sealed, kind of bad surface. No BLM 
personnel were present anywhere along the route for 
interpretive or other purposes, and people just rode through. 
And yet they want to charge $25,000. I don't see how that could 
be cost recovery.
    Mr. Brown. Well, I agree with you. I mean 100 percent. I 
think that was exorbitant. And we see that happening. I mean 
that is the kind of thing that very often suppresses these kind 
of events.
    Now, the fees are standard between the Forest Service and 
BLM for permit fees. The difference is amenity fees. And then 
different agencies have different cost structures. CUA, for 
example, recovers a cost for administering the CUA. But that 
can include overhead and other things other than, the way the 
law reads, ``a minimum'' to recover the cost. So, the fees vary 
significantly.
    Now, concession contracts are different animals 
altogether----
    Mr. DeFazio. Right.
    Mr. Brown [continuing]. And I don't think we are looking 
for standardization of that. But there are some issues with the 
Forest Service fee structure.
    For example, they will charge fees for all forest 
activities, and then give a discount for the time spent off the 
forest. Well, if you have a 7-day trip, the fee is based on the 
price for the entire trip, even though you spend only a day on 
the forest. And so we do have, occasionally, that issue come 
up.
    Mr. DeFazio. OK. Anybody else have thoughts on 
standardization within or among agencies? Yes, sir.
    Mr. Merrill. A couple things. We pay anywhere from 3 
percent to 18 percent, depending on the resource and the 
agency. So there is a huge disparity that way. But most 
recently, we have been trying to get a little bit of money--and 
I mean just a little bit--to help improve a take-out ramp in 
Lake Mead National Recreation Area, because it is unusual, 
currently, for our Cataract River trips. At the same time--and 
the Park can't seem to come up with the money.
    At the same time, they admitted to me they have a surplus 
of money in another fund from entrance fees that get paid that 
they can't use for that, because they are not allowed to. So 
they are inventing projects to do. So sometimes it might----
    Mr. DeFazio. But they indicated that they would have put a 
higher priority on doing the ramp, but they just were 
administratively or legally prohibited from using entrance----
    Mr. Merrill. Yes, this is an example of where the local 
people would love to do it, and they would make it happen, but 
their hands are tied. So----
    Mr. DeFazio. And, Mr. Brown, you raised the lack of 
accountability for the use of fees in some areas. Anybody else 
experienced that kind of problem, where you think that the fees 
did not go back into the resource?
    Mr. Duncan. Oh, sure. Yes, absolutely. An unusual thing 
happened in our Forest Service district in 2004. We were in a 
four-wheel drive Jeep-style touring company in the high country 
above Telluride. And our Forest Service district claimed 
jurisdiction over the county road system that passes through 
some Forest Service lands and some of the old mining company 
lands above Telluride.
    Now, whether they are right or wrong in doing that, we 
expected some good and some bad to come from that. We came 
under fee structure for those tours, it is a large guide 
service for us, so that was not an insignificant amount of 
money that we began paying and have continued to pay each year 
since, and we really expected to see some direct returns from 
that, in terms of the Forest Service investment up in those 
high basins up there.
    And I will tell you honestly. I know technically they have 
done more than this, but the most concrete thing that has come 
from that whole process and from those funds has been the 
installation of an outhouse for 3 months a year in Savage Basin 
at 12,000 feet above Telluride. And from what I can tell, that 
is what we have gotten out of our $45,000.
    Mr. Bishop. OK.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Bishop. Thank you very much. Mr. Labrador, do you have 
questions?
    Mr. Labrador. Thank you, Mr. Chairman. Mr. Simonds, we 
welcome you here, and thanks for being here. And, as all of you 
know, he is the Executive Director of the Idaho Outfitters and 
Guides Association, and we are grateful for the role that he 
has had since 1985. And he has seen a multitude of changes come 
over the Idaho recreation industry, from new management plans 
to new national monuments to the introduction of wolf packs.
    The Idaho Outfitters and Guides Association has a diverse 
membership, mostly small, independently owned businesses 
offering guided hunting, fishing, hiking, river-running, and 
other outdoor adventures. And I just really want to thank you 
for being an ambassador for Idaho and for the recreation 
industry that is so vital and so important to us.
    And just a little plug for Idaho, Idaho offers high-quality 
recreation trips in secluded Alpine mountain and high desert 
settings. We have 3,200 miles of white water rivers, which I 
love to do, and I enjoy. And the most in the Lower 48 States. 
And Idaho has some of the best blue ribbon trout fishing in the 
Nation, not to mention the chance to catch ocean-going 
steelhead and salmon.
    But Mr. Simonds, I understand how important these issues 
are to you, and I just have a few questions for you. In your 
testimony you talk of a backlog of a trail maintenance. This is 
an obligation the Federal Government assumed when it created 
the Frank Church Wilderness Area in Idaho. Does the Federal 
Government meet its obligations to maintain trails in the Frank 
Church Wilderness?
    Mr. Simonds. Well, Congressman, thank you for the kind 
words about the industry in Idaho. The Forest Service, as I 
mentioned, has been able to maintain about 20 percent of those 
2,500 miles of trail. They do a good job with the resources 
they have. But what we have seen, especially with the large 
catastrophic fires since the late 1980s, and with the lack of 
resources, lack of trained personnel, they are not able to get 
to it, our folks are not able to get to it. What we are seeing 
is a loss of access to some portions of the wilderness area.
    And this is not just a Frank Church problem; this problem 
extends to nearby forests and, in fact, is a Western United 
States problem on public lands, where essentially we need more 
boots on the ground, to make a long story short, and we need 
incentives for getting more boots on the ground, some of which 
I mentioned in my testimony.
    Mr. Labrador. OK. I understand, as you say, we need more 
boots on the ground. And we all understand that funds are 
extremely tight at the Federal level and in our government 
right now. And we are borrowing money at a frightening pace. So 
I understand that there may not be taxpayer dollars available 
to do everything we would wish to do. But do you have some 
other ideas about what we could do to actually maintain trails? 
If we can't afford it from the Federal perspective, what do you 
think we could be doing at the State level?
    Mr. Simonds. Well, I think some things are being done, 
because we have cooperative projects whereby the agencies will 
apply for additional funds for trail maintenance from the Idaho 
Department of Parks and Recreation. And, in fact, our 
organization has cooperated with the Nez Perce Clearwater 
Forest to extend through Parks and Recreation funding, to add 
more trails to the maintenance backlog. There is going to be a 
2-day session at the end of this month to explore more ways to 
collaborate.
    I mentioned in my testimony outfitters need to be 
incentivized to provide some sort of credit against the fees 
they pay the Federal Government for work done on the ground. 
That would go a huge way to further incentivize our folks who 
have the tools, have the resources to be out there. They are 
out there, anyway.
    So, that is a couple of ideas that I would like to see 
occur.
    Mr. Labrador. OK. Thank you very much.
    Mr. Bishop. Thank you. I appreciate that. Let me ask a 
couple questions, if I could, myself. Starting with Mr. 
Merrill, your testimony talked about a term called ``back 
country.'' Is wilderness the only conservation designation that 
should be considered as part of the Eastern Utah land plan 
process that we are going through?
    Mr. Merrill. No. In fact, I think ``wilderness'' should be 
used sparingly, because it comes with so many restrictions. And 
perhaps there is not a designation that truly allows for 
recreation the way that it should. And so, my thought was that 
maybe a new type of designation--and we could call it back 
country--that includes recreation as a primary value for which 
that area would be managed. And it defines recreation as an 
important purpose, because often in wilderness designations, 
recreation is left out altogether, or is incredibly limited. 
So----
    Mr. Bishop. What has been your personal role with the 
Governor's outdoor recreation vision and office?
    Mr. Merrill. I was not part of the development of that 
vision, but I have asked to be part of anything going forward, 
and ensure that the outfitters will have a seat at that table.
    Mr. Bishop. So what has it been like to partner with that 
office?
    Mr. Merrill. It is just getting going. But I think it is a 
sincere effort. Alan Matheson, who works for the Governor, I 
think, is really reaching out, in combination with your office. 
And they have asked for input from the Utah Tourism Industry 
Coalition and from Utah Guides and Outfitters. And I think it 
is going to be a good thing.
    Mr. Bishop. OK. I appreciate that. Mr. Bannon, as I 
understand from Representative Lummis' questions, you came up 
with the Leave No Trace principle?
    Mr. Bannon. In conjunction with a lot of other partners, 
yes.
    Mr. Bishop. So, as I understand also, the Canyonlands 
National Park has banned you, specifically saying they worry 
that you are not going to adhere to that principle?
    Mr. Bannon. Congressman, thanks for the question. This 
happened before my time. So as I understand it, looking back, 
when Canyonlands decided to reduce their group size numbers to 
seven, one of the things they cited was Leave No Trace, as the 
reason they were doing that. And, unfortunately for us, it was 
too low a limit.
    Mr. Bishop. I want to come back to those visitation sizes 
at some time. But, Mr. Brown, let me ask you first. Are there 
some administrative land designations which impact negatively 
outdoor recreation and things like parks?
    Mr. Brown. Within the Park Service, or----
    Mr. Bishop. Within the Park Service. Let's stick with them.
    Mr. Brown. Well, one of the issues is the general 
management policies require the Park Service to manage any 
lands that are suitable proposed study areas as wilderness. And 
that is having an impact, because it does, as Mr. Bannon has 
indicated, can reduce party sizes unnecessarily.
    Mr. Bishop. So back country activities have declined 
because of that?
    Mr. Brown. Back country camping, according to the Park 
Service public statistics website, has declined.
    Mr. Bishop. Let me go through two other things that you 
were hit up with from Mr. DeFazio, as well. The idea of these 
fees that are being paid, is there a need for transparency in 
how those fees are being collected and how they are being used?
    Mr. Brown. Absolutely. And I think more public involvement. 
I am not sure the RAC process has worked quite as it should 
have. It was established when FLREA was first passed. I think 
maybe something as simple as public meetings to explain how the 
fees were used, how they are going to be used in the future 
where those amenity fees are applied to the resource, would be 
helpful. But that is an adjustment that could be made in FLREA.
    Mr. Bishop. In your written testimony you use such phrases 
as, ``within the forest, the process has become more complex 
over time, as a result of court rulings that''--where are we 
here? ``Permits and new activities are rare in the national 
forests because agency staffs can't jump through the hoops and 
issue permits fast enough.''
    Is fear of litigation something that is really driving us 
to paralysis in dealing with a lot of these issues?
    Mr. Brown. That is correct. We saw that in the Pasayten 
Wilderness, where they went to the full EIS process, primarily 
because there were concerns about litigation. The needs 
assessment process, there was a lawsuit filed in Kings Canyon 
to prohibit the issuance of permits last year for the pack 
outfitters. And so, that is creating a process. The Park 
Service has even identified that in their own internal 
documents.
    Mr. Bishop. All right, thank you. I have a few more 
questions, but let me go to the rest of the panel first before 
I come back and ask any more.
    Mr. McClintock, do you have other questions for this group?
    Mr. McClintock. Thank you, Mr. Chairman. Just a couple 
more. Mr. Brown, you had first mentioned legislative solutions. 
In fact, all of you have, in one capacity or another. But isn't 
this also an attitude that is simply now rampant throughout our 
land management agencies?
    On the earlier panel, I cited complaints that I have 
received from my constituents. In Yosemite Valley, forbidding 
bicycle and raft rentals, equestrian activities. On the Forest 
Service lands, running out grazing operations that have been 
there for generations, running out folks who have leased cabins 
on the public lands for generations.
    It seems to me that one common denominator for all of these 
policies across all of the public land management agencies is 
to coax the public off the public's lands. And when they are 
allowed on their own land, the public, they are told, ``Look, 
but don't touch.''
    Again, in Yosemite, I have asked for their rationale for 
banning these amenities that have been in operation there, 
literally, for generations. Yosemite was set aside 150 years 
ago specifically for public use, resort, and recreation. And 
through all of these years, commercial activities have provided 
visitors there with the amenities that make their stay more 
pleasant. And now we are told, ``Well, commercial activities 
are not compatible with the public lands.''
    Now, it seems to me that if somebody wants to rent you a 
bicycle or a horse to ride through the park, is that such a bad 
thing? The Park Service says, ``Well, don't worry. Yes, we are 
banning the commercial rentals because we don't like commercial 
activities, but it is OK if you want to bring your own.'' Well, 
first of all, bringing your own horse to Yosemite from 
Wisconsin is a bit of a logistical problem to begin with. But 
setting all that aside, it seems to be that it is not so much 
the activity they object to, it is the commercial aspect of the 
activity.
    And I would be interested in your observations and 
comments, because you folks are all engaged in commercial 
activities, providing amenities to folks who are using their 
own public lands. What are you picking up out there? And what 
should we be doing about it?
    Mr. Brown. Well, I do think there is some resentment of the 
private sector in some segments of the agencies. We do see that 
in the wilderness in particular. But in the Yosemite situation, 
obviously, you know there was a lawsuit filed. And the court 
ruled that they had to establish a carrying capacity consistent 
with the wild and scenic designation----
    Mr. McClintock. Well, actually, just to interrupt you on 
that, the court did not mandate any of these activities. They 
simply required a plan. And Democratic congressman Tony Coelho, 
author of the wild and scenic designation for the Merced River 
that moves through Yosemite, has just written a stinging letter 
saying this was never intended to be applied at Yosemite Park, 
and is completely inapplicable.
    Mr. Brown. Well, no, I agree with that. And what I am 
suggesting is that I think it is why, when there is a 
designation, to avoid this kind of outcome you really probably 
have to direct the agencies to provide these services to the 
extent possible. Because I am not sure of any other way to 
adjust the culture.
    Mr. McClintock. Mr. Simonds, is this an attitude that we 
are seeing rampant throughout these Federal land management 
agencies?
    Mr. Simonds. Well, we see this at various times. Certainly 
there are land managers who understand that access to our 
public resources is necessary and encourage it. On the other 
hand----
    Mr. McClintock. If I can just interrupt and underscore that 
point, I did a tele-town hall meeting with all the folks from 
the gateway communities of Yosemite. Some 5,000 individuals 
joined that call, 89 percent, by the way, opposed to these 
activities. But one of the most interesting insights was a 
former Park employee who says, ``You know, the Park employees 
are all against these changes. You know, we want to welcome the 
public to the public's lands. The problem is that management is 
now stopping us from doing so.'' So it is coming from the top, 
it appears to me.
    Mr. Merrill, your observations in 15 seconds?
    Mr. Merrill. Sometimes you do see that. I think often they 
feel pressure from outside organizations, too, that have a bias 
against commercial operations. And so people within the Agency 
who are of a like mind I think tend to go in lock step with 
those groups. But that is what we see a lot of times, and I 
think it is outside pressure that they are feeling, and the 
threat of lawsuits from those groups that drives their 
decision-making.
    Mr. Bishop. Thank you. Mr. Grijalva?
    Mr. Grijalva. No.
    Mr. Bishop. Mrs. Lummis, do you have more?
    Mrs. Lummis. Yes, thank you, Mr. Chairman. Mr. Brown and 
Mr. Merrill, when the National Landscape Conservation System 
was created, could you have anticipated the real impacts it has 
had on access to recreation in congressionally designated 
areas?
    Mr. Brown. Well, actually, I raised the issue to some of my 
colleagues, that the designation did not include recreation as 
a value for which the NLCS was established. Really, but it 
includes all designated areas. So all the areas that were 
designated prior to the NLCS fall under the umbrella. And, 
therefore, they could be impacted if recreation is not 
specifically identified, again, as a purpose for the area. So I 
think it is going to have a significant impact.
    Mrs. Lummis. And so you think there is a disconnect between 
the National Landscape Conservation System, the way it is being 
implemented, and the previous land designations?
    Mr. Brown. Well when I first brought up the NLCS as an 
administrative kind of construct, it was working landscapes. 
Overnight it changed into educational preserves, basically. So 
after the legislation was--the enabling legislation passed.
    Mrs. Lummis. Anyone else want to comment on that?
    Mr. Merrill. I described it in my written testimony as a 
bias against recreation. And I don't know if it is so much a 
bias, as it is just an absence of mention of it. So it has 
created a conflict with the way things used to go. It doesn't 
mention the historic use that was already in place, and it 
specifically talks about science and all these other things as 
the top priority, and so recreation naturally takes a back 
seat, because that is what the NLCS is telling them to do. So--
--
    Mrs. Lummis. Do any of you know any use of public lands for 
which we have not tied ourselves in bureaucratic knots?
    Mr. Duncan. I see it as the biggest single challenge. I see 
red tape as the single biggest challenge in trying to clean the 
system up and making it more functional for everyone. I really 
do.
    Mrs. Lummis. Anyone else on that?
    [No response.]
    Mrs. Lummis. Thank you, Mr. Chairman. I yield back. Thank 
you all for your testimony, by the way. I deeply appreciate 
your comments. It is interesting at how frustrated everyone is. 
Everyone is, with public land administration.
    Mr. Bishop. Yes. I have appreciated both panels being here. 
You can time me. Yes. I have appreciated both panels who have 
been here, simply because we have illustrated in the old school 
it was the idea that you either drill or it is wilderness. It 
is an either/or situation. I think what you have clearly 
illustrated is there is another option that is out there, and 
that sometimes wilderness is not the best designation for 
outdoor recreation.
    And indeed, if we are not using public lands for outdoor 
recreation, then we are going back to the era of the Normans 
when they came in and they took over the forest and they took 
over all the wildlife. Well, we are replicating some of that 
today.
    So, I do appreciate the concepts of the indication of how 
we can use--that sometimes land designation impedes our ability 
to use it. I appreciate your references to the litigation, 
which I think drives some of the paralysis. I appreciate your 
talking about the transparency factor of the fees that we need.
    I do want to just--well, let me--Mr. Brown, let's say, for 
example, they start taking the secondary trails off of the 
system. What does that actually do to the primary trails?
    Mr. Brown. Well, it concentrates use into those areas. And 
then you begin to have people complaining about crowding or 
potential carrying capacity issues, especially in wilderness.
    Mr. Bishop. So it becomes counterproductive to go in there.
    Mr. Brown. Correct.
    Mr. Bishop. Mr. Bannon, because I am truly mystified by 
this concept of limitation of size, of the downgrading of size, 
has to be there. And I don't know where I am going with this, 
but I would like you just to simply talk about that. Or maybe 
any of the others who wanted to.
    I am under the assumption that size is not a static number 
that should be there. Wouldn't it be impacted by the groups and 
the kinds of groups and the purpose for which they are 
visiting?
    And I am also wondering that isn't our visitation rates 
going down, as far as number, as well as time spent in these 
particular areas? And the goal should be to bring that up.
    So, what kind of matrix is being used to come up with these 
formulas that says you have to be downsized in some way?
    Mr. Bannon. Mr. Chairman, I think that is very perceptive, 
in that group size is a one-size-fits-all solution managed for 
outdoor educators, managed for horse packers, everyone. 
Sometimes it is 20 heartbeats, and that is all the horses and 
people that you can take to a place. So there is no flat way 
that group size is implemented.
    I think that the way that NOLS operates definitely doesn't 
fall well under the group size limitation, because you will 
never see a group size of 15 or 20 moving through a place. You 
will see five or six, just as Leave No Trace dictates. So it is 
not a good fit.
    And, I am sorry, the other half of your question?
    Mr. Bishop. I do not remember what it was, either. So it is 
OK.
    [Laughter.]
    Mr. Bishop. I just wonder that sometimes our concept of 
science isn't really science, it is more like value structure 
that is being viewed as some kind of science there.
    Didn't one of you write in your testimony about the idea of 
a heartbeat rate instead of a person? Was that you, Mr. Brown?
    Mr. Brown. Yes, one of the ways they manage group size is 
by heartbeats. And that would be a combination of stock and 
people. So it is kind of an unusual construct, I think.
    Mr. Bishop. So if you are fat, like me, your heart goes 
faster, right? So does that count as more of a beat than 
somebody who is lean and----
    Mr. Brown. I think you have given them another 
consideration now that we probably would not want them to know 
about.
    Mr. Bishop. Probably talk too much. OK. Let me say to the--
unless there are other questions that anyone has?
    [No response.]
    Mr. Bishop. I do appreciate your coming the distance out 
here to testify on this. This is one of those issues that I 
think we are going to be talking about. This is the overview, 
but we are going to be talking about it as time goes on, that 
obviously we have a different paradigm that needs to be here, 
and make sure that the lands values that we put into place 
clearly allow for outdoor recreation as one of the purposes 
that should be there, and it should not be just forgotten or 
secondhand or an after-thought in what we are doing.
    I appreciate the witnesses who are here. There may be other 
questions Members have. We would ask you to respond in writing 
to any written questions submitted by them, and we have 10 days 
in which Members can do that.
    Once again, I duly want to thank both panels for being 
here. And, actually, Congressman Heck, for bringing that 
situation to our attention. I think it has been an informative 
morning. And I appreciate the members on the panel who have 
been here, and I thank Mr. McClintock for filling in for me. 
You saved me with my German friends in the other room.
    With that, if there is nothing else, no further business, 
without objection, this Subcommittee stands adjourned.
    [Whereupon, at 12:23 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

      Statement of Rick J. Lindsey, President, Chairman and CEO, 
                        Prime Insurance Company

    Dear Chairman Bishop, Ranking Member Grijalva and Members of the 
Subcommittee:
    My name is Rick J. Lindsey, and I am the President, CEO and 
Chairman of Prime Insurance Company as well as several affiliated 
insurance services companies.
    Prime is an Illinois domiciled Specialty Insurer providing hard to 
place insurance for our customers throughout the United States and its 
Territories.
    I have worked in the insurance industry my entire adult life, 
starting in 1979, finding a niche during the insurance crisis of 1985 & 
1986. I have specialized in providing insurance solutions as the named 
underwriter for Worldwide Outfitters & Guides Association, (``WOGA''), 
on behalf of outfitters and guides around the country!
    I am proud to say that I have been able to provide a stable 
insurance market for this Class of insureds and continue to do so. In 
fact, I do not know of any other insurance company that has been able 
to support this Class on a consistent basis over time. Other carriers 
have tried, but have not understood the business and have ultimately 
dropped out after losing money on it.
The Insurance Crisis of the Early 1980s:
    As you may be aware, in 1986, the insurance industry was in crisis 
and at that time, the Federal Government reacted by enacting the 1986 
Federal Risk Retention Act to enable similarly situated members of an 
industry to form Associations for the purpose of procuring liability 
insurance. The Recreational Outfitters and Guides formed Associations 
and the process has worked very well all these years. Unfortunately, 
the well-publicized current insurance industry crisis together with the 
National Park Service's new mandate for $5,000,000 insurance limits 
will conspire to put an unprecedented strain on both the Insurance and 
the Outfitters & Guides industries, respectively.
New Draconian NPS Requirements:
    Specifically, it has come to my attention that the National Park 
Service is, for some unknown reason, creating many new draconian, 
unwanted, and unwarranted burdens on the Outdoor Recreation & Guided 
Tour Industry. One of these new unnecessary burdens is the proposed 
ten-fold increase in the policy limits they must buy, from $500,000 to 
$5,000,000, which will financially burden them to the extent that many 
of the highly skilled, smaller Guides will literally be put out of 
business as a result!
    This saddens me because, having grown up in a state that has the 
highest number of National Parks in the nation, and realizing that 
these unique places are best visited with a smaller, locally owned 
guide business, I believe that access will soon be curtailed for many 
Americans!
    Many of the smaller local experts will be forced out of business 
because they will simply not be able to afford this extraordinary 
insurance limit requirement. This means that there will be far fewer 
local experts in the outdoor guided tour industry. It's disturbing to 
think that the remaining guides will inevitably be a few huge, over-
crowded operations with young, largely inexperienced employees.
The Big Insurance Brokers & The Trial Lawyers:
    However, these new burdensome insurance requirements will 
undoubtedly help two groups of Americans: Big insurance brokers like 
AON, and Trial Lawyers.
    My experience has always been that whatever the Policy Limit is, 
the Trial Lawyers will make that their natural target! In insuring 
Outfitters and Guides for over two decades, my company, Prime, has 
certainly handled many serious injury and fatality claims, BUT we have 
never had even one claim that could not be satisfactorily resolved 
within the currently mandated $500,000 insurance limit. If the limits 
are increased by ten-fold, it will simply mean that the Plaintiff 
Lawyers will have a much larger target to pursue, at the expense of 
putting some of the very best Outfitters & Guides in this country out 
of business.
Other Insurance Companies and What They Can Offer:
    I was appalled to see a recent report generated by AON which, in my 
opinion, tried to gloss over the effects of the proposed new insurance 
requirement on Outfitters & Guides. It indicated, in essence, that the 
increased requirement for policy limits would not cost that much more 
and that there are plenty of insurers that can provide coverage to this 
highly unique class of risk. Having read the report, I personally 
telephoned people I know at the top of the organizations that were 
cited in the report and I was informed that they did not know where the 
report got its information, but that much of what was conveyed in it 
about what these carriers could do was wholly inaccurate!
    Again, my experience has been that even where large carriers have 
attempted to insure this Class over time, they have been unsuccessful 
in doing so and have later abandoned their insureds and gotten out of 
the business altogether.
Insurance Requirements for Other Classes of Risk:
    It also seems highly inconsistent to me that our ``Big Government 
of the Day'' wants to focus its draconian attention on Outfitters and 
Guides and require them to pay so much more for $5,000,000 in coverage 
when other, arguably more dangerous operations in our country are still 
required only to have a fraction of the insurance! Examples include 
Minimum Limits for Auto Liability coverage which in most states are 
around $15,000 Per Person and $30,000 Per Accident. I am also a pilot 
and therefore closely follow requirements in the Aviation industry. 
Surprisingly, aircraft are required to carry insurance in only 5 
states, and in those states, the required limits are only $50,000 Per 
Person/$100,000 Per Accident. The vast majority of states have no 
requirements and there is no Federal insurance mandate by the FAA. 
Also, many small airports are not required to carry any insurance at 
all! Again, my experience in insuring Outfitters and Guides is that the 
current $500,000 limits are more than adequate!
What are the Real Reasons for Attacking Outfitters?:
    It seems, therefore, that Outfitters & Guides have been singled out 
for ``Special Treatment'' by the U.S. Government and I don't believe 
that any of us really understands why. As an insurance professional, it 
is certainly my firm belief that insurance limits for this Class do not 
need to be increased. Therefore, I think we would all like to know the 
real reason for the government targeting Outfitters & Guides across the 
board.
In Summary:
    In summary, therefore, increasing the insurance requirements by ten 
times on this stressed class of business fails to contemplate the 
ramifications of this enormous new bureaucratic burden. Such 
ramifications, as I have tried to illustrate here today, include vastly 
increased expenses for existing professional Outfitters and Guides, 
many of whom will simply be put out of business altogether, an 
insurance industry that cannot provide a long term market at the 
unrealistic prices contemplated by the AON Memo, and far fewer expert 
Guides in the future. This will result in greatly reduced access for 
the American public to recreational activities in America's parks, as 
well as compromised safety.
    In conclusion, we must be careful not to find ourselves in a more 
dire position than we found ourselves in during the mid-1980s when the 
1986 Risk Retention Act had to be passed to alleviate the problem at 
that time. Unfortunately, the insurance industry is no better off now 
than it was then and the litigation problems that caused the insurance 
crisis have not gone away. Nothing has changed and the little ``Tort 
Reform'' that has occurred has simply resulted in caps on certain types 
of litigation recoveries. The massive underlying litigation problem 
still persists and increasing the limits required of outfitters & 
guides by 10 times is only going to worsen this out-of-control 
litigation problem. In addition, the authentic experience of visiting 
the Nation's parks will be greatly diluted as a result of replacing 
local expert guides with a few very large corporate operations and 
their employees who are likely to be non-local and far less 
experienced.
    Thank you for listening, and I trust you will be able to stop this 
proposed bad law from being enacted as its adverse ramifications do not 
seem to be fully appreciated by those who created it.
                                 ______
                                 

    The documents listed below have been retained in the 
Committee's official files.
    <bullet>  American Adventure Tours Inc., Letter to Senator 
Harry Reid submitted for the record encouraging the Senator to 
attend the hearing
    <bullet>  American Mountain Guides Association, Letter 
submitted for the record
    <bullet>  American Packrafting Association, Letter 
submitted for the record
    <bullet>  Back Country Horsemen of America, Letter 
submitted for the record by Jim McGarvey, Chairman, wanting 
lands to remain open for recreational stock use
    <bullet>  International Mountain Bicycling Association, 
Letter submitted for the record
    <bullet>  Marrs, Wayne, St. Elias Alpine Guides, McCarthy, 
Alaska, Statement submitted for the record with his views on 
issues regarding guides and outfitters on public lands
    <bullet>  Outdoor Alliance, Letter submitted for the record
    <bullet>  Stoneman, Darwon R., Managing Partner, Glacier 
Raft Company and Glacier Anglers, Statement submitted for the 
record with an outfitter and guide overview
    <bullet>  Turiano, Thomas, Comments submitted for the 
record
    <bullet>  The Wilderness Society, Letter submitted for the 
record
    <bullet>  Wyatt, Rick, President, American Adventure Tours 
Inc., Statement submitted for the record

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
